<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 112-198]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-198

                      THE SITUATION IN AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2011

                               __________

         Printed for the use of the Committee on Armed Services



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-295 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)










                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                      The Situation in Afghanistan

                             march 15, 2011

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary of Defense for Policy.     7
Petraeus, GEN David H., USA, Commander, International Security 
  Assistance Force, and Commander, U.S. Forces Afghanistan.......    16

                                 (iii)

 
                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                        TUESDAY, MARCH 15, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Nelson, Webb, McCaskill, Udall, Hagan, Begich, Manchin, 
Shaheen, Gillibrand, Blumenthal, McCain, Inhofe, Sessions, 
Chambliss, Wicker, Brown, Portman, Ayotte, Collins, Graham and 
Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Gerald J. Leeling, counsel; Jason W. 
Maroney, counsel; William G.P. Monahan, counsel; Michael J. 
Noblet, professional staff member; and William K. Sutey, 
professional staff member
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; Michael J. 
Sistak, research assistant; and Diana G. Tabler, professional 
staff member.
    Staff assistants present: Kathleen A. Kulenkampff, Hannah 
I. Lloyd, and Breon N. Wells.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Ann Premer, assistant to Senator Nelson; Gordon 
Peterson, assistant to Senator Webb; Tressa Guenov, assistant 
to Senator McCaskill; Roger Pena, assistant to Senator Hagan; 
Lindsay Kavanaugh, assistant to Senator Begich; Joanne 
McLaughlin, assistant to Senator Manchin; Elana Broitman, 
assistant to Senator Gillibrand; Ethan Saxon, assistant to 
Senator Blumenthal; Anthony Lazarski, assistant to Senator 
Inhofe; Clyde Taylor IV, assistant to Senator Chambliss; Joseph 
Lai, assistant to Senator Wicker; Brad Bowman, assistant to 
Senator Ayotte; Ryan Kaldahl, assistant to Senator Collins; and 
Grace Smitham and Russ Thomasson, assistants to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Before we begin our hearing, we have a quorum, so I'm going 
to ask the committee to consider two civilian nominations and a 
list of 252 pending military nominations. First I would ask the 
committee to consider the nominations of Michael Vickers to be 
Under Secretary of Defense for Intelligence, and Jo Ann Rooney 
to be Principle Under Secretary of Defense for Personnel and 
Readiness. These nominations have been before the committee for 
the required length of time.
    Is there a motion to favorable report?
    Senator McCain. So moved.
    Chairman Levin. Is there a second?
    Senator Nelson. Second.
    Chairman Levin. All in favor, say aye. [Chorus of ayes.]
    Opposed, nay. [No response.]
    The motion carries.
    Second, I would ask the committee to consider a list of 252 
pending military nominations. Included in this list is the 
nomination of General Martin Dempsey to be Chief of Staff of 
the U.S. Army. All the nominations have been before the 
committee for the required length of time.
    Is there a motion to favorably report?
    Senator McCain. So moved.
    Chairman Levin. Is there a second?
    Senator Reed. Second.
    Chairman Levin. All in favor, say aye. [Chorus of ayes.]
    Opposed, nay. [No response.]
    The motion carries.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
which are Proposed for the Committee's Consideration on March 15, 2011.
    1. RADM James P. Wisecup, USN to be vice admiral and Inspector 
General, Department of the Navy (Reference No. 170).
    2. In the Marine Corps, there is one appointment to the grade of 
major (Daniel A. Sierra) (Reference No. 177).
    3. In the Marine Corps there is 1one appointment to the grade of 
lieutenant colonel (Jeffrey S. Forbes) (Reference No. 196).
    4. LTG Purl K. Keen, USA, to be lieutenant general and Chief, 
Office of the Defense Representative-Pakistan, U.S. Central Command 
(Reference No. 213).
    5. GEN Martin E. Dempsey, USA, to be general and Chief of Staff, 
U.S. Army (Reference No. 247).
    6. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Garry W. Lambert) (Reference No. 
258).
    7. In the Navy, there are 23 appointments to the grade of commander 
and below (list begins with Karin E. Thomas) (Reference No. 259).
    8. MG Joseph L. Votel, USA, to be lieutenant general and Commander, 
Joint Special Operations Command/Commander, Joint Special Operations 
Command Forward, U.S. Special Operations Command (Reference No. 262).
    9. In the Army, there is one appointment to the grade of major 
(Stacy J. Taylor) (Reference No. 264).
    10. In the Army, there are 90 appointments to the grade of major 
(list begins with Temidayo L. Anderson) (Reference No. 265).
    11. Maj. Gen. Thomas L. Conant, USMC, to be lieutenant general and 
Deputy Commander, U.S. Pacific Command (Reference No. 276).
    12. In the Air Force, there are 14 appointments to the grade of 
lieutenant colonel (list begins with David Lewis Buttrick) (Reference 
No. 278).
    13. In the Air Force, there are 20 appointments to the grade of 
major (list begins with Martin D. Adamson) (Reference No. 279).
    14. In the Army, there is one appointment to the grade of major 
(Paul L. Robson) (Reference No. 280).
    15. In the Army, there is one appointment to the grade of major 
(Brian M. Boyce) (Reference No. 281).
    16. In the Army, there is one appointment to the grade of 
lieutenant colonel (Jan I. Maby) (Reference No. 282).
    17. In the Army, there are two appointments to the grade of major 
(list begins with Jason K. Burgman) (Reference No. 283).
    18. In the Army, there are four appointments to the grade of 
lieutenant colonel and below (list begins with Lee A. Burnett) 
(Reference No. 284).
    19. In the Army Reserve, there are six appointments to the grade of 
colonel (list begins with Kenneth P. Donnelly) (Reference No. 285).
    20. In the Army, there are 12 appointments to the grade of 
lieutenant colonel and below (list begins with Kevin J. McCann) 
(Reference No. 286).
    21. In the Army, there are 15 appointments to the grade of colonel 
and below (list begins with John S. Kuttas) (Reference No. 287).
    22. In the Navy, there is one appointment to the grade of captain 
(Daniel A. Freilich) (Reference No. 289).
    23. BG Donald L. Rutherford, USA, to be major general (Reference 
No. 310).
    24. In the Air Force, there are 13 appointments to the grade of 
lieutenant colonel and below (list begins with Christian R. Schlicht) 
(Reference No. 311).
    25. In the Army, there is one appointment to the grade of major 
(Nicole K. Avci) (Reference No. 312).
    26. In the Army, there is one appointment to the grade of major 
(Edmond K. Safarian) (Reference No. 313).
    27. In the Army, there are two appointments to the grade of 
lieutenant colonel and below (list begins with Charles L. Clark) 
(Reference No. 314).
    28. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Richard T. Grossart) (Reference 
No. 315).
    29. In the Navy, there are two appointments to the grade of 
commander and below (list begins with John A. Salvato) (Reference No. 
316).
    30. MG Donald M. Campbell, Jr., USA, to be lieutenant general and 
Commanding General, III Corps and Fort Hood (Reference No. 323).
    31. Lt. Gen. John F. Kelly, USMC, to be lieutenant general and 
Senior Military Assistant to the Secretary of Defense (Reference No. 
324).
    32. VADM Joseph D. Kernan, USN, to be vice admiral and Deputy 
Commander, US Southern Command (Reference No. 325).
    33. In the Army, there are six appointments to the grade of major 
(list begins with Erik M. Benda) (Reference No. 327).
    34. In the Army Reserve, there are seven appointments to the grade 
of colonel (list begins with Kevin B. Dennehy) (Reference No. 328).
    35. In the Navy, there is one appointment to the grade of 
lieutenant commander (Brandon M. Oberling) (Reference No. 331).
    36. In the Navy, there are three appointments to the grade of 
commander and below (list begins with William A. Brown, Jr.) (Reference 
No. 332).
    Total: 252

    Chairman Levin. Today the committee receives testimony from 
Under Secretary of Defense for Policy Michele Flournoy, and 
General David Petraeus, Commander, North Atlantic Treaty 
Organization (NATO) International Security Assistance Force 
(ISAF) and Commander, U.S. Forces Afghanistan.
    We thank you both for your years of service to the Nation 
and the sacrifice made by both you and your families.
    We also cannot express enough our gratitude and admiration 
for the men and women in uniform deployed in Afghanistan and 
elsewhere. They are doing a phenomenal job. Their morale is 
high. Our troops are truly awe-inspiring. Please pass along our 
heartfelt thanks to them.
    It has now been a little over a year since President 
Obama's speech at West Point announcing his strategy for 
Afghanistan. That strategy included two key elements: a surge 
of 30,000 U.S. troops to help reverse the Taliban's momentum 
and seize the initiative; and the setting of a date 18 months 
from then, or July 2011, for when U.S. troops would begin to 
come home. The setting of that July date also laid down a 
marker for when the Government of Afghanistan would assume more 
and more responsibility for that country's security.
    During his visit to Afghanistan last week, Secretary Gates 
determined that ``we will be well-positioned for transitioning 
increasing security responsibility to Afghanistan and beginning 
to draw down some U.S. forces in July of this year''. President 
Karzai is expected to announce next week the first phase of 
provinces and districts throughout Afghanistan that will 
transition lead for providing security to the Afghan people.
    We've heard two messages in recent months relative to the 
July 2011 date when U.S. troop numbers in Afghanistan will 
begin to be reduced. Message number 1: Secretary Gates before 
this committee recently said that the July date was needed as a 
way of telling the Afghan leadership ``to take ownership of the 
war'' and as a way to ``grab the attention of the Afghan 
leadership and bring a sense of urgency to them.''
    Message number 2: Secretary Gates, speaking at the NATO 
Defence Ministers meeting last week, said, ``There is too much 
talk about leaving and not enough talk about getting the job 
done right.''
    Now, some may dismiss those messages as inconsistent, or 
say that Secretary Gates is speaking to two different 
audiences, but I disagree. Secretary Gates well knows that with 
modern global, instantaneous communications the world is the 
audience for every utterance. The unifying thread in the two 
messages is that both are needed for success of the mission. 
Success requires Afghan buy-in, Afghans taking the lead and 
Afghan ownership of the mission, all of which in turn depend 
upon their confidence in our continuing support. Both messages, 
and the thread that unifies them, are part and parcel, I 
believe, of General Petraeus' counterinsurgency (COIN) strategy 
which is so instrumental in turning the tide in Afghanistan. 
The success of the mission depends on Afghan security forces 
holding the ground which they are helping to clear of Taliban, 
and that, to use General Mattis's words before this committee 
recently, is what ``undercuts the enemy's narrative when they 
say that we're there to occupy Afghanistan.''
    The growth in the size and capability of Afghan National 
Security Forces (ANSF) and control of territory by those forces 
is robbing the Taliban of their propaganda target and bringing 
us closer to the success of the mission. That's why I have 
pushed so hard to grow the size of the Afghan security forces 
and to keep metrics on how many Afghan units are partnered with 
us and being mentored by us, and how often Afghan units are in 
the lead in joint operations. That's why a number of us are 
pushing so hard, including with the President himself, for 
approval of the pending proposal of up to 70,000 additional 
Afghan troops and police.
    The NATO training command in Afghanistan has done an 
extraordinary job not only building the numbers of the ANSF, 
but improving their quality as well, focusing on marksmanship, 
training, leadership and literacy. This success in recruiting 
and training Afghan troops reflects the desire of the Afghan 
people to provide for their own security. That success is why 
Taliban suicide bombers attack recruiting centers. The young 
men signing up represent the Taliban's worst nightmare.
    During our visit to Afghanistan in January Senator Jack 
Reed, Senator Jon Tester, and I saw how the Afghan people have 
growing confidence in the ability of Afghan and coalition 
forces to provide security in former Taliban strongholds in 
Helmand and Kandahar Provinces. The Afghan people are returning 
to villages and communities and starting to rebuild their 
lives. Joint operations are increasingly Afghan-led in their 
planning and execution.
    As the Afghan people see their own forces providing ongoing 
protection after the Taliban are cleared out, Afghan confidence 
in the Afghan National Army (ANA) and Afghan National Police 
(ANP) grows. In the Arghandab district, the number of tips from 
locals increased significantly, enabling Afghanistan and 
coalition forces to find and clear a much greater percentage of 
improvised explosive devices (IED). The increasing support of 
the Afghan people across Helmand and Kandahar has also allowed 
partnered coalition special operations forces and Afghan 
commandos to target large numbers of insurgent leaders in the 
last few months, with the vast majority of them being captured 
without a shot being fired. The growing support of the Afghan 
people for their security forces will make the transition to an 
Afghan security lead more achievable in the short-term and 
sustainable over time.
    Certainly, challenges lie ahead. General Petraeus has said 
there will be a Taliban spring offensive, and Secretary Gates 
has warned that this spring's fighting season will be ``the 
acid test,'' in his words, as the Taliban tries to take back 
the terrain it has lost and engages in a campaign of 
assassination and intimidation. Afghan leaders need to bring a 
sense of urgency to improving governance, delivering services, 
and fighting corruption and other practices that prey upon the 
Afghan people if they're to earn the support of the people for 
the Afghan Government, and additional steps must be taken to 
end the safe havens that insurgents use in Pakistan which 
impact on Afghanistan's security.
    Finally, General Petraeus briefed NATO defense ministers at 
the meeting in Brussels last week, and I hope that he will 
address the outcomes from that meeting, including whether any 
further commitments by our NATO partners were forthcoming to 
address the continuing shortfall in trainers of Afghan troops. 
Also of interest would be the status of any discussions on a 
longer-term relationship between the United States, NATO, and 
Afghanistan beyond 2014.
    Again, our thanks to our witnesses for their work on behalf 
of our Nation, and for their devotion to the men and women who 
defend us.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I'd like to welcome our distinguished witnesses and thank 
them for their service to our Nation.
    I want to say a special note of thanks to General Petraeus. 
The truest test of a commander is whether he is worthy of the 
sacrifice made by those he leads, whether the young men and 
women whom we call upon day-in and day-out to risk their lives 
for us feel that their commander offers the same degree of 
devotion as they do. We are fortunate that General Petraeus is 
such a commander.
    It is Congress' highest priority to be just as worthy of 
the sacrifices made by the men and women of our Armed Forces 
and to provide them with everything they need to succeed in 
their mission of defending our Nation.
    So, let me take this opportunity again to say that we 
urgently need to pass a full year appropriations bill on 
defense for the remainder of fiscal year 2011, as the Secretary 
of Defense has repeatedly called for. It is irresponsible to 
continue funding our fellow Americans fighting two wars through 
piecemeal continuing resolutions that do not meet their full 
needs.
    Perhaps the greatest need of all right now is winning the 
war in Afghanistan, which is the subject of this hearing. The 
cost of our commitment to this conflict remains substantial, 
especially the precious lives we have lost. According to one 
new poll reported on in today's Washington Post, a majority of 
Americans no longer support the war. The next several months 
will therefore be decisive as winter turns to spring, and the 
traditional fighting season begins in Afghanistan.
    NATO forces will surely face a renewed Taliban offensive 
this spring to retake the territory and momentum they have lost 
on the battlefield, and those losses have been considerable. 
U.S., NATO, and Afghan Special Forces have dealt a crushing 
blow to the mid-level leadership of the Taliban and its al 
Qaeda allies. Afghan and coalition surge forces are recapturing 
the momentum in key terrain areas such as Kandahar and Helmand.
    Afghan security forces are growing in quantity and 
improving in quality even faster than planned, and the Afghan 
local police (ALP) initiative is empowering communities across 
the country to provide their own security from the bottom up, 
while Kabul does so from the top down.
    The cumulative effect of these security operations is that 
we are turning around the war in Afghanistan. But, as General 
Petraeus says and will emphasize, this progress remains fragile 
and reversible, and the sustainability of our gains will be 
tested during the fighting season ahead. We should all be very 
clear about the fact that violence will go up in the months 
ahead, and we will surely encounter setbacks in some places. As 
a result, we need to be exceedingly cautious about withdrawal 
of the U.S. forces this July, as the President has called for.
    Now, we should be mindful that perhaps the wisest course of 
action in July may be to reinvest troops from more secured to 
less secured parts of Afghanistan, where additional forces 
could have a decisive impact. In short, we should not rush to 
failure, and we should cultivate strategic patience.
    This patience will be all the more essential as we wrestle 
with two other key challenges, which our military operations 
are necessary but not sufficient to meet. The first is 
governance and corruption. American taxpayers want to know that 
the vast resources they are committing to this war effort are 
not being wasted, stolen, or misused by Afghan officials, but 
we must not allow this legitimate and critical demand to feed a 
sense of fatalism about our objectives. Some are alarmed that 
the Afghan Government is at times a weak partner, but that's 
the norm in any counterinsurgency. After all, if our local 
partners provided good governance already, there would not be 
an insurgency in the first place.
    The goal of any counterinsurgency is to create the 
conditions that enable our local partners to provide better, 
more effective, and more just governance for their people. That 
does not mean that we are trying to make Afghanistan like us, 
but rather more like Afghanistan used to be prior to the past 
three decades of civil war, when the country enjoyed half a 
century of relative peace and rising standards of living.
    A second key challenge stems from Pakistan--the growing 
instability of the country, the insurgent safe havens that 
remain there, the ties to terrorists that still exist among 
elements of Pakistan's military and intelligence services, and 
the seeming deterioration of our relationship amid the 
continued detention of U.S. Embassy official Raymond Davis. But 
here, too, a measure of patience is needed. We have sought 
every means to compel Pakistan to reorient its strategic 
calculus short of cutting off U.S. assistance, which we did 
before to no positive effect. To be sure, Pakistan deserves 
praise for some steps it has taken to fight al Qaeda and 
Taliban groups on the Pakistani side of the border. But what we 
must increasingly recognize is that perhaps the most effective 
way to end Pakistan's support for terrorist groups that target 
our partners and our personnel in the region is to succeed in 
Afghanistan. Ultimately, it is only when an Afghan Government 
and security force is capable of neutralizing the terrorist 
groups backed by some in Pakistan that those Pakistani leaders 
could come to see that a strategy of hedging their bets in this 
conflict will only leave them less secure and more isolated.
    We have made a great deal of progress in Afghanistan since 
the last hearing of this committee on the subject just over 
half a year ago. Whereas the momentum was then still with the 
insurgency, our forces have now blunted it in many places and 
reversed it in key areas of the fight. It is now possible to 
envision a process of transition to Afghan responsibility for 
security based on conditions on the ground, with 2014 being a 
reachable target date. But for that transition to be truly 
irreversible, and for it to lead to an enduring strategic 
partnership between the United States and Afghanistan, our 
country, and especially this Congress, must remain committed to 
this fight and those Americans waging it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Thank you very much, Mr. Chairman, Senator 
McCain, and distinguished members of the committee. Thank you 
very much for inviting us here today to update you on our 
efforts in Afghanistan.
    Nearly 10 years ago, al Qaeda operatives carried out 
terrorist attacks that killed thousands of Americans and 
citizens from other countries. As we all know, these attacks 
emanated from a safe haven in Taliban-controlled Afghanistan. 
In response to the September 11th attacks, the United States, 
supported by vital international partners, entered Afghanistan 
by force in order to remove the Taliban regime and to prevent 
further attacks by al Qaeda and its associates. Our mission was 
just, it was fully supported by the international community, 
and initially, it was quite successful.
    In the years that followed, however, we lost focus on 
Afghanistan. While our attention was turned away, al Qaeda, the 
Taliban, and associated extremist groups reconstituted their 
safe havens along the borderlands between Afghanistan and 
Pakistan. As a result of this inattention, we risked the return 
of a Taliban-led Afghanistan that would likely once again 
provide a safe haven for terrorists who could plan and execute 
attacks against the United States.
    When President Obama took office, he immediately undertook 
a thorough review of our strategy in Afghanistan and Pakistan, 
and reaffirmed our core goal, to disrupt, dismantle, and 
eventually defeat al Qaeda, and to prevent its return to 
Afghanistan. In the course of that review we found that the 
situation in Afghanistan was even worse than we thought and 
that the Taliban had seized the momentum on the ground.
    In response, over the course of 2009 and 2010 the President 
committed tens of thousands of additional U.S. forces to 
reverse that momentum. Last December we conducted a follow-on 
review of the strategy's implementation. In the course of that 
review we reaffirmed our core goal and the strategy's key 
elements, a military campaign to degrade the Taliban-led 
insurgency, a civilian campaign to build Afghan capacity to 
secure and govern the country, and an increased diplomatic 
effort designed to bring a favorable and endurable outcome to 
the conflict.
    Over the last year we have made significant progress. With 
the troop surge, the U.S. and our ISAF partners now have over 
150,000 troops in Afghanistan putting relentless pressure on 
the insurgents and securing more and more of the Afghan 
population. That surge has been matched by a surge in the 
numbers, quality and capability of the ANSF. During the past 
year, the ANSF have increased by more than 70,000 and we have 
been able to improve their quality substantially by developing 
Afghan non-commissioned officers and trainers, expanding the 
training curriculum, adding literacy programs, increasing 
retention rates, and partnering Afghan units with ISAF forces 
in the field.
    As General Petraeus will describe in detail, U.S. and ISAF 
forces fighting side-by-side with increasingly capable Afghan 
units throughout the country have wrested the initiative from 
the insurgents, even in the strongholds of central Helmand and 
Kandahar Provinces, and we've turned up the pressure on al 
Qaeda and its affiliates in the border regions of Afghanistan 
and Pakistan, significantly degrading, though not yet 
defeating, their ability to plan and conduct operations.
    One contributor to this positive momentum is the ALP 
initiative, a village-focused security program that has already 
significantly disrupted insurgent activity, denied insurgent 
influence in key areas, and generated serious concern among the 
Taliban leadership.
    At the same time, we've ramped up our civilian efforts to 
improve Afghan governance and development. Today, thanks to the 
civilian surge, there are more than 1,000 civilian experts from 
nine different U.S. agencies helping to build Afghan governance 
and economic capacity, work that is absolutely vital to the 
ultimate success of our overall mission in Afghanistan.
    Nevertheless, the significant gains we've made in the last 
year are still reversible. There is tough fighting ahead, and 
major challenges remain. Most notably, we must continue our 
efforts with Pakistan to eliminate terrorist and insurgent safe 
havens. We seek to build an effective partnership that advances 
both U.S. and Pakistani interests, including the denial of safe 
havens to all violent extremist organizations. To do so, we 
must demonstrate to our Pakistani partners that we will remain 
a strong supporter of their security and prosperity, both now 
and in the years to come, even as we ask them to do even more 
to defeat terrorism.
    In addition, we must work with the Afghan Government to 
tackle corruption, especially predatory corruption that erodes 
public trust and fuels the insurgency, and we must help create 
the conditions necessary to enable a political settlement among 
the Afghan people. This includes reconciling those insurgents 
who are willing to renounce al Qaeda, forsake violence, and 
adhere to the Afghan constitution.
    This July we will begin a responsible conditions-based 
drawdown of our surge forces in Afghanistan. We will also begin 
the process of transitioning provinces to Afghan lead for 
security, and by the end of 2014, we expect that Afghans will 
be in the lead for security nation-wide. This transition is a 
process, not an event. The process will unfold village by 
village, district by district, province by province. The 
determination of when the transition will occur and where it 
will occur is going to be based on bottom-up assessments of 
local conditions. This process is beginning now and, in fact, 
we do expect President Karzai to announce the first round of 
districts and provinces for transition on March 21st.
    As this transition process gets underway, and as ANSF 
capabilities continue to develop, we and our ISAF partners will 
thin out our forces as conditions allow, and gradually shift to 
more and more of a mentoring role with the ANSF.
    Some of the ISAF forces that are moved out of a given area 
will be reinvested in other geographic areas or in the training 
effort, in order to further advance the transition process. The 
objective here is to ensure that the transition is 
irreversible.
    We have no intention of declaring premature transitions, 
only to have to come back and finish the job later. We would 
much rather stick to a gradual approach, making sure that an 
area is truly ready for transition before thinning out the ISAF 
forces there. This is the surest path to lasting success. But 
let me be clear. The transition that will take place between 
now and December 2014 in no way signals our abandonment of 
Afghanistan. President Obama and President Karzai have agreed 
that the United States and Afghanistan will have an enduring 
strategic partnership beyond 2014, and we are currently working 
with the details of that partnership.
    Finally, I'd like to acknowledge the very real costs of 
this war. Many of you have expressed concern about these costs, 
and especially in light of our battlefield casualties and our 
fiscal pressures here at home. But the Afghan-Pakistan 
borderlands have served as a crucible for the most catastrophic 
terrorist actions of the past decade. The outcome we seek is 
the defeat of al Qaeda and the denial of the region as a 
sanctuary for terrorists. This objective is the reason why our 
brave men and women in service have sacrificed so very much, 
and we are determined to bring this war to a successful 
conclusion, for the sake of our own security, but also for the 
sake of the security of the people of Afghanistan, Pakistan, 
and the region who have suffered so much and who have so much 
to gain from a secure and lasting peace.
    Members of this committee, I want to thank you for 
providing us with this opportunity today. I also look forward 
to your continued and invaluable support for the policies and 
programs that are critical to our success in Afghanistan and in 
Pakistan.
    Thank you very much.
    [The prepared statement of Ms. Flournoy follows:]
             Prepared Statement by Hon. Michele A. Flournoy
    Mr. Chairman, ranking member, and distinguished members of the 
committee: thank you for inviting us here to update you on our efforts 
in Afghanistan.
    Ten years ago, al Qaeda operatives organized a deadly attack from a 
safe-haven in Taliban-controlled Afghanistan that killed thousands of 
Americans and citizens of other countries. In response, the United 
States, supported by valued international partners, entered Afghanistan 
by force in order to remove the Taliban regime and to prevent further 
attacks by al Qaeda and other extremist groups operating in the region. 
Our mission was just, fully supported by the international community, 
and initially successful.
    In the years that followed, however, we lost focus on Afghanistan. 
The war in Iraq drained resources from Afghanistan and, while our 
attention was turned away, al Qaeda, the Taliban and associated 
extremist groups reconstituted their safe-havens straddling the border 
between Afghanistan and Pakistan from which they have launched attacks 
and sustained a resilient insurgency. At the time, we did not 
appreciate their resiliency, their determination to regain what they 
had lost, and their continuing capacity to grievously harm the United 
States and our allies. The return of the Taliban in Afghanistan put at 
risk all that we had accomplished during the first years of the war and 
reminded people throughout the region of previous episodes when the 
U.S. misunderstood the region's challenges and underestimated the 
commitment required to achieve our objectives. As I discussed with this 
committee last year, through our inattention, we risked the return of a 
Taliban-led Afghanistan that would likely provide a safe-haven for 
terrorists who could again plan and execute attacks against the United 
States and our allies.
    President Obama, immediately upon taking office, led a thorough 
review of our strategy in Afghanistan and Pakistan and reaffirmed our 
core goal: to disrupt, dismantle, and defeat al Qaeda, to deny it safe 
haven in the region, and to prevent it from again threatening the 
United States and our allies. In the course of that review, we found 
that the situation was worse than we had thought and that the Taliban 
had seized the momentum in Afghanistan. In response, the President 
committed tens of thousands of additional U.S. forces to degrade the 
Taliban insurgency, thereby providing time and space to build 
sufficient Afghan capacity. Similarly, our North Atlantic Treaty 
Organization (NATO) Allies and other partner nations surged additional 
forces of their own. Perhaps most importantly, we began an intensified 
effort to increase the size, skills, and effectiveness of the Afghan 
National Security Forces (ANSF).
    In December 2009, the President directed the deployment of an 
additional 30,000 surge forces to Afghanistan to increase security, 
reverse the Taliban's momentum and set the conditions for a transition 
to Afghan security lead. He also directed that we would begin a 
reduction of those surge forces in July 2011, saying, ``We will execute 
this transition responsibly, taking into account conditions on the 
ground.''
    Last December, we conducted a follow-on review of our strategy's 
implementation in which we reaffirmed our core goal and the strategy's 
key elements: a military campaign to degrade al Qaeda-affiliated 
terrorists and Taliban insurgents; a civilian campaign to build Afghan 
governmental capacity; and an increased diplomatic effort designed to 
bring a favorable and durable outcome to the armed conflict and provide 
a more secure future for the United States, our allies and partners, 
and the region. The review found that our strategy was on track, that 
our forces and civilians were making real progress on the ground, and 
that we were making great strides in growing an ANSF capable of 
ultimately providing security in Afghanistan. The review also validated 
the Lisbon Summit Declaration that called for Afghan forces to assume 
full responsibility for security across the whole of Afghanistan by the 
end of 2014, and confirmed that we will be ready to begin a responsible 
drawdown of our surge forces in July 2011.
    The review also identified several important challenges we must 
address. We must continue our efforts with Pakistan to eliminate the 
safe havens from which al Qaeda senior leaders continue to operate and 
from which insurgents are able to launch attacks against Afghanistan, 
Pakistan, and our own forces. We must work with the Afghan Government 
to tackle corruption, particularly predatory corruption that affects 
individual Afghan citizens in their daily lives and fuels the 
insurgency, as well as high level corruption that can undermine the 
trust of the Afghan people in their own government. In addition, we 
must work to reduce intra-regional sources of tension that affect 
Afghanistan's stability, spur economic development, and create the 
conditions necessary to enable a political settlement among Afghans and 
reconcile those insurgents who are willing to renounce al Qaeda, 
forsake violence, and adhere to the Afghan constitution.
    Since the review, we have continued to make progress. Our strategy 
is working. With the surge, the United States and our International 
Security Assistance Force (ISAF) partners have over 140,000 forces in 
Afghanistan placing relentless pressure on the insurgents and regaining 
more and more critical territory. That surge has been matched by a 
surge in the numbers, quality and capability of the ANSF. During the 
past year, the ANSF have increased by more than 70,000 personnel, and 
we have been able to improve quality by developing noncommissioned 
officers and Afghan trainers, expanding the training curriculum, adding 
literacy programs, and increasing retention rates. As General Petraeus 
will describe in detail, U.S., NATO, and other ISAF forces, partnered 
and fighting side-by-side with increasingly capable ANSF units 
throughout Afghanistan, have wrested the initiative from the insurgents 
and have successfully cleared the Taliban from much of the country, 
including strongholds in and around Kandahar and Helmand Provinces. We 
have turned up the pressure on al Qaeda and their affiliated groups in 
the border region of Afghanistan and Pakistan and have significantly 
degraded their ability to plan and conduct operations throughout the 
theater.
    Complementing our joint military operations are important, bottom-
up security initiatives, led by our special forces, that provide basic 
assistance to Afghan communities that desire to resist Taliban 
influence and connect with their district and provincial government. 
The Afghan Local Police (ALP) program is a temporary, village-focused 
security program that aims to deny Taliban territory and freedom of 
movement in selected areas that have a limited ANSF presence. Today we 
have 26 validated ALP sites with a total strength of approximately 
4,000 Afghans. ALP programs have already significantly disrupted 
insurgent activity, denied insurgent influence in key areas, and 
generated serious concern among the Taliban leadership. These programs 
complement counterinsurgency operations, ANSF development, and civilian 
development programs to enhance stability.
    Along with our military successes, we have also ramped up our 
civilian efforts to improve Afghan governance and increase economic 
opportunity for the Afghan people. Today, thanks to the ``civilian 
surge,'' there are more than 1,100 civilian experts from 9 U.S. 
departments and agencies working with the Afghan Government and civil 
society in an effort to increase capacity and improve services 
delivered at the district, province and national level--with more and 
more of the effort directed at the local level. This is no small task 
in one of the poorest nations in the world with a vast and varied 
geography and a population of some 30 million people who have been 
traumatized by over 30 years of nearly continuous war.
    Reintegration is now a viable alternative for those insurgents 
willing to break their ties to al Qaeda, renounce violence, and agree 
to abide by the Afghan Constitution. I want to thank Congress for 
recognizing this strategic requirement and providing us important 
authorities and funding to support reintegration. Likewise, in London 
last year, the international community pledged financial support for 
the Afghan Government's comprehensive program designed to draw 
insurgents off the battlefield and help communities reintegrate them 
back into Afghan society. This past winter, we observed many favorable 
examples of both formal and informal reintegration. Formal 
reintegration is carried out through the three phases of the Afghan 
Peace and Reconciliation Process: outreach, demobilization, and 
community recovery. To date, nearly 20 provinces have created 
reintegration councils, and several hundred militants have left the 
battlefield through this process. Informal reintegration, which is more 
common, but less easily measured, refers to those insurgents who simply 
stop fighting and become productive members of their community.
    While reintegration reduces the manpower available to the 
insurgency, reconciliation focuses on the development of a political 
solution that ends armed opposition to the Afghan Government by major 
insurgent groups. This past June, President Karzai convened the Afghan 
Consultative Peace Jirga that established a framework for national 
reconciliation. He also formed the High Peace Council that includes 
representation from each of Afghanistan's major ethnic and political 
stakeholders, including women. The High Peace Council has had 
substantive discussions with representatives from a variety of 
insurgent groups and recently met with key leaders in Pakistan, Saudi 
Arabia, and Turkey to help build consensus towards a political 
resolution of the conflict. The United States strongly supports these 
Afghan-led efforts, though we recognize that this will not be a quick 
or easy process.
    We have always recognized that we cannot succeed in Afghanistan 
through military operations alone. We welcome and encourage peaceful 
political participation by those Taliban leaders who are willing to 
reject al Qaeda, foreswear violence, and accept the Afghan Constitution 
in order to reconcile with their fellow Afghans. As Secretary Clinton 
recently said, ``Taliban militants will have to decide that they are 
better off working within the Afghan political system rather than 
fighting a losing struggle alongside al Qaeda . . . ''
    As we consider a political process in Afghanistan, we must 
understand the broad regional dynamics at play. Afghanistan is a proud 
and sovereign nation that fears and resents meddling or interference in 
its affairs by its neighbors. Nevertheless, Iran and Pakistan still 
hold the potential to support or spoil progress in Afghanistan. India 
and the Central Asian States also seek to have their deep concerns 
about the security and stability of the region addressed. We will 
endeavor to work together with these nations to support our core goal 
in Afghanistan and Pakistan and the long-term stability of the region.
    Let me turn now to some of the key milestones and challenges that 
lie ahead.
    Transition--or Inteqal in Dari--is a process by which the ANSF will 
progressively take lead responsibility for the security of Afghan 
provinces and municipalities from ISAF.
    Transition is built upon the following principles:

        <bullet> Transition is a process, not an event and will be 
        based upon an assessment of conditions on the ground.
        <bullet> Transition is a bottom-up process that will be 
        informed by local assessments.
        <bullet> Transition is a process by which ISAF will ``thin 
        out'' and progressively shift, as conditions allow, from a 
        partnering role, to a mentoring role.
        <bullet> Headquarters elements will be retained, even as combat 
        elements thin out to facilitate and enable ANSF operations.
        <bullet> As ISAF thins out, some of the ``transition dividend'' 
        will likely be reinvested in other geographic or functional 
        areas such as training.
        <bullet> The transition process goes beyond terrain and also 
        applies to key Afghan governmental institutions.
        <bullet> We must ensure that get transition right the first 
        time, so this process is irreversible.

    The Joint Afghan-NATO Inteqal Board (JANIB) met in February to 
determine which areas were ready for transition. This assessment was 
based on the readiness of the ANSF to take the lead for security 
responsibilities and the readiness of local government structures to 
provide necessary services to the people. The results of the JANIB were 
reviewed at last week's NATO Defense Ministerial meeting and we expect 
President Karzai to announce his decision on the first tranche of 
municipalities and provinces for transition on March 21.
    We should expect the implementation of the transition process to 
reflect the diverse circumstances and varied requirements of districts 
and provinces across Afghanistan. That said, our objective in each case 
is for transition to be an irreversible process that will unfold during 
the months and years ahead city by city, district by district, and 
province by province, as the security situation improves and Afghan 
capacity grows. During the transition, Coalition forces will ``thin 
out'' and move from a position of being in the lead for security to one 
where Afghan forces are in the lead with an ISAF partner: first in 
tactical overwatch, then in strategic overwatch. In addition to 
transition in the field, we are also building capacity in the 
Ministries of Defense and Interior to enable the transition of key 
functions at the national level. Even by the end of 2014 when Afghans 
will have the lead for security nationwide, I anticipate that some U.S. 
forces will remain in Afghanistan in order to train and assist the ANSF 
and conduct combined counterterrorism operations.
    As the President directed, the surge forces that we deployed to 
Afghanistan last year will conduct a responsible, conditions-based 
force reduction beginning in July 2011. I know that General Petraeus 
will expand upon this issue, but let me just say that it is too early 
to put a number on the size of the initial withdrawal. The pace and 
scope of this withdrawal will be based upon conditions on the ground. 
At the same time, as the transition process continues, and as ISAF 
forces thin out in a given district or province, we anticipate that 
some forces will be reinvested in other geographic areas or missions, 
such as training the ANSF.
    The transition that will take place between now and December 2014 
in no way signals our abandonment of Afghanistan. Our nation has made 
that mistake before, and we are determined not to repeat it. President 
Obama and President Karzai have agreed that the United States and 
Afghanistan will have an enduring strategic partnership beyond 2014, 
and we are currently working with the Afghans on the details of that 
partnership. Afghans must stand in the lead, but they will not stand 
alone.
    This strategic partnership, along with the enduring partnership 
declaration NATO signed with President Karzai at the Lisbon Summit, 
sends an important message to the government and people of Afghanistan, 
to our friends and allies, to al Qaeda and the Taliban, and to others 
in the region: we remain committed to Afghanistan. As we responsibly 
reduce our combat forces, and as Afghan forces take the lead, we will 
continue to work with the Afghan people to assist them in the 
development of their key institutions. Although the scope of our 
commitment will evolve, our core goal will remain unchanged.
    Meanwhile, logistical support also remains a challenge in 
Afghanistan. We are working, along with the Department of State, to 
secure the additional approvals that we need from countries 
participating in the Northern Distribution Network (NDN) that will 
allow us to further reduce the load we place on Pakistan's 
infrastructure and provide additional routes for our personnel and 
cargo transiting into Afghanistan. We have already secured necessary 
approvals from Russia and we are negotiating with Kazakhstan and 
Uzbekistan to conclude further agreements and arrangements regarding 
NDN routes that they control. We likewise appreciate the cooperation we 
have had with Kyrgyzstan's democratically elected government to support 
our use of the Transit Center at Manas and have recently concluded an 
agreement with Kyrgyzstan that will permit us to contract with a new 
state-owned enterprise to help meet our fuel needs. Together, these 
efforts demonstrate the broader and shared interest in regional 
cooperation to bring an end to extremism and to support a stable and 
secure Afghanistan.
    Pakistan, too, is inextricably linked to a successful outcome in 
the region, in both the near and long term. Pakistan has a pivotal role 
to play in our efforts to disrupt, dismantle, and defeat al Qaeda and 
its affiliates; to help bring about a durable political solution in 
Afghanistan; and to promote and sustain long-term regional stability. A 
lasting political solution in Afghanistan will require Pakistan to be 
part of the process. However, Pakistan will have to respect Afghan 
sovereignty and work with Afghanistan to improve regional stability. 
Additionally, Pakistan must take decisive steps to ensure that the 
Afghan Taliban cannot continue to conduct the insurgency from Pakistani 
territory. Continued pressure from the Pakistani side is essential to 
help push the Taliban toward reconciliation.
    Pursuing a strategic partnership with Pakistan based on a 
foundation of mutual interest, mutual respect, and mutual trust guides 
our civilian-military efforts. Over the long term, this partnership 
could lead to enduring linkages between our two peoples; stronger trade 
and investment ties; greater regional and internal stability; and a 
secure Pakistan whose regionally-integrated economy is growing and 
benefiting all of its people and its neighbors.
    There is no question that there are significant hurdles to overcome 
to realize this vision. The history of U.S.-Pakistan relations is 
fraught with disappointments, leading many in both countries to see our 
relationship as driven by transitory interests. In Pakistan, this is 
manifested in the expectation that we may abandon the region once again 
as soon as we have achieved our immediate objectives in Afghanistan. 
Our efforts to date have yielded progress in changing this mindset. 
However, overcoming years of mistrust will take patience, as well as 
sustained effort and resources.
    Our approach with Pakistan is to build an effective partnership 
that advances both U.S. and Pakistani interests, while also 
demonstrating to our Pakistani partners that we will remain a strong 
supporter of their security and prosperity over the long-term. Central 
to our efforts is aligning U.S. and Pakistani interests with respect to 
denying safe haven to all violent extremist organizations.
    Pakistan's people have suffered greatly at the hands of extremists, 
with approximately 20,000-30,000 civilian casualties resulting from 
attacks on mosques, schools--particularly girls' schools--and even a 
World Food Program food distribution site. Pakistan's military has 
incurred nearly 3,000 personnel killed in action and over 8,000 wounded 
as a result of extremist attacks and kinetic operations against 
militants. In addition to the human toll, the financial burden of 
nearly a decade of conflict inside of and adjacent to Pakistan has been 
significant, both in opportunity costs of economic growth and in 
sustaining more than 140,000 troops in combat along on their border 
with Afghanistan. Still, Pakistan has continued the fight.
    Pakistan's will to confront extremist organizations, particularly 
those that it does not view as a direct threat to the Pakistani state, 
remains a key challenge. However, its deficiencies in capacity are even 
more daunting. Pakistan faces a determined, complex, and resilient set 
of insurgent enemies. Pakistan's military has historically focused on a 
major conventional land war with India and they still view India as 
their existential threat. The capabilities needed for a 
counterinsurgency campaign are different and require appropriate 
training and equipment. We are helping Pakistan to build this much 
needed capacity through train and equip programs funded by the Pakistan 
Counterinsurgency Fund (PCF) and the Pakistan Counterinsurgency 
Capabilities Fund (PCCF), for which Congress has provided significant 
support. However, enhancing Pakistan's counterinsurgency capabilities 
to the level needed for successful operations to clear areas then 
``hold'' and ``build'' in them will require our sustained civilian and 
military assistance.
    Before addressing some of Pakistan's key deficiencies, it is 
important to remark on the progress Pakistan's military has achieved to 
date.
    First, Pakistani operations since 2009 in Swat, South Waziristan, 
and a number of other agencies and areas in the Federally Administered 
Tribal Areas and Khyber Pakhtunkhwa Province (formerly known as the 
Northwest Frontier Province), are unprecedented.
    Second, Pakistan's movement of six divisions, or one-third of their 
Army, from the Indian border to the border with Afghanistan 
demonstrates their recognition of the significant threat emanating from 
certain extremist groups.
    Third, Pakistan's military leadership has increased cross-border 
coordination with ISAF and Afghan security forces. Part of this 
increased coordination resulted from a tragic accident that occurred 
last September when ISAF forces accidentally killed three Pakistani 
border soldiers who were mistaken for insurgents. This incident not 
only led to enhanced procedures being put in place to avoid future such 
tragedies, but also a greater measure of operational coordination 
designed to ensure that kinetic operations on one side of the border do 
not allow insurgents to escape with impunity to the other. Such 
coordination would have been impossible just 2 years ago.
    However, despite this progress, Pakistan's military forces have not 
yet established effective control over important areas where extremists 
and insurgents operate. In many cases where the military has undertaken 
operations to clear insurgents and hold territory, Pakistan's 
inadequate civilian and military capacities for the ``build'' phase 
have prevented ultimate transfer of those areas to civilian control. 
This deficiency forces the Pakistan military to leave large numbers of 
forces in cleared areas to ``hold'' them for indefinite periods of time 
rather than redeploying them to undertake new operations. In several 
cases, such as Mohmand Agency, military forces have been required to 
repeat clearing operations as insurgents have reinfiltrated.
    Addressing these issues will not only require sustained military 
and security assistance, but the financial assistance provided through 
the Enhanced Partnership with Pakistan Act of 2009, also known as 
Kerry-Lugar-Berman. The efforts the Department of State and U.S. Agency 
for International Development (USAID) are undertaking through the 
Strategic Dialogue to reach all segments of Pakistan's population with 
civilian capacity training and new infrastructure are essential 
elements for Pakistan's ability to ``hold'' and ``build'' areas to make 
them resistant to militant return.
    In many ways, we are still in the early stages of seeing our 
renewed civilian-military partnership with Pakistan gain traction. Our 
team in the Office of the Defense Representative--Pakistan has been 
able to build and nurture partnerships with Pakistan's security forces 
on every level, including during the historic flooding and subsequent 
recovery efforts in the summer of 2010. These relationships have been 
critical to working through challenges that might once have broken the 
relationship, such as the late September 2010 incident on the Pakistani 
border post. Instead, the ability to continue communicating through 
crises has led to greater coordination that advances our mutual 
interest in a stable and secure Pakistan.
    We have also made significant progress by supporting Pakistan's 
efforts to define their near and long-term requirements as they 
restructure their forces to take on this counterinsurgency fight. 
Through the Exchanges in Defense Planning (EDP) process, we worked with 
the Pakistani military leadership to develop a shared 5-year vision for 
training and procurement. That shared vision formed the basis for the 
administration's fiscal year 2012 request for $350 million in Foreign 
Military Financing (FMF), $5 million in International Military 
Education and Training (IMET), and $1.1 billion in PCCF for the first 
year of the Multi-Year Security Assistance Commitment for Pakistan that 
Secretary Clinton announced in October 2010. That commitment includes 
$2.029 billion of FMF and IMET over 5 years, with PCCF levels set 
annually according to conditions on the ground.
    ``Train-advise-and-equip'' programs with Pakistan's military and 
paramilitary forces are central to pursuing our near-term objectives of 
eliminating terrorist sanctuaries and disrupting and defeating the al 
Qaeda network. Through congressional support for programs like the PCF 
and PCCF, we are increasing Pakistan's capacity to take on militant 
networks. This effort will take time, and we are working to reform our 
security assistance system to make it more responsive to the wartime 
train-and-equip needs of Pakistan, Afghanistan, and other partners.
    Let me conclude my remarks on Pakistan with a comment concerning 
the detention of U.S. diplomat Raymond Davis. The U.S. Government 
remains extremely concerned about the continued detention of Mr. Davis 
and views this as a violation of Pakistan's international commitments 
under the Vienna Convention on Diplomatic Relations. The State 
Department remains actively engaged in a dialogue with the Government 
of Pakistan about releasing Mr. Davis as quickly as possible. It is 
critical, however, that we work to resolve this issue, so that it does 
not derail the important progress we have made in the last 2 years in 
building a stronger and deeper relationship between our countries.
    Finally, I would like to turn to the human and financial costs of 
this war. Many of you have expressed concern with these costs, 
especially in light of our battlefield casualties and our fiscal 
pressures here at home. You face these costs each time you sign a 
letter to a constituent who has lost a loved one and each time you vote 
on war funding. This concern has been expressed by our ISAF allies and 
partners as well.
    But, let me be absolutely clear. As the President said, the threat 
to our national security and the security of our friends and allies 
that emanates from the borderland of Afghanistan and Pakistan is not 
hypothetical. There is simply no other place in the world that contains 
such a concentration of al Qaeda senior leaders and operational 
commanders. Al Qaeda and the other terrorist organizations that operate 
in this region have a proven ability to infiltrate across borders to 
conduct attacks. These dangerous groups have established safe-havens 
inside of a nuclear-armed state and they are allied with the Taliban, a 
movement that seeks to overthrow the Government of Afghanistan and 
contributes to the destabilization of Pakistan. To allow these hostile 
organizations to flourish in this region is to put the security of the 
United States and our friends and allies at grave risk.
    In conclusion, I want to reiterate the basic principle that is at 
the heart of our efforts in Afghanistan. The outcome we seek is the 
defeat of al Qaeda and the denial of the region as a sanctuary for al 
Qaeda and its affiliates. This objective is the reason why our brave 
servicemen and servicewomen have sacrificed so much. It is why we have 
invested so much treasure.
    This remote region has served as a crucible for the most 
catastrophic terrorist actions of the past decade. As we learned at 
great cost after abandoning the region in 1989, staying engaged over 
the long term is critical to achieving lasting peace and stability in 
this region and to securing our national interests. We are determined 
to bring this war to a successful conclusion, for the sake of our own 
security, but also for the security of the people of Afghanistan and 
Pakistan who have suffered so much, and who have so much to gain from a 
secure, lasting peace.
    Members of the committee, I want to thank you for providing the 
opportunity to appear before you today. I look forward to your 
continued and invaluable support for the policies and programs that are 
critical to our success in Afghanistan and Pakistan.

    Chairman Levin. Thank you very much, Secretary Flournoy.
    General Petraeus.

      STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, 
 INTERNATIONAL SECURITY ASSISTANCE FORCE, AND COMMANDER, U.S. 
                       FORCES AFGHANISTAN

    General Petraeus. Mr. Chairman and Senator McCain, it's a 
privilege to be here today with Under Secretary Flournoy to 
report on the situation in Afghanistan.
    Before I proceed, however, I'd like to offer my sincere 
condolences to the people of Japan as they work to recover from 
one of the worst natural disasters in their history.
    For many years now, Japan has been a stalwart partner in 
Afghanistan, and an important contributor to the mission there. 
Now our thoughts and our prayers are with our long-term allies 
and all those in Japan affected by the earthquake and the 
tsunami.
    Chairman Levin. If I could just interrupt you for a minute, 
in expressing those sentiments you're speaking for every member 
of this committee and, I believe, every American. Thank you for 
doing that.
    General Petraeus. Thank you, Mr. Chairman.
    As a bottom line upfront, it is ISAF's assessment that the 
momentum achieved by the Taliban in Afghanistan since 2005 has 
been arrested in much of the country, and reversed in a number 
of important areas. However, while the security progress 
achieved over the past year is significant, it is also fragile 
and reversible. Moreover, it is clear that much difficult work 
lies ahead with our Afghan partners to solidify and expand our 
gains in the face of the expected Taliban spring offensive.
    Nonetheless, the hard-fought achievements in 2010 and early 
2011 have enabled the Joint Afghan-NATO Transition Board to 
recommend initiation this spring of transition to Afghan lead 
in several provinces.
    The achievements of the past year are also very important 
as I prepare to provide options and a recommendation to 
President Obama for commencement of the drawdown of the U.S. 
surge forces in July. Of note, as well, the progress achieved 
has put us on the right azimuth to accomplish the objective 
agreed upon at last November's Lisbon Summit, that of Afghan 
forces in the lead throughout the country by the end of 2014.
    The achievements of 2010 and early 2011 have been enabled 
by a determined effort to get the inputs right in Afghanistan. 
With the strong support of the United States and the 47 other 
troop-contributing countries, ISAF has focused enormous 
attention and resources over the past 2 years on building the 
organizations needed to conduct a comprehensive, civil-military 
counterinsurgency campaign, on staffing those organizations 
properly, on developing--in close coordination with our Afghan 
partners--the requisite concepts and plans, and, above all, on 
deploying the additional forces, civilians, and funding needed. 
Indeed, more than 87,000 additional NATO-ISAF troopers and 
1,000 additional civilians have been added to the effort in 
Afghanistan since the beginning of 2009, and Afghanistan's 
security forces have grown by over 122,000 in that time, as 
well.
    Getting the inputs right has enabled our forces, together 
with Afghan forces, to conduct the comprehensive campaign 
necessary to achieve our goals in Afghanistan. Our core 
objective is, of course, ensuring that Afghanistan does not 
once again become a sanctuary for al Qaeda. Achieving that 
objective requires that we help Afghanistan develop sufficient 
capabilities to secure and govern itself, and that effort 
requires the execution of the comprehensive civil-military 
effort on which we are now embarked.
    Over the past year, in particular, ISAF elements, together 
with our Afghan and international partners, have increased all 
the activities of our comprehensive campaign substantially. We 
have, for example, stepped up the tempo of precise 
intelligence-driven operations to capture or kill insurgent 
leaders. In a typical 90-day period, in fact, precision 
operations by U.S. special mission units and their Afghan 
partners alone kill or capture some 360 targeted insurgent 
leaders. Moreover, intelligence-driven operations are now 
coordinated with senior officers of the relevant Afghan 
ministries, and virtually all include highly trained Afghan 
soldiers or police, with some Afghan elements now in the lead 
on these operations.
    We have also expanded considerably joint ISAF-Afghan 
operations to clear the Taliban from important, long-held safe 
havens, and then to hold and build in them. ISAF and Afghan 
troopers have, for example, cleared such critical areas as the 
districts west of Kandahar City that were the birthplace of the 
Taliban movement, as well as important districts of Helmand 
Province, areas that expand the Kabul security bubble, and 
select locations in the north where the Taliban expanded its 
presence in recent years. One result of such operations has 
been a four-fold increase in recent months in the number of 
weapons and explosive caches turned in and found. Another has 
been the gradual development of local governance and economic 
revival in the growing security bubbles. In fact, Marjah, the 
one-time hub of the Taliban and the illegal narcotics industry 
in central Helmand Province, held an election for a community 
council on March 1 during which 75 percent of registered voters 
cast a ballot. As a result of improvements in the security 
situation there, the markets, which once sold weapons, 
explosives, and illegal narcotics, now feature over 1,500 shops 
selling food, clothes, and household goods.
    We have positioned more forces, as well, to interdict the 
flow of fighters and explosives from insurgent sanctuaries in 
Pakistan, and we will do further work with our Afghan partners 
to establish as much of a defense in depth as is possible to 
disrupt infiltration of Taliban and Haqqani Network members. 
Meanwhile, we are coordinating more closely than ever with the 
Pakistani army to conduct ISAF operations that will provide the 
``anvil'' on the Afghan side of the Durand Line, against which 
Pakistani Taliban elements can be driven by Pakistani 
operations in the border areas.
    With your support, we have also devoted substantial 
additional resources to the development of the ANSF. This 
effort is, of course, another very important component of our 
comprehensive approach. Indeed, it is arguably the most 
critical element in our effort to help Afghanistan develop the 
capability to secure itself.
    We have seen significant progress in this arena over the 
past year, though we have had to contend with innumerable 
challenges, and our Afghan partners are the first to note that 
the quality of some elements is still uneven. The train and 
equip mission is, in fact, a huge undertaking, and there is 
nothing easy about it. However, the past year alone has seen 
ANSF grow by over one third, adding some 70,000 soldiers and 
police. Notably, those forces have grown in quality, not just 
in quantity.
    Investments in leader development, literacy, marksmanship, 
and institutions have yielded significant dividends. In fact, 
in the hard fighting west of Kandahar in late 2010, Afghan 
forces comprised some 60 percent of the overall force, and they 
fought with skill and courage.
    President Karzai's ALP initiative has also been an 
important addition to the overall campaign. It is, in essence, 
a community watch with AK-47s, under the local District Chief 
of Police, with members nominated by a representative Shura 
Council, vetted by the Afghan intelligence service, and trained 
by and partnered with Afghan Police and U.S. Special Forces 
elements.
    This initiative does more than just allow the arming of 
local forces and the conduct of limited defensive missions. 
Through the way each unit is established, this program 
mobilizes communities in self-defense against those who would 
undermine security in their areas. For that reason, the growth 
of these elements is of particular concern to the Taliban, 
whose ability to intimidate the population is limited 
considerably by it.
    There are currently 70 districts identified for ALP 
elements, with each district's authorization averaging some 300 
ALP members. Twenty-seven of the district ALP elements have 
been validated for full operations, while the other 43 are in 
various stages of being established. This program has emerged 
as so important that I have put a conventional U.S. infantry 
battalion under the operational control of our Special 
Operations Command (SOCOM) in Afghanistan to augment our 
Special Forces and increase our ability to support the 
program's expansion.
    We have increased, as well, our efforts to enable the 
Afghan Government's work and that of international community 
civilians to improve governance, economic development, and the 
provision of basic services. These are essential elements of 
the effort to shift delivery of basic services from Provincial 
Reconstruction Teams (PRT) and international organizations to 
Afghan governmental elements, thereby addressing President 
Karzai's understandable concerns about parallel institutions.
    We have provided assistance for new Afghan Government-led 
initiatives in reintegration, supporting the recently 
established Afghan High Peace Council and Provincial Peace and 
Reintegration Councils. Indeed, we recognize that we and our 
Afghan partners cannot just kill or capture our way out of the 
insurgency in Afghanistan. Afghan-led reintegration of 
reconcilable insurgents must also be an important element of 
the strategy--and it now is. In fact, some 700 former Taliban 
have now officially reintegrated with Afghan authorities just 
in recent months, and some 2,000 more are in various stages of 
the reintegration process.
    All of these efforts are part of our comprehensive 
approach, and we have worked hard to coordinate ISAF activities 
with the international organizations and diplomatic missions in 
Afghanistan, as well as with our Afghan partners. We have also 
sought to ensure that we minimize loss of innocent civilian 
life in the course of our operations, even as we also ensure 
protection of our forces and our Afghan partners. Of note, a 
recently released United Nations (U.N.) study observed that 
civilian casualties due to ISAF and Afghan force operations 
decreased by just over 20 percent in 2010, even as our total 
forces increased by over 100,000 and significant offensive 
operations were launched.
    Our progress in this area notwithstanding, however, in view 
of several tragic incidents in recent weeks, I ordered a review 
of our Tactical Directive on the use of force by all levels of 
our chain of command and with the air crews of our attack 
helicopters. I have reemphasized instructions on reducing 
damage to infrastructure and property to an absolute minimum. 
Counterinsurgents cannot succeed if they harm the people they 
are striving to protect.
    As I noted at the outset, the Joint NATO-Afghan Inteqal, or 
Transition, Board has recommended to President Karzai and NATO 
leaders commencement of transition in select provinces in the 
next few months. President Karzai will announce these locations 
in a speech on March 22.
    In keeping with the principles adopted by the North 
Atlantic Council to guide transition, the shifting of 
responsibility from ISAF to Afghan forces will be conducted at 
a pace determined by conditions on the ground, with assessments 
provided from the bottom up so that those at operational 
command level in Afghanistan can plan the resulting battlefield 
geometry adjustments with our Afghan partners.
    According to the NATO principles, transition will see our 
forces thinning out, not just handing off, with reinvestment of 
some of the forces freed up by transition in contiguous areas, 
or in training missions where more work is needed. Similar 
processes are also taking place as we commence transition of 
certain training and institutional functions from ISAF trainers 
to their Afghan counterparts.
    As we embark on the process of transition, we should keep 
in mind the imperative of ensuring that the transition actions 
we take will be irreversible. As the ambassadors of several 
ISAF countries emphasized at one recent NATO meeting, we'll get 
one shot at transition, and we need to get it right.
    As a number of ISAF national leaders have noted in recent 
months, especially since the Lisbon Summit, we need to focus 
not just on the year ahead, but increasingly on the goal agreed 
at Lisbon of having Afghan forces in the lead throughout 
Afghanistan by the end of 2014. Indeed, we need to ensure that 
we take a sufficiently long view, to ensure that our actions in 
the months ahead enable long-term achievement in the years 
ahead. We have refined our campaign plan to do just that--and 
we are also now beginning to look beyond 2014, as Under 
Secretary Flournoy noted, as the United States and 
Afghanistan--and NATO and Afghanistan--discuss possible 
strategic partnerships.
    All of this is enormously reassuring to our Afghan 
partners, and of considerable concern to the Taliban. With 
respect to the Taliban, appreciation that there will be an 
enduring commitment of some form by the international community 
to Afghanistan is important to the insurgents' recognition that 
reconciliation, rather than continued fighting, should be their 
goal.
    Before concluding, there are four additional issues I would 
like to highlight to the committee. First, I am concerned that 
levels of funding for our State Department and USAID partners 
will not sufficiently enable them to build on the hard-fought 
security achievements of our men and women in uniform. 
Inadequate resourcing of our civilian partners could, in fact, 
jeopardize accomplishment of the overall mission. I offer that 
assessment, noting that we have just completed a joint civil-
military campaign plan between U.S. Forces Afghanistan and the 
U.S. Embassy Kabul which emphasizes the critical integration of 
civilian and military efforts in an endeavor such as that in 
Afghanistan.
    Second, I want to express my deep appreciation for your 
support of vital additional capabilities for our troopers. The 
funding you have provided has, for example, enabled the rapid 
deployment of a substantial increase in the intelligence, 
surveillance, and reconnaissance assets supporting our forces. 
To take one example, we have increased the number of various 
types of persistent surveillance systems--essentially blimps 
and towers with optics--from 114 this past August to 184 at the 
present, with plans for continued increases throughout this 
year.
    Your support has also enabled the rapid procurement and 
deployment of the all-terrain vehicle version of the Mine 
Resistant Ambush Protected (MRAP) family of vehicles, with 
6,700 fielded since I took command some 8\1/2\ months ago. Your 
support has continued to provide our commanders with another 
critical element of our strategy, the Commander's Emergency 
Response Program (CERP) funding that has once again proven 
absolutely invaluable as a way of capitalizing rapidly on hard-
won gains on the ground. Indeed, CERP funding, the 
establishment of the Afghan Infrastructure Fund, and the 
specific authorization for the reintegration program have been 
instrumental in enabling key components of our overall effort.
    Third, I should at this point also highlight the critical 
work of the World Bank and the Asian Development Bank. These 
institutions are the largest donors to Afghanistan after the 
United States, and they have been critical to the success of 
important projects, such as the Ring Road and the Uzbek-Afghan 
railroad. We need these critical enabling institutions, and 
further U.S. support for them will ensure that they are able to 
continue to contribute as significantly as they have in the 
past.
    Fourth, I also want to thank you for the substantial 
funding for the development of the ANSF. The continued growth 
of Afghan forces in quantity, quality, and capability is, 
needless to say, essential to the process of transition of 
security tasks from ISAF forces to Afghan forces. The resources 
you have provided for this component of our effort have been 
the critical enabler of it.
    In closing, the past 8 months have seen important, but 
hard-fought, progress in Afghanistan. Key insurgent safe havens 
have been taken away from the Taliban. Numerous insurgent 
leaders have been killed or captured. Hundreds of reconcilable 
mid-level leaders and fighters have been reintegrated into 
Afghan society. Meanwhile, Afghan forces have grown in number 
and capability. Local security solutions have been instituted. 
Security improvements in key areas like Kabul, Kandahar, and 
Helmand Provinces have, in turn, enabled progress in the areas 
of governance and development.
    None of this has been easy. The progress achieved has 
entailed hard fighting and considerable sacrifice. There have 
been tough losses along the way. There have been setbacks as 
well as successes. Indeed, the experience has been akin to that 
of a roller coaster ride. The trajectory has generally been 
upward since last summer, but there certainly have been 
significant bumps and difficult reverses at various points.
    Nonetheless, although the insurgents are already striving 
to regain lost momentum and lost safe havens as we enter the 
spring fighting season, we believe that we will be able to 
build on the momentum achieved in 2010, though that clearly 
will entail additional tough fighting.
    As many of you have noted in the past, our objectives in 
Afghanistan and in the region are of vital importance, and we 
must do all that we can to achieve those objectives. Those of 
us on the ground believe that the strategy on which we are now 
embarked provides the best approach for doing just that, 
noting, as dialogue with President Karzai has reminded us at 
various junctures, that we must constantly refine our 
activities in response to changes in the circumstances on the 
ground. Needless to say, we will continue to make such 
adjustments in close consultation with our Afghan and 
international counterparts as the situation evolves.
    Finally, I want to thank each of you for your continued 
support for our country's men and women in Afghanistan and 
their families. As I have noted to you before, nothing means 
more to them than knowing that what they're doing is important, 
and knowing that their sacrifices are appreciated by their 
leaders and their fellow citizens back home. Each of you has 
sought to convey that sense to them, and we are grateful to you 
for doing so.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]
            Prepared Statement by GEN David H. Petraeus, USA
    Mr. Chairman, Senator McCain, it's a privilege to be here today 
with Under Secretary Flournoy to report on the situation in 
Afghanistan. However, before I proceed, I would like to offer my 
sincere condolences to the people of Japan as they recover from one of 
the worst natural disasters in their history. For many years now, Japan 
has been a stalwart partner in Afghanistan and has made many vital 
contributions to the mission. Our thoughts and prayers are with all 
those affected by the earthquake and the tsunami.
                          bottom line upfront
    As a bottom line upfront, it is the International Security 
Assistance Force's (ISAF) assessment that the momentum achieved by the 
Taliban in Afghanistan since 2005 has been arrested in much of the 
country and reversed in a number of important areas. However, while the 
security progress achieved over the past year is significant, it is 
also fragile and reversible. Moreover, it is clear that much difficult 
work lies ahead with our Afghan partners to solidify and expand our 
gains in the face of the expected Taliban spring offensive. 
Nonetheless, the hard-fought achievements in 2010 and early 2011 have 
enabled the Joint Afghan-North Atlantic Treaty Organization (NATO) 
Transition Board to recommend initiation this spring of transition to 
Afghan lead in several provinces. The achievements of the past year are 
also very important as I prepare to provide options and a 
recommendation to President Obama for commencement of the drawdown of 
the U.S. surge forces in July. Of note, as well, the progress achieved 
has put us on the right azimuth to accomplish the objective agreed upon 
at last November's Lisbon Summit, that of Afghan forces in the lead 
throughout the country by the end of 2014.
                        getting the inputs right
    The achievements of 2010 and early 2011 have been enabled by a 
determined effort to get the inputs right in Afghanistan. With the 
strong support of the United States and the 47 other troop-contributing 
countries, ISAF has focused enormous attention and resources over the 
past 2 years on building the organizations needed to conduct a 
comprehensive, civil-military counterinsurgency campaign, on staffing 
those organizations properly, on developing--in close coordination with 
our Afghan partners--the requisite concepts and plans, and, above all, 
on deploying the additional forces, civilians, and funding needed. 
Indeed, more than 87,000 additional ISAF troopers and 1,000 additional 
civilians have been added to the effort in Afghanistan since the 
beginning of 2009. Afghanistan's Security Forces have grown by over 
122,000 in that time, as well.
                       the comprehensive approach
    Getting the inputs right has enabled our forces, together with 
Afghan forces, to conduct the comprehensive campaign necessary to 
achieve our goals in Afghanistan. Our core objective is, of course, 
ensuring that Afghanistan does not once again become a sanctuary for al 
Qaeda. Achieving that objective requires that we help Afghanistan 
develop sufficient capabilities to secure and govern itself. That 
effort requires the execution of the comprehensive civil-military 
effort on which we are now embarked.
    Over the past year, in particular, ISAF elements, together with our 
Afghan and international partners, have increased all the activities of 
our comprehensive campaign substantially. We have, for example, stepped 
up the tempo of precise, intelligence-driven operations to capture or 
kill insurgent leaders. In a typical 90-day period, in fact, precision 
operations by U.S. special mission units and their Afghan partners 
alone kill or capture some 360 targeted insurgent leaders. Moreover, 
intelligence-driven operations are now coordinated with senior officers 
of the relevant Afghan ministries and virtually all include highly-
trained Afghan soldiers or police, with some Afghan elements now in the 
lead on these operations.
    With your support, we have also expanded considerably joint ISAF-
Afghan operations to clear the Taliban from important, long-held safe 
havens and then to hold and build in them. ISAF and Afghan troopers 
have, for example, cleared such critical areas as the districts west of 
Kandahar City that were the birthplace of the Taliban movement, as well 
as important districts of Helmand Province, areas that expand the Kabul 
security bubble, and select locations in the north where the Taliban 
expanded its presence in recent years. One result of such operations 
has been a four-fold increase in recent months in the number of weapons 
and explosives caches turned in and found. Another has been the gradual 
development of local governance and economic revival in the growing 
security bubbles. In fact, Marjah, the one-time hub of the Taliban and 
the illegal narcotics industry in central Helmand Province, held an 
election for a community council on March 1 during which 75 percent of 
registered voters cast a ballot. As a result of improvements in the 
security situation there, the markets, which once sold weapons, 
explosives, and illegal narcotics, now feature over 1,500 shops selling 
food, clothes, and household goods.
    We have positioned more forces, as well, to interdict the flow of 
fighters and explosives from insurgent sanctuaries in Pakistan. We will 
do further work with our Afghan partners to establish as much of a 
defense in depth as is possible to disrupt infiltration of Taliban and 
Haqqani Network members. Meanwhile, we are coordinating closely with 
the Pakistani Army to conduct ISAF operations that will provide the 
``anvil'' on the Afghan side of the Durand Line against which Pakistani 
Taliban elements can be driven by Pakistani operations in the border 
areas.
               afghan national security force development
    With your support, we have also devoted substantial additional 
resources to the development of Afghanistan's security forces. This 
effort is, of course, another important component of our comprehensive 
approach; indeed, it is arguably the most critical element in our 
effort to help Afghanistan develop the capability to secure itself. We 
have seen significant progress in this arena over the past year, though 
we have had to contend with innumerable challenges and our Afghan 
partners are the first to note that the quality of some elements is 
still uneven. The train and equip mission is, in fact, a huge 
undertaking, and there is nothing easy about it; however, the past year 
alone has seen Afghan forces grow by over one-third, adding some 70,000 
soldiers and police. Those forces have grown in quality, not just in 
quantity. Investments in leader development, literacy, and institutions 
have yielded significant dividends. In fact, in the hard fighting west 
of Kandahar in late 2010, Afghan forces comprised some 60 percent of 
the overall force, and they fought with skill and courage.
                   the afghan local police initiative
    President Karzai's Afghan Local Police (ALP) initiative has also 
been an important addition to the overall campaign. It is, in essence, 
a community watch with AK-47s, under the local District Chief of 
Police, with members nominated by a representative Shura Council, 
vetted by the Afghan intel service, and trained by and partnered with 
Afghan Police and U.S. Special Forces elements. The initiative does 
more than just allow the arming of local forces and the conduct of 
limited defensive missions; through the way each unit is established, 
this program mobilizes communities in self-defense against those who 
would undermine security in their areas. For that reason, the growth of 
these elements is of particular concern to the Taliban, whose ability 
to intimidate the population is limited considerably by it.
    There are currently 70 districts identified for ALP elements, with 
each district's authorization averaging 300 ALP members. Twenty-seven 
of the district ALP elements have been validated for full operations, 
while the other 43 are in various stages of being established. This 
program has emerged as so important that I have put a conventional U.S. 
infantry battalion under the operational control of our Special 
Operations Command in Afghanistan to increase our ability to support 
the program's expansion.
    We have increased as well our efforts to enable the Afghan 
Government's work and that of international community civilians to 
improve governance, economic development, and the provision of basic 
services. They are essential elements of the effort to shift delivery 
of basic services from PRTs and international organizations to Afghan 
Government elements, thereby addressing President Karzai's 
understandable concerns about ``parallel institutions.''
    We have provided assistance for new Afghan Government-led 
initiatives in reintegration, supporting the recently established 
Afghan High Peace Council and Provincial Peace and Reintegration 
Councils. Indeed, we recognize that we and our Afghan partners cannot 
just kill or capture our way out of the insurgency in Afghanistan; 
Afghan-led reintegration of reconcilable insurgents must also be an 
important element of the strategy--and it now is. In fact, some 700 
former Taliban have now officially reintegrated with Afghan authorities 
and some 2,000 more are in various stages of the reintegration process.
    All of these efforts are part of our comprehensive approach. We 
have worked hard to coordinate ISAF activities with the international 
organizations and diplomatic missions in Afghanistan, as well as with 
our Afghan partners. We have also sought to ensure that we minimize 
loss of innocent civilian life in the course of our operations, even as 
we also ensure protection of our forces and our Afghan partners. Of 
note, a recently released United Nations study observed that civilian 
casualties due to ISAF and Afghan force operations decreased by just 
over 20 percent in 2010, even as our total forces increased by over 
100,000 and significant offensive operations were launched. Our 
progress in this area notwithstanding, however, in view of several 
tragic incidents in recent weeks, I ordered a review of our Tactical 
Directive on the use of force by all levels of our chain of command and 
with the air crews of our attack helicopters. I have also issued 
instructions on reducing damage to infrastructure and property to an 
absolute minimum. Counterinsurgents cannot succeed if they harm the 
people they are striving to protect.
                               transition
    As I noted at the outset, the Joint NATO-Afghan Transition Board 
has recommended to President Karzai and NATO leaders commencement of 
transition in select provinces in the next few months. President Karzai 
will announce these locations in his Nowruz speech on March 21st. In 
keeping with the principles adopted by the North Atlantic Council to 
guide transition, the shifting of responsibility from ISAF to Afghan 
forces will be conducted at a pace determined by conditions on the 
ground with assessments provided from the bottom up so that those at 
operational command level in Afghanistan can plan the resulting 
``battlefield geometry'' adjustments with our Afghan partners. 
According to the NATO principles, transition will see our forces 
thinning out, not just handing off, with reinvestment of some of the 
forces freed up by transition in contiguous areas or in training 
missions where more work is needed. Similar processes are also taking 
place as we commence transition of certain training and institutional 
functions from ISAF trainers to their Afghan counterparts. As we embark 
on the process of transition, we should keep in mind the imperative of 
ensuring that the transition actions we take will be irreversible. As 
the ambassadors of several ISAF countries emphasized at one recent NATO 
meeting, we'll get one shot at transition, and we need to get it right.
                                  2014
    As a number of ISAF national leaders have noted in recent months, 
we need to focus not just on the year ahead, but increasingly on the 
goal agreed at Lisbon of having Afghan forces in the lead throughout 
Afghanistan by the end of 2014. Indeed, we need to ensure that we take 
a sufficiently long view to ensure that our actions in the months ahead 
enable long-term achievement in the years ahead. We have refined our 
campaign plan to do just that--and we are also now beginning to look 
beyond 2014, as well, as the United States and Afghanistan--and NATO 
and Afghanistan--discuss possible strategic partnerships. All of this 
is enormously reassuring to our Afghan partners--and of considerable 
concern to the Taliban. With respect to the Taliban, appreciation that 
there will be an enduring commitment of some form by the international 
community to Afghanistan is important to the insurgents' recognition 
that reconciliation, rather than continued fighting, should be their 
goal.
                           additional issues
    Before concluding, there are four additional issues I would like to 
highlight.
    First, I am concerned that levels of funding for our State 
Department and USAID partners will not sufficiently enable them to 
build on the hard-fought security achievements of our men and women in 
uniform. Inadequate resourcing of our civilian partners could, in fact, 
jeopardize accomplishment of the overall mission. I offer that 
assessment, noting that we have just completed a joint civil-military 
campaign plan between U.S. Forces Afghanistan and the U.S. Embassy 
which emphasizes the critical integration of civilian and military 
efforts in an endeavor such as that in Afghanistan.
    Second, I want to express my deep appreciation for your support of 
vital additional capabilities for our troopers. The funding you have 
provided has, for example, enabled the rapid deployment of a 
substantial increase in the intelligence, surveillance, and 
reconnaissance assets supporting our forces. To take one example, we 
have increased the number of various types of persistent surveillance 
systems--essentially blimps and towers with optics--from 114 this past 
August to 184 at the present, with plans for continued increases 
throughout this year. Your support has also enabled the rapid 
procurement and deployment of the all terrain vehicle version of the 
mine resistant ambush protected family of vehicles, with 6,700 fielded 
since I took command. Your support has continued to provide our 
commanders with another critical element of our strategy, the 
Commander's Emergency Response Program (CERP) funding that has once 
again proven absolutely invaluable as a way of capitalizing rapidly on 
hard-won gains on the ground. Indeed, CERP funding, the establishment 
of the Afghan Infrastructure Fund, and the specific authorization for 
the reintegration program have been instrumental in enabling key 
components of our overall effort.
    Third, I should at this point also highlight the critical work of 
the World Bank and the Asian Development Bank. These institutions are 
the largest donors to Afghanistan after the United States, and they 
have been critical to the success of such projects as the Ring Road and 
the Uzbek-Afghan railroad. We need these critical enabling 
institutions, and further U.S. support for them will ensure that they 
are able to continue to contribute as significantly as they have in the 
past.
    Fourth, I also want to thank you for the substantial funding for 
the development of the Afghan National Security Forces. The continued 
growth of Afghan forces in quantity, quality, and capability is, 
needless to say, essential to the process of transition of security 
tasks from ISAF forces to Afghan forces. The resources you have 
provided for this component of our effort have been the critical 
enabler of it.
                               conclusion
    In closing, the past 8 months have seen important, but hard-fought, 
progress in Afghanistan. Key insurgent safe havens have been taken away 
from the Taliban, numerous insurgent leaders have been killed or 
captured, and hundreds of reconcilable mid-level leaders and fighters 
have been reintegrated into Afghan society. Meanwhile, Afghan forces 
have grown in number and capability, local security solutions have been 
instituted, and security improvements in key areas like Kabul, 
Kandahar, and Helmand Provinces have, in turn, enabled progress in the 
areas of governance and development.
    None of this has been easy. The progress achieved has entailed hard 
fighting and considerable sacrifice. There have been tough losses along 
the way. There have been setbacks as well as successes. Indeed, the 
experience has been akin to that of a roller coaster ride. The 
trajectory, however, has generally been upward since last summer--
though there certainly have been significant bumps and difficult 
reverses at various points. Nonetheless, although the insurgents are 
already striving to regain lost momentum and lost safe havens as we 
enter the spring fighting season, we believe that we will be able to 
build on the momentum achieved in 2010--though that clearly will entail 
additional tough fighting.
    As many of you have noted in the past, our objectives in 
Afghanistan and in the region are of vital importance, and we must do 
all that we can to achieve those objectives. Those of us on the ground 
believe that the strategy on which we are embarked provides the best 
approach for doing just that, noting, as dialogue with President Karzai 
has reminded us at various junctures, that we must constantly refine 
our activities in response to changes in the circumstances on the 
ground. Needless to say, we will continue to make adjustments, in close 
consultation with our Afghan and international counterparts in 
Afghanistan, as the situation evolves.
    Finally, I want to thank each of you for your continued support for 
our country's men and women in Afghanistan and their families. As I 
have noted to you before, nothing means more to them than knowing that 
what they're doing is important and knowing that their sacrifices are 
appreciated by their leaders and their fellow citizens back home. Each 
of you has sought to convey that sense to them, and we are grateful to 
you for doing so. Thank you very much.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. Thank you very much, General.
    Thank you both for your testimony.
    [Audience disturbance interrupts proceeding.]
    Please leave if you're going to make any comments in public 
like that. Just please leave.
    General, let me start by asking you about the July 2011 
date, which you've made reference to in your statement as a 
date about which you're going to recommend to President Obama 
the commencement of the drawdown of some of our forces. Have 
you decided on the level of the reductions that you're going to 
be recommending yet?
    General Petraeus. I have not, Mr. Chairman.
    Chairman Levin. Do you continue to support the beginning of 
reductions of U.S. forces from Afghanistan in July?
    General Petraeus. I do, Mr. Chairman, and I will provide 
options to the chain of command and the President to do that.
    Chairman Levin. Why do you support the beginning of 
reductions this July?
    General Petraeus. If I could come back, perhaps, to your 
opening statement, Mr. Chairman, I think it is logical to talk 
both about getting the job done, as Secretary Gates did with 
his NATO counterparts, and to begin transition and responsible, 
to use President Obama's term, reductions in forces at a pace 
determined by conditions on the ground. As my good friend and 
shipmate, General Jim Mattis, noted, it undercuts the narrative 
of the Taliban that we will be there forever, that we will 
maintain a presence. It does, indeed, as I have told this 
committee before, send that message of urgency that President 
Obama sought to transmit on the 1st of December at West Point, 
2009, when he also transmitted a message of enormous additional 
commitment in the form of 30,000 additional U.S. forces, more 
funding for Afghan forces, and additional civilians.
    Chairman Levin. Thank you.
    Now, relative to the pending request to increase the size 
of ANSF by up to an additional 70,000 personnel, I believe that 
you have made that request, is that correct?
    General Petraeus. I have, Mr. Chairman. My understanding is 
that the Secretary of Defense has forwarded that. This was made 
in consultation, needless to say, with the Ministers of 
Interior and Defense in Afghanistan, who also gained President 
Karzai's support for it. Keeping in mind that it recommends a 
floor of 352,000, and then, if there are certain reforms 
carried through, which are all very much in train by our 
ministry counterparts in Afghanistan in terms of additional 
commitment to leader development, recruiting, retention, and 
attrition issues, that the growth would be to 378,000 total.
    Chairman Levin. That floor of 352,000 is approximately 
45,000 more than the goal for October 2011, as I understand it.
    General Petraeus. That's correct, Mr. Chairman. The Afghan 
forces are on track, it appears, to reach that goal probably 
even early, as was the case this past year.
    Chairman Levin. Secretary Flournoy, are you recommending 
that increase?
    Ms. Flournoy. The Secretary has forwarded the increase over 
to the White House for the President's consideration. We do 
expect a decision on that soon.
    Chairman Levin. Are you able to say that you support it, or 
the Secretary supports it?
    Ms. Flournoy. Yes, I think the secretary does support the 
range that General Petraeus suggested, between 352,000 and 
378,000.
    Chairman Levin. You both have made reference to Pakistan 
and the safe havens which exist there, with the Pakistan 
Government basically looking the other way in two key areas, 
and that's North Waziristan and down in Quetta, where they know 
where those people are who are crossing the border and 
terrorizing Afghan citizens, attacking us, attacking Afghan 
forces, coalition forces. Now, Pakistan may be looking the 
other way in that regard, but I don't think we can look the 
other way about what they are not doing in those areas. So I 
would ask you both what, if anything, more can we do to 
persuade the Pakistanis to be the hammer, which I think you 
made indirect reference to, General Petraeus, so that when 
those forces cross the border, we can be the anvil?
    General Petraeus. Mr. Chairman, first, if I could, I think 
it's always important to note what Pakistan has done over the 
course of the last 2 years, and that is very impressive and 
very challenging counterinsurgency operations to clear Swat 
Valley and a number of the agencies of the Federally 
Administered Tribal Areas (FATA), the rugged border regions. To 
note the enormous sacrifices they have made, their military as 
well as their civilian populace, which has also suffered 
terrible losses at the hands of internal extremists.
    There is indeed, as a result of a number of recent visits 
and coordination efforts in recent months, unprecedented 
cooperation, coordination, between Pakistani, Afghan, and ISAF 
forces to coordinate on operations that will complement the 
others' activities on either side of the border, and, indeed, 
where, say, for example, the Pakistanis push the Tehrik-e 
Taliban Pakistani and they go across the border, and we are 
poised, indeed, to be the anvil on which they are driven.
    The fact is that the Pakistanis are the first to note that 
more needs to be done. There is, I think, a growing recognition 
that you cannot allow poisonous snakes to have a nest in your 
backyard even if they just bite the neighbor's kids, because 
sooner or later they're going to turn around and cause problems 
in your backyard. I think that, sadly, has proven to be the 
case.
    Having said that, there is, of course, considerable 
pressure on al Qaeda and on the Haqqani Network in North 
Waziristan. The campaign there has disrupted significantly the 
activities of those groups. Then, of course, on the Afghan side 
of the border there has, as I noted in my opening statement, 
been an enormous effort to establish a defense in depth to make 
it very difficult for infiltration.
    Again, we have conducted a great deal of coordination with 
our Afghan partners. Ultimately, I think, as Senator McCain 
noted, that the way to influence Pakistan is to show that there 
can be a certain outcome in Afghanistan that means that there 
should be every effort to help their Afghan neighbors and, 
indeed, to ensure that they do that on their side of the border 
as well.
    Ms. Flournoy. Mr. Chairman, if I could just add, at the 
strategic level, I think what's needed is continued investment 
in the strategic partnership that we've been developing with 
Pakistan, and very candid engagement with them on these issues 
to influence their will to go after the full range of groups 
that threaten both of us. It means continued efforts to build 
their capacity, things like the Pakistani counterinsurgency 
fund. But not only efforts to build their military capacity, 
but also their capacity for governance and development in areas 
like the FATA and other parts of northwest Pakistan to meet the 
basic needs of their people.
    We can't walk away from this problem, and we believe that a 
strategy of engagement and investing in the partnership is the 
best way forward.
    Chairman Levin. I think that's all well and good, but it's 
also factually true, I'm afraid, that just simply investing in 
their capacity is not what we need at the moment in North 
Waziristan and down in Quetta with the Taliban. Those folks 
using those areas are attacking our people, and the Pakistanis 
have basically resisted going after them in those areas. 
They've done that for their own internal reasons. On the other 
hand, we have to continue to find ways to impress upon them 
that their backyard is a backyard where snakes are permitted to 
continue to exist, and those snakes are crossing the border. 
You say just simply increase their capacity. I'm not willing to 
simply increase their capacity without some kind of an 
understanding that that capacity is going to be used to end 
these safe havens, which are deadly to our people. So I'll 
simply say that. If you want to comment, you can.
    I should have announced at the outset that we'll have a 7-
minute round for questions. I probably have used mine already. 
But in any event, I will end my round there unless you want to 
add a comment.
    Ms. Flournoy. If I could just add, Senator, we are having 
extremely candid conversations about our expectations of what 
we would like to see our Pakistani partners do in areas like 
North Waziristan and elsewhere. We are also continuing to apply 
as much pressure as we can both from the Afghan side of the 
border, and also in terms of pressure on al Qaeda's senior 
leadership in the border regions.
    Chairman Levin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and I thank the 
witnesses again.
    General Petraeus, I have been a member of this committee 
for a long time, and I've sat through hundreds of hearings. One 
that stands out in my memory was in September 2007, when you 
and Ambassador Crocker came and testified when the majority of 
Americans, the majority of members of this committee, and the 
majority of the Senate, wanted to have an immediate pullout 
from Iraq, and that the surge could not succeed and would fail. 
Obviously, that turned out not to be true. The surge did 
succeed.
    I have a bit of a feeling of deja vu here because this 
morning I'm sure you may have seen, the Washington Post's March 
13 headline is, on the front page, ``Most in U.S. Say Afghan 
War Isn't Worth Fighting.'' The story says, ``nearly two-thirds 
of Americans now say the war in Afghanistan is no longer worth 
fighting, the highest proportion yet opposed to the conflict, 
according to a new Washington Post-ABC News poll.''
    Could you respond to that poll and maybe have a few words 
for the American people about this conflict? You might mention 
the consequences of failure.
    General Petraeus. Thanks, Senator.
    Upfront, I can understand the frustration. We have been at 
this for 10 years. We have spent an enormous amount of money. 
We have sustained very tough losses and difficult, life-
changing wounds. I was at Walter Reed yesterday seeing some of 
our troopers whose lives have been changed forever by their 
service in our country's uniform in a tough fight.
    But I think it is important to remember why we are there at 
such a time. It's important to remember that that is where 
September 11 began. That's where the plan was made. That's 
where the initial training of the attackers took place before 
they went on to Germany and then to U.S. flight schools. That 
is where al Qaeda had its most important sanctuary in the 
world, and it had it under the Taliban. At that time, of 
course, the Taliban controlled Kabul and the vast majority of 
the country. Indeed, we do see al Qaeda looking for sanctuaries 
all the time, frankly. They are, as I mentioned earlier, under 
considerable pressure in their North Waziristan sanctuary. 
There is a search for other locations. Afghanistan, I think, 
would be an attractive location were the Taliban to control 
large swaths of it once again. Indeed, there is a small 
presence of al Qaeda in Afghanistan, some, probably less than 
100, in fact, we killed the number three leader of al Qaeda in 
Afghanistan several months ago and have detained another very 
important individual there as well. We do see the exploration, 
if you will, of certain possible sanctuaries.
    Now, the other point I think it's important to recall is 
the one that I made in my opening statement, and that is that 
it is only recently that we have gotten the inputs right in 
Afghanistan. As Under Secretary Flournoy explained, there were 
a number of years where our focus was elsewhere, where 
Afghanistan was an economy of force effort, to use the military 
terminology. And it is only since late 2008, early 2009 that we 
have focused back on Afghanistan and have deployed the 
military, civilian, and financial resources necessary, adjusted 
our campaign plans and concepts, staffed the organizations 
properly, and so forth, so that we could, indeed, say that we 
actually had the inputs right. We judge that that was roughly 
last fall. That is what has enabled us to make the progress 
that we have made.
    I do believe that we can build on that progress, as 
difficult as that will be, and I believe it's imperative that 
we do so because, again, I think this is, as President Obama 
has said, a vital national security interest that, again, al 
Qaeda not be allowed to reestablish sanctuaries in Afghanistan.
    Senator McCain. Let me, then, ask you to respond to a Los 
Angeles Times story this morning which says, ``National 
Intelligence Director James R. Clapper told Congress last week, 
`I think the issue, the concern that the Intelligence Community 
has is, after that, in the ability of the Afghan Government to 
pick up their responsibility for governance.' At the same 
hearing, General Ronald Burgess, head of the Defense 
Intelligence Agency, offered a sobering view, one that is 
shared by the Central Intelligence Agency, U.S. officials say, 
that contrasted sharply with the optimism expressed in recent 
days by Petraeus,'' from General Burgess, `` `The Taliban in 
the south has shown resilience and still influences much of the 
population, particularly outside urban areas,' Burgess said. 
`The U.S.-led coalition has been killing Taliban militants by 
the hundreds,' he said, ``but there have been no apparent 
degradation in their capacity to fight.''
    Would you respond to General Clapper and General Burgess's 
statements?
    General Petraeus. First of all, with respect, I have tried 
to avoid what might be labeled optimism or pessimism, and have 
tried to provide realism. I think that the opening statement 
speaks for itself in terms of expressing what we believe is 
reality on the ground within very significant note of the 
challenges that lie ahead.
    There is no question that governmental capacity is an area 
of strategic risk, as we identify it. In fact, I think in the 
slides that we provided along with the statement, you'll see 
the so-called ``cloud slide,'' and I think there's a double 
thunderbolt coming out of that particular cloud.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    General Petraeus. The reason is that, indeed, it is very 
difficult to transition tasks that are currently performed by 
international organizations or ISAF PRTs to Afghan institutions 
if that capacity is not present. In fact, I had a long 
conversation with Minister of Finance Dr. Hazrak Omar Zakhilwal 
in Kabul, and then President Karzai the day before leaving, and 
discussed the imperative of increased efforts to expand this 
governmental capacity, particularly in the arena of budget 
execution. Now, that may sound like an odd item for a military 
commander to be engaged in. But with our civilian partners, we 
absolutely have to help our Afghan partners increase their 
ability to spend the money they're provided to spend on the 
very bureaucratic processes that they have instituted, to 
enable them to take money that's provided in through the top 
and get it down to the province and district to replace, again, 
service provision by international organizations and PRTs.
    They are seized with that. They realize that the trend that 
is currently in Afghanistan has to be changed and that, indeed, 
budget execution has to increase substantially, again, to 
enable President Karzai's goal of doing away with parallel 
institutions.
    Senator McCain. Could I just finally ask very briefly, do 
you see evidence of increasing Iranian involvement in 
Afghanistan?
    General Petraeus. We did interdict, as you saw, I think, in 
press reports, Senator McCain, a shipment from the Quds Force, 
without question the Revolutionary Guard's core Quds Force, 
through a known Taliban facilitator. This was interdicted. 
Three of the individuals were killed. Forty-eight 122-
millimeter rockets were intercepted with their various 
components. This is a significant increase in, more than double 
in range over the 107-millimeter rockets that we have typically 
seen, more than double in terms of the bursting radius, and 
also the warhead.
    Senator McCain. Do you see other evidence of Iranian 
involvement?
    General Petraeus. We do see, certainly, Iranian activity to 
use both soft power in the way that they shut off the fuel 
going into Afghanistan a couple of months ago, and also, 
certainly, to influence the political process there as well, in 
ways similar to what we saw in Iraq.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, Secretary Flournoy and General Petraeus for your 
service and your testimony.
    General Petraeus, I don't think we can ever thank you 
enough for the service and leadership you've given our country. 
Particularly in this case, you'd gone from, really, a 
remarkable leadership in Iraq, with a lot of help from the 
State Department and our troops, turning that situation around, 
then to U.S. Central Command (CENTCOM). Suddenly with General 
McChrystal's departure from Afghanistan, you're called to the 
Oval Office, the president asks you to go to Afghanistan. You 
could have found a lot of reasons not to. You just didn't 
hesitate. You said, yes, sir. You've been there with a lot of 
support from the administration and others. We're turning it 
around now in Afghanistan without any illusions about the 
difficulties we face. I just think the country owes you a 
tremendous expression of gratitude. You set, by your example, 
the standard for everyone who serves under you in Afghanistan, 
and frankly, for any of us who have the privilege of serving 
our country in whatever capacity. I thank you for that.
    The public opinion polls are on our minds today. I think we 
all know from experience, you can't make decisions about war 
and peace based on public opinion. Once you commit, as we did 
after September 11, to the cause of a different, new 
Afghanistan, and you commit troops to it, you can't be affected 
by waves of public opinion. We know from recent history that 
when wars seem to be failing, public opinion is negative. When 
wars seem to be succeeding, public opinion turns more positive.
    In this case, we are succeeding in Afghanistan today. 
Therefore, I think the downward turn in the public opinion here 
in the United States has more to do with the understandable 
preoccupation of the American people with the economy, with 
jobs, and with the deficit. In that sense, I think we have to 
come back and remind the American people of why we are in 
Afghanistan, why it is worth it, and that we are now 
succeeding. I think, Secretary Flournoy and General Petraeus, 
you have done that most effectively in your testimony.
    Secretary Flournoy, I want to quote from you because you 
said, just, direct to the point, ``The threat to our national 
security and the security of our friends and allies that 
emanates from the borderland of Afghanistan and Pakistan is not 
hypothetical. There is simply no other place in the world that 
contains such a concentration of al Qaeda senior leaders and 
operational commanders. This remote region has served as a 
crucible for the most catastrophic terrorist actions of the 
past decade. As we learned at great cost after abandoning the 
region in 1989, staying engaged over the long term is critical 
to achieving lasting peace and stability in this region, and 
securing our national interests.'' I don't think we could say 
it better, and have to keep saying it, about why we're there.
    Second, General Petraeus, I think your presentation today 
tells us, again, nobody's under any illusions here that this is 
turning around. I can tell you that I've been going to 
Afghanistan since January or February 2002, after our initial 
victory there, overthrowing the Taliban, going back at least 
once a year, usually twice a year. For a period of years, just 
to validate what you've said about us turning our attention 
away, every time we went, if we looked at the map every year, 
the Taliban was in control of more of the territory of 
Afghanistan until the last year, until 2010. I don't think this 
is an accident because, as you both said, in some sense we've 
only fully engaged in Afghanistan for the last year. President 
Obama made the decision to commit the surge troops. In fact, 
since the president has been our commander in chief, we have 
increased our troop presence not just 30,000, but 87,000, when 
one considers the previous commitment made.
    So we're there for a reason. We're making progress. I can't 
thank you both enough for all of that.
    I want to just get to a couple of questions briefly. We've 
talked about the safe havens in Pakistan. But what strikes me 
as really significant and, I think, under-appreciated, is that 
as of 2 years ago there were large Taliban safe havens inside 
Afghanistan such as Marja, and that, one of the things that's 
happened over the past 2 years is that our coalition has taken 
those safe havens away from the enemy and shut them down. I 
wonder, General, if you'd comment on that.
    General Petraeus. Indeed, that has been one of our most 
important objectives and, indeed, one of our troopers' most 
important accomplishments. These were significant safe havens, 
in the case of Kandahar City, with Zharay, Panjwa'i, and 
Arghandab, again, the very wellspring of the Taliban movement 
and right on the doorstep of the second largest city in 
Afghanistan. Indeed, there was a period in early 2009, I 
remember the intelligence analysts came in and told me that 
they thought that Kabul was being encircled once again in the 
same way that it was during the civil war. So these are very 
important accomplishments.
    The increase of ANSF and the advent of the ALP program now 
also enable us to prevent other safe havens in much less 
populated areas from springing up as well. That is certainly 
one of our objectives.
    Senator Lieberman. I appreciate that answer.
    Let me go to another important matter which we both, you 
both talked about. We're on a path now to transition control of 
security to the ANSF by the end of 2014. But both of you have 
testified today about the importance of signaling an enduring 
commitment to the security of Afghanistan, and I couldn't agree 
more.
    I wonder if both of you would describe, I know there are 
some discussions going on now seriously between the U.S. and 
the Afghan Government, what kinds of long-term commitment you 
might contemplate. I wondered if you'd comment on the 
possibility of some continuing base presence, perhaps a jointly 
operated system of bases in Afghanistan, between us and the 
Afghans.
    Ms. Flournoy. Senator, thank you. When the President first 
announced the strategy at West Point, he was very clear that we 
were making an enduring, long-term commitment to Afghanistan 
and the region, having made the mistake historically of walking 
away and then paid a very dear price for that. That has been 
clear from the beginning. It's an important message to 
emphasize as we begin this transition process.
    We just had a team in Kabul this week starting to discuss 
the outlines of a strategic partnership with our Afghan 
partners, being clear about our expectations of that 
partnership, and also the kinds of commitments we would be 
willing to make.
    The President has also been very clear from the beginning 
that we do not seek any permanent bases in Afghanistan, that we 
don't seek to be a type of presence that any other country in 
the region would see as a threat. That said, we are committed 
to the success of the Afghans, to continuing to build their 
capacity. So we do envision, if the Afghans invite us to stay, 
the use of joint facilities to continue training, advising, 
assisting the ANSF, conducting joint counterterrorism 
operations, and so forth. So, we are in the process of 
discussing what kind of parameters should outline that 
partnership.
    I should also add, it goes far beyond the military domain 
to look at how we can support further development of 
government, governance, economic development, and so forth.
    Senator Lieberman. General, do you want to add anything to 
that?
    General Petraeus. Again, I think it's very important to 
stay engaged in a region in which we have such vital interests. 
I think the concept of joint basing, the concept of providing 
enablers for Afghan operations and so forth, frankly, similar 
to what we have done in Iraq since the mission change there, 
would also be appropriate in Afghanistan, again, depending on 
how the circumstances evolve, noting that we have nearly 4 
years to go until that time.
    Senator Lieberman. Well, I thank you both. I think the 
important points you made, obviously, we will only stay in 
Afghanistan after 2014 to the extent we're invited to do so by 
the Afghan Government and we determine we're able and want to 
do so. But I think, General, you point out very correctly that 
we have, that we would do this not just for the Afghans, but we 
also have security interests in the stability of Afghanistan 
and in the region more generally.
    I thank you both very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me identify with the remarks of Senator 
Lieberman about your service, General Petraeus. I might also 
add that in the 17 years I've been on this committee, I don't 
recall a better, more comprehensive, opening statement and I 
appreciate that very much.
    One thing that hasn't been talked about, and I thought you 
might comment about is what's happening right now with the 
budget and the CRs and how that is affecting the military.
    General Petraeus. Thanks, Senator.
    The fact is that the Services will do everything in their 
power to make sure that those on the front lines are provided 
everything that is required. They will do that even as they 
start to inflict pain on themselves. We've been through this 
before. I think I remember this from when I was a commander in 
Iraq. The Services did some very serious belt-tightening, but 
they continued to provide the support to us out there.
    Now, there does come a point, however, at which some of 
that pain has to be passed on where you just can't continue. 
Our assessment is, again, this is strictly from an Afghan 
perspective, not from the perspective of those here in the 
Pentagon, but we sense that somewhere in the June timeframe, 
probably, with the ANSF funding, that they would start to be a 
limiting factor. That, obviously, would cause us enormous 
concern, because the last thing that we want to have to do is 
to halt our progress in an area that is so important to the 
ultimate transition of tasks.
    If I could add a comment on that while we're on this topic, 
though, Senator, and that does have to do with the growth of 
the ANSF, again, making very clear, my job, of course, is to 
state requirements. I'm a battlefield commander. Every level 
above me has a broader purview and broader considerations.
    Of course, the challenge with the growth of the ANSF, the 
concern, is the issue of sustainability. So, while it's clearly 
desirable from the perspective of the Ministry of Interior, 
Defense, ISAF and Afghan leaders, there is an understandable 
concern about the sustainability of that over time, and you all 
had quite a bit of dialogue with Secretary Gates on that. I 
think that's the discussion that is taking place here in 
Washington with respect to that growth decision.
    Senator Inhofe. All right. I appreciate that very much.
    General, I noticed you made a request for an additional 
$150 million in the CERP, and that's been one of my favorite 
programs. You've spoken very favorably about it. I noticed, 
though, that the Special Inspector General for Iraq 
Reconstruction had a report where they were somewhat critical 
of CERP, and I'd like to have your response to that.
    General Petraeus. Again, there were, in some areas, grounds 
to be critical about it, and we've taken quite considerable 
steps to improve our oversight of this and a number of other 
programs, frankly. We have increased significantly personnel 
who are in the business of tracking our contracting, overseeing 
the implementation of the various construction efforts and so 
on, and also monitoring CERP. I reissued the CERP letter, for 
example, and clarified it, and established new procedures. 
We've done more training for the CERP individuals. We have, 
indeed, structured the program so that now the average of these 
is entirely what I think the committee's intent was all along, 
and that is that there are roughly $17,000 on average this 
particular year.
    We have already done more projects this year than we did in 
last fiscal year because, of course, of the increase of our 
troopers that are now on the ground, deployed, and they have 
gains that they want to solidify and build on with the help of 
this program. So, that additional $150 million that we 
requested over the $400 million in regular CERP is very 
important to us, and that would be something that would cause a 
significant halt in some of the programs that we seek to 
capitalize in the very hard-fought and costly gains of our 
troopers on the ground.
    Senator Inhofe. We talked about this as it relates to Iraq. 
We went through the same thing. I look at this, that perhaps 
there aren't the same safeguards in there, but there's, so much 
more can come by those immediate decisions to carry them 
through. Then those figures still stand.
    General Petraeus. Yes.
    Senator Inhofe. Let me just mention on a much larger scale, 
when talking about train and equip, our figures have gone up, 
from fiscal year 2010 to 2012, $9 billion, $11.8 billion and 
$12.8 billion. I would say that both of you had been very 
complimentary about the training and the changes that had been 
taking place with the Afghans. I was over there, spent New 
Year's Eve with the kids there, and took a long time out at the 
Kabul military training center. I was just really in shock at 
the attitude, well, first of all, being on New Year's Eve, the 
attitude of our kids over there, just, their spirits are high. 
They know what their mission is. They're excited about it, and 
they're dedicated.
    But in terms of watching the military train, it isn't all 
that different from the training that takes place here. We have 
done a great job over there. Would you make some comments about 
the successes that we've had in the training of the Afghans?
    General Petraeus. This is another area, Senator, in which, 
again, it is only recently that we got the inputs right. Key 
input in this regard was Lieutenant General Bill Caldwell, 
former commander of the 82nd Airborne Division, commander out 
at Fort Leavenworth before taking this command, and he has 
guided this effort very impressively. The fact is that we have 
increased very substantially in every single area of the so-
called ``train and equip'' mission. The funding has, indeed, 
gone up because we're in the stages of building the 
infrastructure to accommodate the additional forces, and buying 
the equipment for them. We still do have fairly substantial 
numbers of contract trainers, although we're starting to bring 
those down as we replace them both with NATO, ISAF trainers and 
with increasingly Afghan trainers, because we have an Afghan 
``train-the-trainer'' program among all the other efforts.
    One of the most significant steps forward in this regard is 
in the literacy arena. We have actually already had some 50,000 
to 60,000 Afghans go through literacy training, and we have 
even more than that number in literacy training now. Now, you 
may say that's a strange pursuit for a train and equip mission. 
But the fact is that one of the major challenges in Afghanistan 
is human capacity because of the more than 80 percent 
illiteracy rate. If a soldier can't read a serial number off a 
weapon, a policeman can't read a license plate on a car, 
needless to say, that is mission-limiting. So, we bit the 
bullet and decided that, as part of basic training for the Army 
and for the police, that we would introduce basic literacy 
training along with it, without having to extend the course. 
It's a night program.
    Interestingly, the Afghans have really taken to this. Not 
surprisingly, many of them were quietly ashamed of not being 
able to read and write. They now get themselves to a first-
grade level, it's a functional level, and then we build on that 
in the subsequent noncommissioned officer training courses for 
the soldiers and police, as well. This is a huge investment in 
Afghanistan writ large, and a major investment in the ANSF.
    But the same is true of a number of different areas. There 
are now 11 branch schools. So, the institutional side of this 
is also building. The leader development side is beginning to 
take off.
    Senator Inhofe. Oh.
    General Petraeus. We're starting now to build the so-called 
``enabler'' forces. For a long time we were basically training 
and equipping infantry battalions. But of course, a force, an 
infantry battalion is only as good as the military 
intelligence, the logistics support, the transportation, the 
maintenance, and all these other, again, enablers. So that has 
been a key area of focus in the past year as well.
    Senator Inhofe. That's going great. My time has expired. 
But I would only say that we were able to randomly talk, select 
some people out, Afghans, and get their take on this thing, and 
I understand that literacy issue. The training is going very 
well there.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed is next, and after his round, we will then 
have a 5-minute break.
    Senator Reed. Thank you very much, Mr. Chairman.
    Madame Secretary, General Petraeus, thank you very much, 
not only for your appearance today, but your extraordinary 
service to the Nation.
    General Petraeus, we are contemplating a serious issue in 
terms of the Department of Defense (DOD) budget. Many have 
suggested that we have to move forward regardless of other 
aspects. But, integrated within your plans is a strong State 
Department presence in Afghanistan. And the State Department 
request for OCO funding is $2.2 billion, civilian personnel, 
economic activities, aid work, et cetera. How central and 
critical is this funding to your overall strategy and your 
assessment of ultimate success in Afghanistan?
    General Petraeus. Thanks, Senator, because it is critical. 
It is absolutely central to what we do. This is a comprehensive 
civil-military COIN campaign. It is not a military-only 
campaign. As I noted in my opening statement, we've recently 
revamped the U.S. civil-military campaign plan. Essential to 
that is the ability of State, USAID, and other implementing 
partners to capitalize on the hard-fought gains of our troopers 
on the ground and those of our Afghan partners in joint 
operations. Again, it's not enough just to clear and hold. You 
do have to build. The build includes local governance, local 
economic revival, if you will, improvements in basic services, 
and so forth, so that the Afghan people see that there's a 
better future by supporting the Afghan Government, the 
legitimate government, and it has to be seen as legitimate, 
rather than a return to the repressive days of the Taliban. 
There are various areas in which the Taliban can actually 
compete. Conflict resolution is one of them, by the way.
    Again, if the Afghan Government can't or doesn't provide 
those basic services, then there will be a reversion to the 
Taliban, however little the people have regard for them, and 
they remember what it was like under the brutal rule of the 
Taliban. So this is very, very central to what it is that we're 
trying to do.
    Senator Reed. Thank you very much.
    I'll ask both of you to comment on this. We hear various 
comments emanating from Kabul, the civilian leadership of the 
Afghani government, from our NATO allies, about the strategy, 
the long-term commitments, et cetera. But what struck me along 
with Senator Levin, and I'll speak for myself now--was, at the 
local level there seems to be much more traction with respect 
to local Afghani leadership. Also, there seems to be continuous 
improvement in the ANSF that gives a different perspective than 
listening to the pronouncements of the President or of some of 
our allies. I wonder if both of you might comment on that, and, 
just, to what extent is one overwhelmed by the other? To what 
extent one is a better sign of the reality on the ground than 
the other?
    General Petraeus, and then Secretary Flournoy.
    General Petraeus. First of all, Senator, local governance 
has indeed been growing and developing, as has, again, the 
development in other areas of basic service delivery. But as I 
noted earlier, there's no question, and President Karzai and 
his Minister of Finance are the first to recognize it, that at 
the national level budget execution does have to be improved. 
They are determined to do that, and they have plans to do that, 
so that more money can be put on budget, rather than being 
injected through what President Karzai understandably is 
concerned with, this term of ``parallel institutions.''
    Certainly some things are said in Kabul at times for 
domestic political reasons. I know that that never takes place 
in Washington.
    Senator Reed. Never.
    General Petraeus. But occasionally in Kabul that does take 
place. Beyond that, though, I think Secretary Gates made a good 
point the other day, I think before this committee, that 
sometimes we don't listen well enough to President Karzai. He 
was understandably concerned for years about private security 
contractors, which he sees as the ultimate parallel institution 
under the control, in some cases, of former warlords or members 
of what he, and we, by the way, have agreed to call ``criminal 
patronage networks,'' which he is very concerned about. We had 
a long conversation just, again, the day before I left, with 
Brigadier General H.R. McMaster, who is the one who's 
spearheading the effort with Afghan partners to focus the right 
attention on this very, very challenging element that can erode 
the very institutions to which we need to transition if, again, 
these are criminals. They're breaking the law. They have 
political protection in some respects. They're not just acting 
as individuals. They are part of networks. President Karzai 
sees these, and he wants to deal with them. When he heard the 
evidence on his Surgeon General, for example, he fired him on 
the spot in a subsequent, or, previous briefing between an 
Afghan partner and Brigadier General McMaster. He did the same 
with the ANA Military Hospital when he heard what they were 
doing, and how derelict in their duty and, frankly, immoral, 
and failing their moral obligation to their soldiers.
    So, again, I think at times we have to listen better. What 
he says is understandable about civilian casualties. We cannot 
harm the people that we are there to help protect. We have to 
protect them from all civilian casualties, not just those at 
our hands, or those of our Afghan partners, but those of the 
insurgents as well.
    So I think that's how you do have to look at this. I do 
think that periodically we have to think about walking a mile 
in his shoes and understanding the dynamics with which he has 
to deal, the political foundation that he has to maintain, 
because it is not, although the executive has enormous power in 
that system, there are also significant checks and balances on 
it that may not be as apparent to individuals who haven't lived 
this the way some of us have there in Kabul.
    Senator Reed. Madame Secretary.
    Ms. Flournoy. Senator, I would just add, Secretary Gates 
has also said this is a case where the closer you are to what's 
happening on the ground in Afghanistan, the more positive you 
are about the ultimate outcome. Because when you go to, at the 
district level, very small changes can have huge impact. If you 
combine some basic security with a decent district police 
chief, a decent district governor, a shura that is 
representative of the local population, you start to see the 
basis of transformation at the local level. That is what we are 
seeing in many, many villages and districts across, 
particularly, the south.
    I think I would totally agree with General Petraeus' 
comments about President Karzai. But I'd also expand to say, 
look, we work with many, many Afghan partners and many 
extremely competent ministers who are committed to fighting 
corruption, who are committed to Afghanistan's success. I'll 
just cite for you the new Minister of Interior, Bismillah Khan, 
or, Minister Mohammadi. He has personally gone district by 
district. He's removed 66 corrupt police leaders, 2,000 
officers, personally rooting out corruption where he finds it, 
holding leadership accountable. Those, each of those changes 
can have a profound effect on the population in that locality. 
So, as we see our Afghan partners stepping up to take on that 
accountability, the anticorruption, the transparency, we are 
starting to get real traction at the local level.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    We'll take a 5-minute break. [In recess.]
    We are now back on the record and we'll come back to order.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Secretary Flournoy and General Petraeus, I want to welcome 
both of you and thank you for your distinguished service to our 
country.
    I also want to associate myself with the remarks of Senator 
Lieberman. You truly are a role model about what it means to be 
a public servant, and we are deeply grateful and honored to 
have you serving us in Afghanistan and what you have done for 
our country. I also want to thank you for the sacrifices that 
the troops that serve underneath you are making on our behalf.
    I had the privilege of meeting you in January when we went 
to Afghanistan. I was very encouraged to see the progress that 
has been made there. I think sometimes the press focuses often 
on the bad things that happen, and the progress that is being 
made there is not reported about enough. In particular, I was 
very impressed with the military training center, as Senator 
Inhofe mentioned, particularly the work done by General 
Caldwell in standing up the effort Afghan troops to allow them 
to carry forward with this conflict and work with you, and 
then, of course, when we transition, to allow them to protect 
their own country.
    I also had the opportunity to meet with so many of our 
brave soldiers who are working along with their Afghan 
counterparts, and I was very impressed with, for example, 
walking through the village in Nawa, where months before I 
would have never been able to do that.
    Now, more than ever, I think it's important for us to 
follow through on our commitment in Afghanistan, to make sure 
that Afghanistan does not become a haven for terrorists again 
and that we disrupt the terrorist networks there and in 
Pakistan to make sure that our country and our allies are 
protected.
    I would like to ask you today about the amount of money 
that we're spending on contracting in Afghanistan. In 2009, the 
U.S. and NATO common funding expenditures for contracting in 
Afghanistan amounted to roughly $14 billion. This is, 
obviously, a very significant amount of money. One of the 
issues that I know that you are concerned about, both of you, 
is the issue of contracting funds ending up in the hands of 
power brokers and those that are working with our enemies and 
working to undermine us.
    I want to commend you, General Petraeus, as well as 
Secretary Flournoy, for the efforts that are being undertaken 
right now to make sure that U.S. dollars are not getting in the 
hands of the wrong people. For example, I know, General 
Petraeus, that you have put together contracting guidance that 
was issued in September 2010, that is very important to make 
sure that we are getting the hands, the money where it is 
supposed to go.
    I believe that more work must be done, however, to fully 
implement the guidance that you have brought forward. I believe 
that the law must be reformed to allow you to more quickly 
terminate contracts that directly or indirectly benefit our 
enemies, and to ensure that no additional funds go to those who 
undermine our interests or attack our troops.
    For this reason, Senator Brown and I recently introduced 
legislation to quickly allow us to terminate the flow of money 
that goes to the wrong people. General Petraeus, I thank you 
for the feedback that you gave Senator Brown and I on that 
legislation. We will be incorporating your comments. I just 
wanted to ask you, General, what your view is on this type of 
legislation and the need for it.
    General Petraeus. My view is very simple, Senator, the 
sooner, the better. As my comments back to you indicated, that 
would be very helpful to us. Indeed, the fact is that we were 
not spending anywhere near enough time, energy or sheer man-
hours in focusing on where our money was going.
    Now, don't misinterpret that, please. We knew who, with 
whom we were contracting. We knew who the subcontractors were. 
But literally down there in the subs to the subs, occasionally 
we found out that money is actually going to the insurgents, or 
there is bribery, corruption or some other activity that's 
going on.
    The counterinsurgency contracting guidance, in the past, 
I've always issued counterinsurgency guidance. In that guidance 
we have this phrase, ``money is ammunition at a certain point 
in the fight.'' In this case, I said, if money is ammunition, 
we need to make sure it gets into the right hands, and that was 
part of the counterinsurgency contracting guidance.
    We subsequently developed Task Force (TF) Shafafiyat, 
transparency, Brigadier General H.R. McMaster is in charge of 
that, to come to grips with our Afghan partners with the whole 
issue of, again, criminal patronage networks and how they 
undermine the very institutions to which we need to transition 
tasks in the months and years ahead.
    We also formed two subordinate TFs, TF 2010 and TF 
Spotlight, one to look at all contracts and review every single 
contract to the best of our ability with much greater 
intelligence focus on them, and the other to focus specifically 
on the issue of private security contracts, again, a subset 
which, we believe we have reached an agreement with the Afghan 
Government, again, one that was of understandable concern, an 
issue of understandable concern to President Karzai, that you 
cannot have armed groups being funded through our contracts 
running around the country. We call them road warriors in some 
cases, and they actually were becoming part of the security 
problem, rather than necessarily a solution to it.
    These groups have enabled us now, in the past year or so 
alone, to debar some nine contractors, to suspend several dozen 
others that are pending debarment, and to terminate a number of 
contracts as well, although, again, it's a difficult and 
laborious process without the legislation that you have 
proposed, which is why we strongly support it.
    Senator Ayotte. Thank you very much, General.
    I also wanted to follow up to, I believe, a request that 
has been made from CENTCOM Contracting Command, and perhaps the 
secretary could comment on this as well.
    As I understand it, we haven't had enough contracting 
officers to be able to police the contracts. I know that 
CENTCOM has asked for, I believe, an additional 60 officers to 
make sure that, as we go forward with the legislation and your 
guidance, that we have the people scrutinizing these to make 
sure that money goes in the right place.
    If you could comment on what the status is of getting those 
additional officers in place to be able to move forward with 
this initiative.
    Ms. Flournoy. Secretary Gates has already signed deployment 
orders to increase the number of military personnel and, in 
some cases, civilian personnel to provide additional 
contracting oversight and to support General Petraeus's 
efforts, and there may be more of that coming.
    The other thing we've done is started a dialogue with our 
interagency partners, the USAID, State Department, who also 
have substantial contracts on the ground, to share, to make 
sure that we're all doing this together, that they share some 
of the best practices and lessons learned from the efforts that 
General Petraeus started, and that we as a government are 
better monitoring and overseeing our contracts.
    Senator Ayotte. My time is up.
    I want to thank you both for your efforts you're making in 
this regard and for everything that you're doing on behalf of 
our country. I look forward to working with you both to make 
sure that you have the tools that you need to be able to make 
sure that this money goes to our efforts in advancing the cause 
in Afghanistan.
    General Petraeus. Thank you, Senator.
    Senator Ayotte. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation for your service and that of the 
men and women who serve under you so ably.
    General Petraeus, I've been an advocate for benchmarks, 
metrics of evaluating progress and giving, as something that is 
more objective than a subjective explanation of whether we're 
winning, losing or whether we're doing better. I noticed that 
in your evaluation of the benchmarks from the November report 
to Congress regarding the progress in Afghanistan, that the 
focus on the assessment of governance from March 2010 to 
November 2010 was flat, at 38 percent. In other words, there 
was 38 percent in March and roughly 38 percent in November, no 
appreciable change. In your opinion, since that November 
report, has anything changed? Are we moving forward? Or could 
we be losing some ground?
    General Petraeus. First of all, Senator, of course, one 
reason I provided the packet of slides for you, indeed, is to 
provide some of the measurements that we do focus on in terms 
of terrain gained, in terms of ANSF progress, not just growth 
in numbers but also in capability and in quantity, the damage 
done to the midlevel and below Taliban fighters, and so forth.
    With respect to governance, I think since the fall, there's 
no question that there has been--as, actually, one of your 
colleagues noted already--improvement in local governance, 
especially in these districts that were cleared during the 
course of the fall. So, you see the establishment of district 
sub-governors and, now, line ministry representatives, the 
revival of schools, and a variety of other areas of improvement 
in some of these very important districts, Marjah among them, 
Zharay, Panjwa'i, Arghandab and so forth. You see the gradual 
reestablishment of ANSF presence in those locations as well.
    With respect to national governance, there has been 
progress in these areas as well. But there clearly, as I 
mentioned earlier, is recognition by the key individuals, 
President Karzai and the Minister of Finance foremost among 
them, that there has to be more done in the sense of 
governmental capacity building, and particularly with respect 
to budget execution.
    Again, we all want that day to arrive where we can achieve 
the Kabul conference of last year's goal of putting 50 percent 
of the donor money on budget, rather than injecting it directly 
through a variety of implementing partners or international 
organizations. It's very important to the development of Afghan 
capacity. But they have to then execute that budget. Although 
there has been good performance with respect to the operations 
side of the budget, which is salaries, predominately, they have 
done well, with respect to the so-called development budget or 
capital investment, there clearly is substantial work that 
needs to be done. Again, President Karzai is personally seized 
with this, as is his lead for this, the Minister of Finance. 
That's an area that the embassy and, indeed, ISAF and other 
international partners, will be working together to support the 
growth in this particular area.
    Senator Nelson. In terms of evaluating a percentage, is it 
fair to ask how this compares to the 38 percent in November 
overall for governance, local as well as national?
    General Petraeus. Senator, that's probably one that we 
should take for the record and consult with our civilian 
partners on, as I think that's the embassy and USAID that put 
that together, certainly with U.S. Forces-Afghanistan input.
    Senator Nelson. Okay. That would be great, to get it for 
the record.
    [The information referred to follows:]

    The governance rating in 124 focus districts remained about even 
between March 2010 and September 2010 at 38 percent (as reported in the 
Section 1230 report, ``Progress Toward Security and Stability in 
Afghanistan''). In March 2011, 53 percent of the population living in 
the 124 focus districts rated governance as ``emerging'' or ``full 
authority,'' an increase of 15 percent. See attached slide.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Nelson. On the effectiveness and capability of the 
ANA and ANP, you have indicated that it's challenging. There is 
some improvement in certain areas, and not necessarily in other 
areas. Is it possible to begin to look at that in terms of 
metrics as well?
    General Petraeus. Senator, in fact, if you look at slide 
16, ANSF Capability in the Field, you'll see the development in 
these forces, not just in terms of the growth of additional 
army battalions and so forth and in police districts and 
precincts, but, in absolute terms, also the growth in terms of 
capability. This is an assessment not just based on math, if 
you will. It's not just numbers of vehicles and do they work 
and some other functions. It's an assessment by their partners 
who are actually in the fight alongside them.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Nelson. I guess it would be the orange and the 
yellow that would measure what kind of effectiveness they 
have----
    General Petraeus. That's correct, Senator. That shows the 
growth in their capability, again, as assessed by those 
actually in the field with them.
    Senator Nelson. You're comfortable that this is a fair 
appraisal of that capacity and capability?
    General Petraeus. I am. In fact, we've worked a number of 
months on these metrics. Candidly, this is a process that 
you'll recall we went through in Iraq. I think it took me 6 
months as the commander in Iraq before we finally unveiled it 
to all the press and everybody else. We spent 2 full days 
explaining how the metrics were evaluated and assessed. So, 
this is the maiden voyage for some of these, with your 
committee.
    Senator Nelson. We appreciate your efforts toward that. 
Obviously, it's better to be able to establish it in terms that 
are more objective than those that are usually subjective. So, 
I appreciate your continuing to do that.
    Now, in terms of ISR, I know the department has put forth a 
spending proposal of about $4.8 billion in procuring additional 
ISR assets. I think there are three Global Hawks, 84 Predators, 
and over 1,300 various small remotely piloted aircraft systems. 
That also sets a goal of achieving 65 Predator orbits by the 
end of 2013.
    Do you have all the ISR assets that you can use at the 
present time, recognizing that their increased use will 
require, most likely, additional assets? But, are you somewhat 
close to what you need now?
    General Petraeus. Sir, we are much better off, as I stated 
in my opening statement than we've ever been in Afghanistan. I 
did request additional ISR assets, and I think that this is 
becoming an area, frankly, where there's probably not a U.S. 
commander in the world who has really worked closely with what 
these assets do for us, who would say that he is satisfied with 
the number that he has. But we are vastly better off than we 
were when I took command 8\1/2\ months ago. It makes a huge 
difference for our troopers. It is becoming increasingly 
difficult for a Taliban member to plant an IED on a road that's 
covered by a tower or a blimp with an optic, and to do that 
successfully, just to give one example.
    These is also a reason for the very high success rate of 
operations by our special mission unit elements. The fact is 
that, the reason that they are so good is not just because 
they're the best assaulters in the world and extraordinarily 
fit and great shots and everything else, it's all of the 
enablers behind them. It's the linguists, the interrogators. 
It's the documentation exploiters. It's the ISR platforms that 
get them to the right place, then other systems that get them 
the final 5 or 10 meters. It's all of this together that 
inserts these individuals and provides them real-time 
information on their targets. ISR platforms of a variety of 
different types, manned as well as unmanned, I might add, are 
critical ingredients in this.
    Senator Nelson. My time has expired, but I'm getting, 
gathering from what you're saying that it's a joint effort 
between our forces and the other ANA, or, the other forces that 
are there, using this intelligence that, gathering all 
together.
    General Petraeus. That is correct, Senator. Indeed, other 
troop-contributing nations are providing a variety of systems 
as well. But clearly, the United States provides the vast 
majority of them and has the most effective command and 
control, and pipes as well. Because remember that all of this 
requires massive communication pipes, and again, that is unique 
to the United States.
    Senator Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    But just your comment about the maiden voyage for these 
metrics, double-check with your staff on that, because these 
metrics have been reviewed by us, presented to us for many, 
many months in a different form. But it's been a long battle. 
Senator Nelson's been in the lead in terms of metrics. But we 
on this committee have seen these numbers, and, indeed, have 
battled over some of these numbers for the last year or so.
    General Petraeus. We have the Chairman Levin metrics, as 
well, Mr. Chairman. [Laughter.]
    Chairman Levin. These, yes.
    General Petraeus. These are a little bit different.
    Chairman Levin. They're in a much better, more readable 
form. I will say that.
    General Petraeus. Point well taken, sir. [Laughter.]
    Chairman Levin. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Let me echo my colleagues in thanking you both for your 
service.
    General Petraeus, you've answered the call to duty over and 
over again, and we are extraordinarily grateful for that. 
Nevertheless, I do have some difficult questions that I want to 
ask you today.
    Madame Secretary, in your testimony you spoke of our goal 
as achieving a ``durable outcome.''
    Admiral Mullen has testified that one of the necessary 
conditions to succeed in achieving sustainable security in 
Afghanistan requires neutralizing the insurgent sanctuaries in 
Pakistan. Indeed, in the strategic risk chart that the 
General's given, it talks about the external sanctuaries as 
well as actions by our neighbors. How can we have a durable 
outcome, when insurgent sanctuaries exist in neighboring 
Pakistan, and when the Iranians are continuing to supply the 
insurgents with weapons, money, and by some reports, even 
training at camps on the Iranian side of the border?
    Ms. Flournoy. Senator, I think that we have to continue to 
halt the flow of arms into Afghanistan wherever it comes from, 
whether it's coming across the Iranian border or the Pakistani 
border. I think we are, have a number of forces focused on 
that.
    On the particular question of the sanctuaries in Pakistan, 
I think there's a multi-pronged strategy of applying, with the 
Pakistanis, additional military pressure on those areas, and 
having very candid conversations with the Pakistanis, and very 
clearly stating our expectations of where we would like them, 
where we need them to do more. But, in addition, I think it 
also involves a long-term strategy that tries to shift their 
calculus to get them to buy into our success in Afghanistan. A 
friendly, stable Afghanistan is in Pakistan's interest as well.
    As we pursue some of the political dimensions of our 
strategy, enabling the reintegration of foot soldiers to give 
up the fight and renounce al Qaeda and agree to come back into 
their communities in Afghanistan and abide by the constitution, 
as we begin to create the conditions where we might see some 
reconciliation of reconcilable elements more senior, those are 
the kinds of things that will begin to fracture the insurgency 
and degrade it to a level that can be managed and ultimately 
defeated, even as we build up Afghan capacity.
    So there are many parts of this problem that have to be 
worked together. But make no mistake, we continue to apply as 
much pressure as possible on those sanctuaries and in working 
with our partners and allies to try to deny them.
    Senator Collins. Pakistan may well have an interest in a 
stable Afghanistan, as you and the general have said. I would 
suggest to you that I do not think that the Iranians have an 
interest in a stable Afghanistan. I recognize the difference 
between the Shiites and the Sunni groups here, but the Iranians 
certainly view as making life more difficult for us if 
Afghanistan is unstable. We don't have that kind of 
relationship with the Iranians. That's why I am particularly 
troubled by the interception of weapons coming from Iran. But 
we know that it's more than weapons, it's money, it's also, 
according to some reports, training at Iranian camps as well.
    General Petraeus. I would, Senator, because it's 
interesting in this sense, that the Iranians seem almost 
conflicted, frankly. On the one hand, they don't want the 
Taliban to come back. This is obviously an ultra, ultra 
conservative, some elements extreme, extremist Sunni movement. 
They are, of course, a Shia state with a Sunni minority. So 
they're really not happy to see that happen. Beyond that, 
though, they also don't want us to succeed too easily, and they 
certainly want to have influence in whatever state does evolve 
in their neighbor to the east. That's why you see different 
activities ongoing.
    There is a significant amount of trade and economic 
activity between the two countries. Afghanistan does import a 
great deal of various goods and services from Iran, and it's an 
important economic outlet for them. Iran knows that if 
Afghanistan is, over time, able to develop the infrastructure, 
human capital, value chains, and so forth, to extract and to 
export the trillions of dollars of minerals in its soil, that 
it wants to have a good relationship with Afghanistan for that 
time, and, indeed, to have some of those exported through 
Afghanistan's neighbor to the west and not be shut out of what 
President Karzai terms the ``Asian roundabout'' as his vision 
for the Afghanistan of the future, the new Silk Road running 
through Afghanistan from the energy-rich Central Asian states 
to the north, to the very populated subcontinent to the 
southeast.
    So again, we see these different impulses. Of course we 
see, in fact, in truth, different elements of the Iranian 
Government. There is the part of the Iranian Government that 
responds to President Ahmadinejad, and then there is the part 
that is the security services, which have achieved much greater 
power and influence as a result of the supreme leader having to 
turn to them to put down the unrest in the wake of the hijacked 
election some year and a half ago. So there are some very, very 
interesting currents that run within Iran, and you see them 
playing out in these different fashions inside Afghanistan, in 
a number of cases, of course, in a very unhelpful manner, as 
you noted.
    Senator Collins. Thank you.
    I know my time has expired.
    Let me just very quickly say that I'm also concerned about 
whether we're sending mixed messages to both the American 
people and to the Afghans. On the one hand we hear the 
President, and General Petraeus has repeated it today, that 
we're going to start withdrawing our troops this summer in 
order to underscore the urgency and undermine the Taliban 
narrative that we're going to be there forever. On the other 
hand, both of you have said how important it is that we not 
repeat the mistakes of the past where we turned our back on 
Afghanistan, and that we do need a long-term relationship. I 
would just suggest that I think that's part of the confusion 
that we see reflected in the polls is about exactly what is our 
long-term strategy.
    General Petraeus. Senator, as I mentioned earlier, I don't 
really see those as mutually exclusive strands of logic, if you 
will. I think, again, as Secretary Gates has laid out, it's 
appropriate to talk about getting the job done, as he 
emphasized with his NATO counterparts in Brussels. I think it's 
also appropriate, as he did when he spoke before this 
committee, to talk about the commencement of transition and the 
commencement of, again, the responsible drawdown at a 
conditions-based pace of the surge forces, while, even beyond 
that, discussing the initiation of discussions on a strategic 
partnership with our Afghan partner. So I think all of that 
actually can be seen as a coherent whole. But, I certainly 
understand the challenges that you have described about that.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    My compliments to both of you, too, for your outstanding 
service to our country. Thank you.
    I am the new chairman of the Emerging Threats and 
Capabilities Subcommittee, which has under its purview the 
continued threat of IEDs. Roadside bombs are by far the leading 
cause of death and injury to our U.S. troops in Afghanistan. 
One of my highest priorities is to improve our capacity to 
counter the IED threat. Just this past week, I had the honor to 
talk to a wounded warrior from Fort Bragg who is currently 
recuperating at Walter Reed. He was involved in February with 
an IED, has lost both of his legs below his knees, and he's 
getting great treatment at Walter Reed. I was truly inspired by 
this incredible young man's service, honor, and his attitude.
    Last year the Obama administration started a worldwide 
effort to stop the flow of ammonium nitrate into Afghanistan. 
The campaign, as I understand it, is running up against 
stubborn hurdles in neighboring Pakistan, where police 
routinely wave tons of ammonium nitrate shipments across the 
border into Afghanistan despite Afghanistan's ban on the import 
of chemicals. It's unclear whether the border guards are being 
fooled by clever attempts to disguise the shipments or whether 
they're being paid to turn a blind eye or both. I think the 
problem's also exacerbated by the lax enforcement in 
Afghanistan. The Afghanistan Government has passed a law 
banning the chemical, but Pakistan has not yet done so. We know 
that ammonium nitrate is commonly used in agriculture as a 
fertilizer, but currently in Pakistan most of the farmers use 
urea, which is an organic chemical, to fertilize their crops, 
and right now there's only one factory in Pakistan that 
actually manufacturers ammonium nitrate.
    Can you give me your assessment of the IED threats, and can 
you provide us with the detection rate? Is there, do you think, 
progress in working with the Pakistani government to stop this 
flow of ammonium nitrate into Pakistan, into Afghanistan, which 
is, I think, the basis of so many of these IEDs?
    General Petraeus. Thanks very much, Senator. By the way, I 
spoke to that great 7th Special Forces Group noncommissioned 
officer myself yesterday, and he is, indeed, a very 
inspirational American. I actually think it is very realistic 
that he will be back in the fight by the next time that his 
unit deploys.
    With respect to the detection of IEDs, obviously, the 
number goes up and down, but we are somewhere in the 
neighborhood of 60 percent, I think, in recent weeks and months 
in terms of detection of the IEDs. I think that that is 
probably a bit higher than it was in the past because we are 
getting more tips from local citizens in the same way that 
we've been able to detect, or to find, four times the numbers 
of weapons caches and explosives caches in the last probably 4 
months over previous time. In fact, I think there's a slide on 
that in your packet as well.
    Clearly, there is an enormous effort that has gone into the 
protection of our troopers from IED blasts. As I mentioned, the 
all-terrain vehicle version of the MRAP, nearly 7,000 of those 
deployed since I took command, the increase in ISR platforms of 
various types, and also various sensors and optics and so forth 
that are helping us to detect this, some, of course, that help 
us detect ammonium nitrate, which, of course, is used in the 
production of homemade explosives that do, indeed, form the 
base for a number of the IEDs.
    You are correct that there are no ammonium nitrate 
factories in Afghanistan. I think there are actually two 
functioning in Pakistan. I have spoken about this. I have 
written formally, as well, about it to General Kayani, with 
whom I meet at least once a month and have done so since, I saw 
him twice in the last 3 weeks alone. He has pledged support for 
this. He has gone to the Ministry of Interior, which has 
purview for it. Having said that, we have not yet detected any 
appreciable reduction in the production, or, importation, 
infiltration into Afghanistan of ammonium nitrate. There have 
been enormous seizures, colossal. I think there was one the 
other day of 10,000 pounds found of ammonium nitrate. But 
again, there's still a substantial amount getting through.
    This, then, comes to the whole issue of, obviously, 
improving detection at the borders, and then also this so-
called defense in-depth concept, because a fair amount of it is 
infiltrated through some of the borders as well.
    We very much appreciate your focus on this and the whole 
gamut of this, every piece of the chain from someone even 
training an individual, then constructing it, financing it, 
doing the reconnaissance, planting it and so forth, the whole, 
there's no silver bullet, as we say, that can take out IEDs. 
There is a silver pathway, though, and you have to attack the 
entire pathway. Your support for a whole variety of initiatives 
for attacking that pathway has been very important.
    Senator Hagan. Thank you, because I want to do everything 
possible to be sure we can detect as many and, obviously, 
prevent this ammonium nitrate as the base. I think it would go 
a long way.
    General Petraeus. Again, Senator, that was a major reason 
for the request for the additional funding for the ISR that 
Secretary Gates conveyed to the committee when he testified.
    Senator Hagan. Thank you.
    The demand for a sizable ANSF continues to increase, and at 
some point down the road this demand may drop when the Afghan 
security and governance capacity becomes more mature and 
security gains are not easily reversed, and there would not be 
a significant breeding ground for the Afghans to join 
extremists. In the President's fiscal year 2012 request, it 
includes $12.8 billion to grow, train, and equip the ANA and 
ANSF. On February 17, Secretary Gates indicated that it's 
unsustainable to fund the ANSF at these levels for the long 
term. He suggested that perhaps the U.S. could temporarily fund 
the ANSF as a sort of surge in security assistance, and then 
reduce that as conditions in Afghanistan improve and as the 
ANSF becomes more capable.
    Would you, both of you if you so desire, describe your 
thoughts on this issue, and should any increase beyond the 
ANSF's current manning levels be temporary? How can we ensure 
that our NATO partners significantly contribute in this regard?
    General Petraeus. First of all, to answer to the last one 
first, Secretary Gates was quite clear in his request to our 
NATO and other troop-contributing nation partners for ISAF when 
he addressed them in Brussels and asked not only that they 
maintain forces at appropriate levels and so forth, but also 
that they provide funding for the ANSF trust fund and their 
other mechanisms as well. Japan, as an example, funds the 
salaries of the ANP, a very significant contribution. So 
continuing that and increasing that is hugely important.
    The very high levels of ANSF funding right now are, of 
course, necessary because we're building them. It requires the 
infrastructure, equipment and, in some cases, still various 
contract trainers and other contract assistants. These are the 
big cost drivers, actually, not salaries per se. So once the 
infrastructure is built and then it is in the sustainment mode 
rather then the construction mode, costs will come down. 
Obviously as equipment is procured, that element of the cost 
will come down. As Afghan trainers take over increasingly from 
ISAF and contract trainers, that cost will come down. It will 
still be considerable, and Secretary Gates talked about that. 
Certainly over time Afghanistan itself, as it becomes able 
again to exploit its extraordinary mineral blessings, which 
measure in the trillions, with an ``S'' on the end of it, of 
dollars of minerals, as they are able to extract and get those 
to markets, that will help them sustain it as well.
    But certainly there could be a point at which this would be 
an Afghan surge that could come down as well, and would need to 
come down as well, because of the cost and because of the 
sustainment. Again, that is the issue with respect to the 
decision on the growth of the ANSF in the future, what is 
ultimately determined. As I said earlier, I fully recognize 
that situation. Again, I'm someone who's supposed to 
forthrightly state requirements. Other people are supposed to 
determine how to resource those. Those of us who state 
requirements understand that you can't always get full 
resourcing for everything it is that you've requested.
    Ms. Flournoy. Senator, if I could just add, I do believe 
that as the insurgency is degraded, there may be possibilities 
to sort of resize, right-size the force over time.
    I also think this is a very important area for potential 
reinvestment by our NATO and ISAF partners. As we go through 
the transition process, as some forces are pulled out or some 
countries change the nature of their mission, reinvesting by 
contributing more to support the ANSF as an important, could be 
an important part of that.
    We're also hearing from our counterparts in the Ministry of 
Defense and Interior that they want to take on this issue of 
how to make the costs more sustainable for them by finding 
efficiencies, different ways of doing things that are 
sustainable in an Afghan context.
    Finally, revenue generation. General Petraeus mentioned the 
strategic minerals extraction, but also, Afghanistan is in the 
process of putting in place a whole system for customs 
collection, taxation, et cetera. So as their economy begins to 
grow, we expect them to be able to pay for more of these costs 
as well.
    Senator Hagan. Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Graham.
    Senator Graham. Thank you both for coming.
    General Petraeus, how long have you been deployed since 
September 11? Do you even know?
    General Petraeus. It's more than 6 years, because there was 
a year in Bosnia, nearly 4 years in Iraq and then 8\1/2\ months 
here, and then it depends on your accounting rules for CENTCOM, 
I guess, where we spent, I think, 300 days of the first 365 on 
the road.
    Senator Graham. What keeps you going?
    General Petraeus. Obviously, it is the greatest of 
privileges to serve with our young men and women in uniform. 
When the President turns to you in the Oval Office and asks you 
to do something that's important to our country, there can only 
be one answer, frankly. I strongly believe that our young men 
and women in uniform in places like Afghanistan and Iraq and 
elsewhere around the world have more than earned the title as 
the ``new greatest generation.''
    Senator Graham. I totally agree with you.
    What percentage of the people in Afghanistan have probably 
served at least one tour in Iraq?
    General Petraeus. There's a substantial number. Although, 
Senator, as Colonel Graham, having served, I have been 
privileged to serve as your commander in two different----
    Senator Graham. We're doing well in spite of me. Yes, sir. 
[Laughter.]
    General Petraeus. --two different combat theaters. It was 
quite a burden, but----
    Senator Graham. I know it must have been.
    General Petraeus. Each cohort, each brigade combat team, 
probably deploys with about as much as 40 percent who are going 
to combat for their first time. So, certainly the commissioned, 
warrant, and noncommissioned officers, almost all have served 
at least one tour downrange in Afghanistan or Iraq. Now, of 
course, there are increasingly individuals with several 1-year 
tours, and in some cases even more than that.
    Senator Graham. One of the things I hear a lot, General, 
when I'm over there, is what makes you do this? So, the most 
common answer is, I want to do it so my children will not have 
to.
    General Petraeus. I think I talked to you one time, 
Senator, about the reenlistment ceremony we had on the 4th of 
July in 2008 in Baghdad. It was going to be a big ceremony, a 
couple hundred people, but we never envisioned that it would be 
1,215. To see that many great young Americans raising their 
right hands in the air, reciting the oath of enlistment after 
you, is a pretty inspirational thing. We all sort of asked 
ourselves out loud, why are they doing this? The economy at 
that time was still booming. It wasn't for the stock options. 
We think it was because they believed that they were engaged in 
something that was hugely important to our country, that they 
felt that their fellow citizens recognized it, and that they 
felt very privileged to have those individuals on their right 
and left who had also raised their right hands and were willing 
to serve in such circumstances.
    What's particularly remarkable about that ceremony, of 
course, is that by raising their right hands at that time in 
Iraq, they knew that they were volunteering for another tour in 
combat. Again, our country can never thank them or their 
families enough.
    Senator Graham. Madame Secretary, I would like to 
acknowledge the civilian component of this war. Some of the 
best people I've met in Iraq and Afghanistan have come from the 
Department of State and other agencies, as well as civilian 
contractors.
    General Petraeus, you wrote me a letter about the essential 
need for a civilian surge and that the holding, building and 
transition cannot possibly succeed unless we have enough 
investment on the civilian side.
    Mr. Chairman, I'd like to introduce this letter into the 
record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Graham. Could you very briefly elaborate, can we 
succeed if we do not get the civilian piece right?
    General Petraeus. We cannot, Senator. Again, this is not 
just a military campaign. This is not a campaign where we take 
the hill, plant the flag, and come home to a victory parade. 
This is a civil-military comprehensive endeavor that requires 
building on what our troopers in uniform have fought to 
achieve.
    Senator Graham. I hate to interrupt my commander, but we 
only have 7 minutes. [Laughter.]
    At the end of the day, should the foreign operations 
accounts for Afghanistan be considered overseas contingency 
operations? The same category?
    General Petraeus. It's certainly as important. Again, I 
don't know how to classify categories. As I wrote in that 
letter, this is a national security issue. It's not just a 
foreign aid issue.
    Senator Graham. From your point of view, it would be a 
national security expenditure.
    General Petraeus. Correct.
    Senator Graham. Private contractors. We have thousands of 
contractors throughout Afghanistan doing good work. Sometimes 
they make mistakes. I received a letter from Mr. Zoellick, the 
head of the World Bank, who is about ready to withdraw his 
presence from Afghanistan because of some changes the Karzai 
government were contemplating regarding private contractors. Do 
we have some good news on that front? Could you share it with 
us?
    General Petraeus. I think we do, Senator. My deputy 
commander emailed me this morning right before this, and said 
there had been an agreement on the ability to continue the use 
of private security contractors for a specified period as a 
bridge to achieving what I think President Karzai 
understandably wants to do, which is to bring these kinds of 
forces underneath the oversight of the Afghan public protection 
force, an element of the Ministry of Interior, so that they are 
not, in a sense, armed elements that may be working for a 
former warlord or another.
    Senator Graham. I totally understand that. But the position 
that Mr. Zoellick was about to take is, I think, shared by 
many. They're very reluctant to keep their people in 
Afghanistan unless they can make sure they're secure. Do you 
believe this bridge is going to accommodate their needs?
    General Petraeus. I do. Again, President Karzai was 
instrumental in getting this done. Dr. Ashraf Ghani was the 
point man. But clearly it was, again, President Karzai and the 
Minister of Interior who enabled this to be achieved.
    Senator Graham. Let's talk a little about leaving and 
staying. Senator Collins and I had a pretty interesting 
conversation. We were talking about leaving and staying all at 
the same time, and that can be confusing.
    I understand the poll. I know this is a war-weary nation, 
and the only reason I ask you about the commitment of our 
troops and yourself is that the people who are doing the 
fighting really do believe they can win. I certainly believe 
you can win, and winning is probably a hard concept to define, 
but not for me. I think I know it when I see it. I certainly 
will know losing when I see it.
    Can you tell us why it is important to announce this summer 
that America will have an enduring relationship with the Afghan 
people, if they request it? Part of that enduring relationship 
would have a military component. It is my belief, General and 
Madame Secretary, if the Taliban believed that the American 
military forces, at the request of the Afghan people, would be 
around for awhile providing American air power and support, it 
would be a demoralizing event and it would encourage the people 
we're trying to help. What is your view of how this would play 
out in the region? Starting with the Taliban, and go around the 
region.
    General Petraeus. Again, that was also in my statement, 
perhaps not quite as eloquently put as that. [Laughter.]
    But it was in there, indeed, that if the Taliban recognizes 
that there is an enduring international commitment, that they 
perhaps should consider some other alternatives than fighting 
for a longer period of time and, indeed, that they should 
consider the conditions for reconciliation that have been 
established by President Karzai.
    The fact is that, again, already, just in the few months 
since the peace and reintegration process has formally begun, 
there are some 700 members of the Taliban, mid and lower level, 
who have decided to reconcile. There are 2,000 more that are in 
various stages of it. We think there are perhaps a couple 
thousand more who have informally reconciled, if you will, 
they're just going home to their village and laying down their 
weapons. A lot of this, again, because of the progress that our 
troopers have achieved on the ground; because of a sense that 
Afghan forces are growing evermore rapidly; and that even if 
there is again a staying in smaller numbers, if you will, there 
is going to be an enduring commitment, a sustained substantial 
commitment, that should give them confidence that this Afghan 
Government can, over time, develop the capabilities to secure 
and to govern itself.
    That's a critical message for the neighbors as well. Again, 
as I think, one of the lead members of the committee mentioned 
earlier, the best way perhaps to influence Pakistan is through 
Afghanistan. By seeing that there can be an enduring solution 
in Afghanistan, Pakistan can then recognize how to achieve its 
understandable national security aims over time as well, and 
that would not include allowing elements on its soil who create 
problems for their neighbors.
    Central Asian states very much want to see a stable and 
secure Afghanistan. They are very concerned about the illegal 
extremism problem, and also about the illegal narcotics 
industry.
    Senator Graham. One last thought.
    I know my time is up, Mr. Chairman.
    There's some discussion in this country about detainee 
operations. What would we do if we caught someone tomorrow in 
Yemen or Somalia, a high-value target? Where would we jail that 
person? Would you recommend that we take future captures to 
Afghanistan or outside the country?
    General Petraeus. I would not, Senator. Again, that's from 
the perspective of the commander.
    Senator Graham. It would do enormous damage to the Afghan 
Government potentially, is that correct?
    General Petraeus. It potentially would. Again, it's 
something I think we probably would not want.
    Senator Graham. Do you have people in American military 
custody in Afghanistan, third-country nationals, that we need a 
home for outside of Afghanistan?
    General Petraeus. We do. I might let the Under Secretary 
answer. Because what we have is a process where we identify 
these individuals to DOD, which then has to determine in an 
interagency process, with consultation with Capitol Hill, I 
believe, can they be returned to their country of origin, or 
are they going to be retained there as we sort out literally 
what to do with them?
    Ms. Flournoy. I would also add, we are, detainee operations 
is one of the functional areas that we are in the process of 
transitioning to Afghan lead. So, that will obviously also 
affect the nature of what can and can't be done.
    Senator Graham. Thank you both for your extraordinary 
service to our country.
    Chairman Levin. Thank you, Senator Graham.
    Senator Manchin.
    Senator Manchin. Thank you both, to General Petraeus and 
Secretary Flournoy, for your service. I just returned a couple 
weeks ago from Afghanistan and Pakistan and had a great 
discussion with you. I appreciate it very much. I, like Senator 
Graham and everyone who's ever visited, have never been more 
impressed with the quality of the men and women that we have 
serving over there.
    With that being said, I know that everything relies a lot 
on the training of the security forces and also of their police 
force. I know we're spending about $1 billion a month in that 
effort. With that, sir, I would simply ask General Petraeus 
what skill sets will they have, knowing that we have about 80 
percent plus illiteracy when they enter into it, and when they 
finish the program they're at a, maybe no more than a third 
grade level as far as reading or writing? What do we expect 
them to do, and what can they do? Does that give you concern?
    General Petraeus. Again, the reason that we're investing in 
them and their basic training with basic literacy, as well as 
basic combat skills or what have you, is because it's vitally 
important that they be able to read a serial number or basic 
instructions, orders, and so forth. The idea is to get them to 
a first grade reading level by the end of their basic training, 
and then with each additional rung of their professional 
development, that there is additional investment in them. We're 
well over a hundred thousand that have now completed that, or 
who have, or are in training right now. We think it's a very 
important investment in the security forces of Afghanistan.
    Senator Manchin. The thing that I'm having a problem with, 
being the former Governor of the State of West Virginia, I know 
we train our State police, 26-week paramilitary training, to go 
into all aspects of the police force. For $1 billion, we could 
do 100,000 State policemen in my State. The cost is so 
enormous. By the end of 2011 we will have spent close, they 
tell me, to $40 billion. This has to be the largest undertaking 
of a literacy program ever in the history that we, as a country 
or a military--have taken on.
    General Petraeus. We're doing a lot more than literacy, I 
can assure you, Senator. We are building infrastructure for 
them. We are buying equipment for them. We are conducting, 
needless to say, all kinds of combat training, and not just 
basic infantryman training, but everything all the way up to 
and including pilot training for them. This is, again, the 
development of institutions, not just infantry battalions, not 
just, with all due respect, paramilitaries. Of course, it's 
being conducted in the midst of an insurgency, which creates 
all kind of special challenges not to be found in West 
Virginia, the last I checked. With respect. [Laughter.]
    Senator Manchin. Thank you. I take it as respectful.
    If I may ask you this, I know everything depends in 2014 if 
we're asked to stay. If we're not asked to stay, and they are 
not at the level, and the investments that we have made at that 
point in time, what do we do?
    Ms. Flournoy. Senator, I would hate to speculate because, 
first of all, I think that's an unlikely set of conditions.
    Senator Manchin. So you assume that they're going to ask us 
to stay?
    Ms. Flournoy. I think everything that we have heard, they 
have asked us to stay, it's, they are, this is a region, after 
decades of war, where people and states have survived by 
hedging their bets. They don't want to hedge their bets. They 
want to be able to have a reliable strategic partner in the 
United States. NATO has already signed a strategic partnership 
agreement with Afghanistan. They want our continued engagement 
and support over time.
    Obviously, closer to the time, we will be able to evaluate 
that.
    But sir, what I would, on the ANSF, if I could just make 
the point--our investment in this force is our part of the 
pathway to diminish the burden on the United States and our 
Armed Forces. It is by standing them up that we will eventually 
be able to withdraw, providing continued support to enable 
their success. It is much less expensive to build the ANSF than 
it is to support our own continued involvement at these levels.
    Senator Manchin. If I may, it'll depend an awful lot on the 
determination and commitment by their own government and their 
own leaders to continue this or it'll be a catastrophic failure 
at the greatest proportions, and money committed to the, by the 
U.S. citizen.
    Ms. Flournoy. Yes.
    Senator Manchin. If I could go into a question real quick 
to you, Secretary Flournoy. Can you explain to me that, 
basically, with the U.S. and the ISAF forces, we've secured the 
areas of the Logar Province, and we have also determined there 
are quite valuable resources in Afghanistan, coal being one of 
them, which I have a little familiarity with, and copper being 
the other. Why is it that China is the only country that's able 
to go in there and extract these resources? They're making an 
investment of $3.5 billion. It looks like there will be a 
return of $88 billion, and we're paying for the security.
    Ms. Flournoy. This is an area where we would like to expand 
the opportunity for foreign investment and assistance to 
develop the strategic mineral resources of Afghanistan. The 
United States, through something called the Task Force for 
Business and Stability Operations, a very important function 
that we have--that, they actually were the ones that brought in 
the U.S. Geological Survey to survey everything that's there, 
and now give the Government of Afghanistan a map, if you will, 
for this long-term development of their resources. We are 
trying to bring in other western companies now to see if they 
are willing to invest and develop resources.
    Senator Manchin. How is that China is the only country that 
is willing to go in there? How can China do it successfully?
    General Petraeus. First of all, they're not the only 
country. In fact, there is now open for bid some other mineral 
resources, and there are, indeed, other countries than China 
that are contemplating serious bids for it. With respect, the 
security for that particular location is paid for by China, I 
might add, as well.
    Senator Manchin. My time is up, but there will be a time 
when I'd like to go into that further because I have talked to 
an awful lot of the companies that aren't willing to go there 
right now, but China was willing to make a $3.5 billion 
investment. It's because of the security, what we have given 
there for them to be able to do that. I don't know why they 
believe they can, and no one else has ventured in, a 
tremendous, rich deposit.
    General Petraeus. There are actually other contracts that 
have been let recently. There is a contract for small oil, 
actual extraction. Again, it is minuscule by, say, Iraq 
standards, but it is providing feed money. It's not certainly 
China that has that. There is a gold mine that has actually 
been bid on in, just in recent months, again, facilitated to 
some degree by Task Force for Business and Stability 
Operations. It is, I believe, a joint venture between a U.S. 
company and an Afghan company.
    So, I mean, the fact is Senator, China has bid on mineral 
extraction around the world because it's trying to build its 
growing basic industries, and that's why its been so aggressive 
in that area. But India has been equally aggressive in various 
locations as well.
    Ms. Flournoy. Senator, if I could add that the authority 
for this task force to operate and do this economic development 
work that's so crucial to Afghanistan's long-term 
sustainability, that authority is basically going away. So we, 
this is a place where you could help enormously by providing 
the authority for that work to continue in Afghanistan.
    General Petraeus. If I could second that, because in Iraq, 
which was vastly more violent, I mean, we're talking about 220 
plus attacks per day in Iraq and we will have somewhere in the 
neighborhood, anywhere from 20 on up to 60, depending on the 
season in Afghanistan, and there were vastly more easily 
extractable elements in Iraq, of course, with the oil, with 
natural gas, with sulfur and with some other resources, not to 
mention fresh water. It was very difficult to attract industry 
back to Iraq. Some had literally given up completely and gone 
home.
    Deputy Under Secretary Paul Brinkley and the Task Force for 
Business and Stability Operation came in. They would guide 
investors back in. They would help them. We would help secure 
them. This is part of a comprehensive approach. Ultimately, for 
example I think Boeing, by the way, got a $5.5 billion deal. GE 
came back after a personal call to Jeff Immelt. Many large 
energy companies came back in and did, indeed, bid. It wasn't 
just for the United States, this was for the success of a 
mission. That's what he sought to do, and had quite 
considerable success in it. I think that Prime Minister Maliki 
in Iraq, and indeed, certainly, President Karzai in 
Afghanistan, would personally attest to the important role that 
Paul Brinkley and his team have played in each of those 
missions.
    Senator Manchin. Again, thank you for your distinguished 
service.
    General Petraeus. Thank you, Senator.
    Senator Manchin. Thank you.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Good to see both of you.
    I actually share the concerns of Senator Manchin. I've also 
spoken to many companies. They say it's very difficult to get 
in there and establish a base. It seems like we've done all the 
work, and now everyone's coming in, reaping the benefits. You 
have a potential couple of trillion dollars of natural elements 
under the ground that need to be, obviously, retrieved and then 
secured, and make sure that that money from those sales 
actually stays in Afghanistan and it's obviously distributed to 
the people the right way so we don't have to keep supplementing 
what's going on over there, I mean, because there is obviously 
a point where we have to draw the line.
    I'm wondering a couple of things. When I was there, I have 
to admit, I wasn't too impressed with some of the training that 
was going on. I know there was a big concern about the trainers 
that other countries were supposed to provide, and to get the 
police up and running. Has that gotten any better at all?
    General Petraeus. There has been an absolute increase in 
the number of trainers provided by the ISAF troop-contributing 
nations, quite substantial. But the requirement has grown as 
well because of the course, of course of the need to train 
greater and greater numbers for the increased end strength. So, 
we see right now a shortage of about 750 or so trainers, after 
one takes out the pledges, noting that there are a couple of 
countries, Canada and The Netherlands, who have not yet worked 
out their final contribution. Those could be significant in 
helping us reduce that number, but again, premature to announce 
that. But even after that, there will still be a shortage of 
trainers, and we're looking at how to compensate for that.
    Senator Brown. Secretary Flournoy, has there been any 
effort? What can you tell us about those efforts with Canada 
and Netherlands with regard to, kind of, adhering to the terms 
of their agreements?
    General Petraeus. I think I probably should address that 
because I talked to the defense ministers of both countries 
recently.
    Senator Brown. Okay. Right.
    General Petraeus. They're both intent on it. We're in very 
substantial negotiations. But again, it's premature for us to 
announce what they're going to do.
    Senator Brown. Okay. That's fine. Is there a concern that 
we may be doing it alone? Are countries pulling out to the 
point like they did ultimately in other conflicts? Are we 
ultimately going to be the last country standing?
    Ms. Flournoy. Secretary Gates just came back from the NATO 
Defence Ministers meeting and he had a very clear message that 
we need to stay focused on the fight, we need to stay in this 
together.
    But honestly, what's impressed us since Lisbon is the level 
of resolve and the level of unity within ISAF. Countries are 
committed. They've signed up to the 2014 goal. They are staying 
in the fight, by and large, and they understand the concept of 
reinvestment, that even as they may start to change the 
composition of their force, the expectation is reinvestment to 
continue to support, whether it's through training or through 
funding in other ways. So at this point, we feel that the 
resolve is there going forward.
    Senator Brown. I know when Senator Graham was speaking, he 
said that he knows what losing is, but he didn't really say 
what winning is in Afghanistan. Sir, what is your opinion as 
to, what's a win? When do we say, ``Hey, we're there, we won, 
it's time to really go on.''
    General Petraeus. A win would be an Afghanistan that, 
again, can secure itself against the level of insurgency at 
that time, and that can govern itself, see to the needs of its 
people, presumably still with some level of international 
assistance, but with vastly reduced levels of assistance and a 
very different character to whatever security assistance is 
provided. Ultimately, of course, winning is really ensuring 
that there is not an al Qaeda sanctuary again in Afghanistan. 
Of course, what's necessary for that is, again, an ability to 
secure and govern itself.
    Senator Brown. That being said, would it also have to 
include Pakistan and Iran basically saying that they're going 
to stay out and let Afghanistan self-govern and do their own 
thing?
    General Petraeus. Needless to say, the more that all the 
neighbors of Afghanistan, not just Pakistan and Iran, but the 
more that all the neighbors help Afghanistan, obviously, the 
higher the prospects are for an enduring win, as you put it.
    Senator Brown. Are you seeing that type of help? Because I 
know when I was there, it didn't seem like there's a whole heck 
of a lot of help.
    General Petraeus. We are seeing considerable help by 
Afghanistan's neighbors to the north who provide electricity, 
who are allowing the northern distribution network, as we call 
it now, to transit their soil, and who are providing a variety 
of different forms of assistance, everything from humanitarian 
assistance, again, to goods and services.
    As I mentioned earlier, Iran has indeed, without question, 
provided weapons, training, funding, and so forth for the 
Taliban, but still in measured amounts. It's certainly not an 
all-out escalation or something like that. We think, again, 
that's because they are conflicted. It's a very cynical 
approach, if you think about it. They want to provide enough 
assistance to the Taliban so that they make life difficult for 
us and others, but not so much that they might actually 
succeed.
    Then of course with respect to Pakistan, as I mentioned, 
they have taken very considerable actions against the Tehrik-e 
Taliban Pakistani, Tehreek-e-Nafaz-e-Shariat-e-Mohammadi 
(TNSM), and some of the others that have threatened the very 
existence of their country as they know it. We are coordinating 
more closely with them in that particular fight than we ever 
have before. There is significant pressure on al Qaeda and on 
the Haqqani Network in North Waziristan, without question. But 
clearly, again, I think the Pakistanis are the first to 
recognize that there are big challenges there that have to be 
dealt with if they are to help their neighbors to the west.
    Senator Brown. I was thankful that Senator Ayotte signed on 
to my bill regarding the corruption and accountability aspects 
of, where's the money? I mean, I was shocked, as many of us 
were, that some of our taxpayer money is going to be going to 
the Taliban, potentially, through, really, not legal or 
appropriate means. I was listening obviously as I was doing 
another matter, and I appreciate your endorsement on that.
    Mr. Chairman, you would really throw a lot of weight behind 
this if you could join in, not figuratively, but----
    Chairman Levin. Yes, well, it sounds very, very good to me, 
and we've been very actively involved in that contracting 
issue. It fits very, very well with the kind of effort that 
we've made to look at the way in which contractors have 
actually assisted our enemy at times. So we are grateful for 
your initiative.
    Senator Brown. Thank you.
    Finally, with everything that's happening over in Egypt, in 
that area, have you noticed any similar types of activities in 
the region that you're really focusing on?
    General Petraeus. We have not, Senator. There have been, 
and always have been, small demonstrations on this issue or 
that issue. I think it's actually a strength of Afghanistan 
that there are peaceful demonstrations periodically in the 
capital or in some of the provinces for the citizens to voice 
pleasure or displeasure at some action that has taken place. 
But there has certainly been nothing on the scale or the order 
of what we've seen in Egypt or some other countries in the 
Mideast.
    Senator Brown. Sir, thank you. I'm looking forward to 
coming over in that capacity we spoke about. We're working on 
that. So, thank you.
    General Petraeus. That would be great.
    Senator Brown. Thank you.
    Chairman Levin. Thank you, Senator Brown.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join the chairman and others on the committee who 
have expressed their appreciation for your extraordinarily 
distinguished and courageous service. Both of you are certainly 
owed a debt by this country--as are your spouses. In 
particular, I want to express my appreciation to Holly Petraeus 
for the work that she's doing on behalf of our veterans when 
they are threatened with scams and frauds and other kinds of 
abuses. This leads me to my first question.
    Both of you have spoken very powerfully and eloquently 
about this ``greatest generation.'' At the same time, we know 
that many of them are threatened by wounds that may not have 
been visible or diagnosed--traumatic brain injury or post-
traumatic stress. I wonder if you could describe the hopefully 
enhanced efforts that are being made on the battlefield and at 
home given that the suicide rate, I think I saw in the CNAS 
report, is estimated to be at an annual rate of one every 36 
hours, and 35 percent of all troops are estimated to be 
afflicted by post-traumatic stress or traumatic brain injury. 
Sadly, and unacceptably, 7,000 veterans of Iraq or Afghanistan 
are homeless every night in this country.
    So if you could respond. Thank you.
    General Petraeus. Thanks very much, Senator.
    First of all, there has been an extraordinary effort, I 
think, to improve every aspect of battlefield medicine, all the 
way from the training of those and the equipping of those at 
the point of injury, the medical evacuation. We have devoted--
especially with Secretary Gates' leadership, frankly, when I 
was at CENTCOM--considerable additional resources that are very 
much keeping us within the ``golden hour'' it's called, of 
Medevac from, again, point of injury to the field hospital. The 
average for last month, I think, was 44 minutes, as an example. 
That's despite, of course, a vastly increased number of 
troopers on the battlefield, and much more spread out across 
Afghanistan.
    The advances at the field hospitals are extraordinary as 
well. They really now approach those of the major medical 
systems in the United States--of course, through Landstuhl in 
Germany, and then to the various hospitals appropriate for the 
injury, and then even into the VA system. As one who during the 
command at CENTCOM, in particular, had an opportunity to visit 
our wounded warriors, not just in places like Walter Reed or 
Bethesda, but also in various VA system hospitals, my 
impression was that our country has devoted significant 
additional resources to those that we used to provide to this 
in years past.
    Having said that, as you noted, there are first of all, in 
a sense, signature wounds of this conflict. They are, of 
course, the very visible losses of limbs, and then the unseen 
wounds--again, the posttraumatic stress syndrome and so forth. 
These, I think, clearly deserve the resources that have been 
devoted to them. My sense is that we continue to be on the very 
cutting edge of medicine in our medical system, in our military 
medical system, when it comes to addressing these. I have been 
personally very heartened by it, as one who was privileged to 
command these individuals when, indeed, they sustained these 
injuries.
    Ms. Flournoy. If I could just add, Senator, that this is an 
area where, I think, Secretary Gates has made it a real 
priority. He sees this as part of his stewardship, to focus on 
caring for our wounded warriors.
    But for our people more broadly, one of the things that 
several people have remarked on is that we actually talked 
about people and preserving the force as an element of our 
strategy for the first time ever in this last Quadrennial 
Defense Review.
    But it's not only investing in these programs. It is, as 
General Petraeus says, really, pushing the boundaries of the 
science to get towards more innovative approaches. As the wife 
of the deputy secretary at VA, I can also attest, there's a 
whole-of-government approach here. There's unprecedented 
cooperation between DOD and VA to give a sort of cradle-to-
grave type of care for not only active duty members but 
veterans, but also to ensure that once people leave active 
duty, we don't lose sight of them--we continue to invest in the 
care they're going to need to deal with some of these injuries 
that may last a lifetime.
    General Petraeus. If I could also add, Senator, this goes 
way beyond, of course, just appropriated funds as well. I think 
it would be appropriate to thank the millions of American 
citizens who have supported a variety of different foundations 
and nonprofits and others that have also devoted enormous 
effort, again, to taking care of our wounded warriors, to 
looking after the children of the fallen, and indeed, to ensure 
that those who have served and have been injured in that 
service, or the families left behind, are, indeed, looked after 
by more than just government, but by fellow citizens as well.
    Senator Blumenthal. I would agree with you, having worked 
with and supported some of those groups, and they do wonderful 
work. But we heard in response to similar kinds of questions 
from General Mattis at a recent hearing about the effort that 
he is making to really implement the kind of preventive 
measures on the battlefield to reach out to the gunny who says 
to the corporal, ``You're not going out tomorrow. You were just 
in a concussive incident.'' I think it is because you have such 
great young men and women who are so eager to return to the 
battlefield, I think it may be more than just medical science 
or the golden hour. It's part of a culture that----
    General Petraeus. It is--with traumatic brain injury in 
particular. I mean, this is, again, essentially an accumulation 
of concussions in some cases and, again, can be unseen. A 
trooper wants to suit up. No one wants to leave his or her 
fellow members of the brotherhood of the close fight behind 
when they're going outside the wire. Yet we have had to 
institute procedures to allow them a break, a recuperative 
period, just as, frankly, we are finding, I guess, in football 
and other violent, or very, contact sports, is needed as well, 
to allow, again, recovery before exposing an individual to the 
chance of further such injury.
    Senator Blumenthal. I want to thank you for your testimony. 
My time has expired. I know others will follow on this issue 
and others. But I am particularly interested in the detainee 
question, and I believe others on the panel may follow with 
questions on that issue, as Senator Graham has mentioned. Maybe 
we can follow up on those questions.
    General Petraeus. Thank you, Senator.
    Senator Blumenthal. Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Madame Secretary, General Petraeus, it's good to see both 
of you. Thank you for your service.
    My questions really relate to concerns reflected in polling 
in America. The Washington Post said this week in a poll that 
two-thirds of Americans now say that the war in Afghanistan is 
not worth fighting. I think part of the problem is not that it 
isn't worth fighting--because I do believe that it is--but I'd 
like to give you an opportunity, General, in particular, to 
state the reasons why you believe it's worth fighting, because 
frankly, above your pay grade, there have been mixed messages 
about timetables or drawing down troops, and about what our 
objectives in Afghanistan should be.
    So General, we all know that public opinion is very 
important. The American people have to remain behind our 
military, and we've seen the consequences, unfortunately, in 
our Nation's history when that doesn't happen. But would you 
please articulate the reasons why fighting in Afghanistan and 
the service of our men and women in uniform is worth fighting?
    General Petraeus. Again, I think you come back to two 
words, and those are ``nine eleven.'' Those attacks on 
September 11 were planned in Afghanistan by al Qaeda when it 
enjoyed a major sanctuary there, when it had training camps 
there. That's where the initial training of the attackers took 
place before they moved on to Hamburg and the U.S. flight 
schools.
    Beyond that, of course, there are other attacks that 
emanated from that region. As the President has said, we have a 
vital national security interest in ensuring that al Qaeda and 
other transnational extremist elements that might attack our 
country or our allies cannot establish robust sanctuaries there 
from which they can plan and then launch attacks.
    The fact is that we have gotten frustrated with this region 
before. As the Under Secretary mentioned earlier, we did leave 
the region in the past. In the wake of Charlie Wilson's war, we 
headed home and we cut off funding, and we cut off professional 
military education for our Pakistani partners and so forth. The 
fact is that we have paid for that in the long run. I think it 
would be a mistake, a big mistake, to go down that road again.
    Senator Cornyn. General, would you explain, in your 
opinion, what would be the perception of al Qaeda and their 
like-minded people in the region if the United States were to 
simply draw down its troops and leave before finishing the job 
in Afghanistan?
    General Petraeus. I think there would be a propaganda as 
well as a physical victory, in a sense. This would be a sign of 
having prevailed. Indeed, it's very hard to calculate what 
would happen in Afghanistan itself, but there is a prospect of 
a renewed civil war, as we saw in the wake of the Soviet 
departure and again in the wake of, as I said, Charlie Wilson's 
war, and again, leaving that, as this situation unfolded in the 
wake of the Soviet removal. I think this, again, would be very, 
very damaging to the world--not just to Afghanistan, the Afghan 
people, and, indeed, the immediate region. I think it would 
pose a grave danger for the entire world. We have seen again on 
numerous different dates beyond September 11 attacks, again, 
that emanated from this region.
    Ms. Flournoy. Senator, if I may, since you and Senator 
Collins both mentioned mixed messages, if I could just clarify. 
I think, as General Petraeus has said, we have vital interests 
at stake----
    Senator Cornyn. Well, Madame Secretary, I wasn't saying 
that you were delivering mixed messages.
    I was saying, those above your pay grade at different times 
talking about drawing down troops in 2011. Then I was pleased 
to see some modification of those views expressed through 2014, 
and then a reference to status of forces agreements beyond 
that. So that's just to be clear. I was not talking about you 
delivering mixed messages.
    Ms. Flournoy. Okay. I understand. But what I wanted to say 
is that I don't think there's any inconsistency between the 
beginning of a transition process that allows Afghans to step 
up and take the lead in areas like security and so forth--I 
don't see a tension between that transition process that begins 
a drawdown and the commitment of, the statement of an enduring 
commitment to Afghanistan and to partnership with Afghanistan.
    Senator Cornyn. As long as it's conditions-based, I agree 
with you.
    Ms. Flournoy. Yes, it is conditions-based, as the President 
has noted.
    Senator Cornyn. General, let me ask you about Pakistan. I 
know that subject has come up numerous times. No matter what we 
do in Afghanistan, it seems to me that unless we're able to 
build, to help Pakistan become a more reliable partner and deal 
with that porous border the terrorists exploit on a regular 
basis, that we're not going to be successful in our ultimate 
goal.
    But I want to ask specifically, as our attempts to degrade 
al Qaeda in Afghanistan are successful, as long as the Taliban 
remain a powerful force, what are their aspirations in terms of 
getting their hands on Pakistan's nuclear weapons and a regime 
change in Pakistan? Is that a concern that we ought to have?
    General Petraeus. With respect to the Afghan Taliban, 
Senator, I think that their aspirations truly are within 
Afghanistan. In particular, it would be to reestablish the kind 
of state that they had established there, again, in the wake of 
the Afghan civil war that came in the wake of the Soviet 
departure from Afghanistan.
    There is quite considerable security for the Pakistani 
nuclear weapons. There are certainly other elements in 
Pakistan--the Pakistani Taliban and several other varieties of 
elements who generally have symbiotic relationships, and the 
most extreme of which might, indeed, value access to nuclear 
weapons or other weapons that could cause enormous loss of 
life. Again, I mean, they killed several thousand in one 
destructive act, and some have shown a willingness to carry out 
similar destructive acts if they had the means of their 
survival.
    Senator Cornyn. My time is up, but let me just say in 
conclusion that I think, again, in terms of garnering public 
support for what I believe it's important that we do in the 
region, I think the extent to which someone--and I think that 
someone may end up being you, General--ought to be able to 
articulate our objectives in a way that the American people can 
see the importance to our national security here at home. 
Because I worry that if there are mixed messages in terms of 
when we're leaving and how long we're staying, or what our 
objective actually is, and people are a little confused about 
that, that I think you're going to continue to see some erosion 
of public support of our mission.
    Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you both for being here.
    General, I've had a number of conversations with you over 
the years about CERP. I want to make sure I'm clear about 
something. It appears to me that we have taken some of the CERP 
funds and put them in a category called Afghan Infrastructure 
Fund, and the other category, Task Force for Business. So we've 
taken the, around about amount of a billion a year, and we've 
now broken it up into three parts. I was worried enough when it 
was one part, in terms of the oversight and whether or not 
there was clear communication from the State Department. This 
is what, where we have kind of morphed this into--and it's a 
little bit like who's in charge of security at, security 
contracting, how this has gone back and forth from State to 
DOD, State, DOD. Now we have an acknowledgement for the first 
time that DOD, that the Army, that our military is going to be 
doing major infrastructure projects, as opposed to the 
traditional place that we have done that kind of work, which 
has always been at State.
    So I'm really worried about the oversight of this. What I'm 
also worried about, if you would address, the Government 
Accountability Office (GAO) noting that it doesn't appear even 
that we're sharing Excel spreadsheets maybe about the various 
projects that are ongoing. We do not have a database that is 
real-time that USAID and DOD can look at on a real-time basis. 
I'm worried about the duplication. Then you layer over that all 
the corruption, then I really get worried. We know what kind of 
money walked away from infrastructure projects in Iraq, and 
once again, my concern has really been heightened about money 
walking away from infrastructure projects in Afghanistan.
    General Petraeus. Let me just state upfront, and, as we 
have discussed it in the past, I absolutely share every one of 
those concerns. That's why we requested, as an example, between 
60 and 80 quite well-trained and specifically experienced 
individuals to help us with oversight of our contracts. As I 
mentioned earlier, this is a big reason why we established the 
two different task forces led by general officers--one to look 
at all contracts, the other to look at the specific issue of 
private security contractors--in addition to the task force led 
by Brigadier General H.R. McMaster, which is looking, with our 
Afghan partners, at the issue of corruption.
    First of all, the Task Force for Business and Stability 
Operations is not funded through CERP. That was not approved, 
and that is not being done.
    Senator McCaskill. Okay.
    General Petraeus. The traditional category of CERP, if you 
will, I think is very much meeting what the intent of it was in 
the beginning. As I mentioned earlier, projects are averaging 
somewhere around $17,000 to $17,400, and very much solidifying 
and building on the gains that our troopers have fought so hard 
and sacrificed so much to achieve.
    The Afghan Infrastructure Fund component of CERP, if you 
will, was created--and in fact, this was an initiative when I 
was the CENTCOM commander--so that we could support--with our 
State and USAID partners--in a very carefully coordinated way. 
It's so carefully coordinated that the projects nominated for 
this--these are larger projects that, again, are central to the 
conduct of a counterinsurgency campaign. So these are not 
economic development, and they're not economic assistance or 
something. These are projects that directly enable the success 
of our troopers on the ground. The first tranche of these, for 
example, is almost all energy-related, infrastructure-related 
and so forth, to enable the revival of the areas in Kandahar 
and the greater south, and then tying in a power grid to that 
as well.
    The Ambassador and I both approve the projects that are 
sent forward. Ultimately, they have to be approved by the 
Secretaries of Defense and the Secretaries of State. Obviously, 
USAID is instrumental in all of this, and so there is, again, 
absolutely full coordination on this particular program.
    Ms. Flournoy. If I could just add, it's also jointly 
funded. So, State Department and USAID contribute funding via 
reprogramming from their resources, and DOD uses the $400 
million from, that was formerly in CERP to contribute. So 
there's joint funding, joint decisionmaking and validation of 
the projects, and joint oversight. So you're actually probably 
getting double the oversight, rather than less.
    General Petraeus. If I could add, Senator, you also 
authorized us to spend a portion of CERP, $50 million, to 
support Afghan-led reintegration of reconcilable elements of 
the insurgency. We think this is a very, very wise investment 
as well. As I mentioned earlier, you don't kill or capture your 
way out of an insurgency the size of the one in Afghanistan. 
You have to try to get as many as possible to reintegrate back 
into society. This is a bridge fund, if you will, until the 
larger funding that's been provided by the international 
community to the High Peace Council can make its way through 
their bureaucracy and out into the provinces. That now is in 
the process of happening.
    Senator McCaskill. So your sense is, the GAO criticism 
about a data system is, just because of their penchant for data 
systems and not because there really isn't a real-time sharing 
of information and coordination of projects?
    General Petraeus. We are very carefully sharing it. In 
fact, we actually want to go to a Joint Total Asset 
Visibility--I forget the exact term. I'd like to provide the 
term to you, because Brigadier General McMaster, again, has 
been pioneering this--but where we have a, literally a joint 
procurement oversight effort between all of the U.S. elements 
not just the military, but State Department elements as well, 
so that, again, everybody knows where the money is going from 
all U.S. programs.
    Senator McCaskill. There is a concern on this money that 
we're using to fight the insurgency through the small projects 
and even the big project--There's the issue of, are we doing 
these projects where we can, or are we doing these projects 
where we should, in terms of the security issues? Do you have 
available to you, General, the information that allows your 
folks to make decisions based on where in fact we should be 
making these investments based on the insurgency? Or are, is it 
just natural that these things are happening where there's the 
least security danger? Because obviously when you're doing 
these kind of things, if you're out there and exposed, 
especially when you have the civilian component, it worries me 
that we may be doing it where we can, instead of where we 
should.
    General Petraeus. I mean, there is this, the joke about the 
drunk who looks for the keys underneath the light post because 
that's where the light is, not necessarily where he dropped 
them. So, we certainly try to build the projects where they are 
needed and not just, again, where we can.
    But there are cases in which there are projects that are 
needed that we know are needed, but where the security 
conditions do not allow that. In some cases, we are literally 
fighting to create the security environment to enable very 
important economic projects, such as hydropower plants in 
particular, that are crucial to the sustainable energy sources 
for Afghanistan, but where we cannot at this point in time yet 
carry out those projects.
    Senator McCaskill. If you have an overlay available of 
where attacks are occurring and where the CERP monies are being 
spent, I would love that information. I would assume that you 
would probably have that somewhere, and I would love to look at 
the overlay between population, attacks and CERP expenditures.
    General Petraeus. We'd be happy to provide that.
    [The information referred to follows:]

    The majority of Commander's Emergency Response Program (CERP) 
projects are initiated to complement and to solidify security gains. 
The first attached slide shows that, in the south, CERP projects are 
concentrated around the population centers of the Central Helmand River 
Valley and Kandahar City--our main operational effort. These projects 
are intended to improve freedom of movement, to connect population 
centers, to support local governance initiatives, and to create 
opportunities for economic growth.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    CERP projects are also most prevalent in areas where we have 
established or are expanding security ``bubbles,'' as shown by the 
slide with CERP projects overlayed on security influence. In these 
areas, we have pushed the enemy away from the population so that 
attacks tend to occur most often on the periphery in contested areas. 
The security ``bubble'' provides a baseline level of security necessary 
for many CERP projects to begin. These projects both reinforce the 
security gains as well as set conditions to expand them.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCaskill. I know my time is up, and I didn't have 
a chance to get to LeT, but I'm very concerned about LeT.
    General Petraeus. So are we.
    Senator McCaskill. I'm very concerned about this 
organization's designs on a global presence.
    General Petraeus. Yes.
    Senator McCaskill. I'm very worried that we've gone beyond 
a proxy for ISI and beyond a proxy in terms of just an issue as 
it relates to India and Kashmir. I am anxious to get some kind 
of briefing from you for the record on LeT, especially in light 
of the instability of the Pakistani Government right now and 
some of the issues we're having with incidents that have 
occurred in Pakistan, and how the Pakistan Government is 
responding to those. But I worry that we're honing in and doing 
what we need to do with al Qaeda, and we're honing in and doing 
what we need to do with the Taliban, and, as Senator Cornyn 
mentioned, Pakistan has nuclear weapons, and LeT obviously has 
a great deal of power, it appears, with certain people in the 
Pakistani government.
    Thank you.
    Chairman Levin. That will have to be for the record, if 
that would be okay.
    Senator McCaskill. Right.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Thank you very much.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, Secretary Flournoy, for your leadership and 
commitment to our country.
    General Petraeus, thank you again for what you've done. We 
just value so much your commitment and effort.
    To follow up on--a very important point that Senator 
McCaskill raised is something that's concerned me a bit. We 
know that the provisional reconstruction teams in Iraq, for 
example, were really to be under the leadership of the State 
Department a year or 2 ago. In essence, most of the personnel 
that dominated those areas were DOD, mostly military. Now we 
have a plan to remove our soldiers from there. I understand the 
State Department is planning to go to 17,000 personnel from 
maybe 7,000, now, in Iraq.
    They do not have the kind of force-protection capability 
that we have with the military. I guess I'm just concerned that 
this rapid withdrawal--and there seems to be an expectation 
that State Department personnel who didn't sign up to go into 
harm's way, as the military have, and for the most part are 
unarmed--do you see a danger there? Is there something that we 
need to be thinking about, that we do not place our State 
Department people in a position that they can't accomplish what 
we expect them to accomplish?
    General Petraeus. I'll hand off to the Under Secretary in a 
second, but I'm obviously not the commander in Iraq anymore, 
but I obviously keep an eye on an area in which we invested an 
enormous amount. My concern with Iraq is actually similar to 
the concern that I voiced about Afghanistan. That is funding 
for our State and USAID partners.
    The idea was--and it was back when I was the CENTCOM 
commander, even, indeed, when we were developing concepts when 
I was still the commander in Iraq in late 2008--that as 
military forces came down, the State and USAID presence would 
actually take on more tasks than they did in the past, as they 
were handed off, again, from some of our military elements to 
them. Then subsequent to that, the funding for those particular 
endeavors has not been forthcoming, and so you have a situation 
in which military forces are drawing down or transitioning 
tasks to elements that are not sufficiently resourced to carry 
them out.
    Senator Sessions. Just to make the point, though, that 
State Department personnel have the right to reject deployment 
in areas where security cannot be guaranteed. Isn't that a 
complicating factor, Secretary Flournoy?
    Ms. Flournoy. Senator, we have developed the Iraq 
transition plan with very realistic expectations about what the 
security environment is going to be, and looking at the DOD and 
State Department pieces of that as an integrated whole in terms 
of the footprint of the presence, what the activities are, 
continued security cooperation for the Iraqis, continued 
training for the police, continued engagement on the 
intelligence side, and so forth. The challenge is keeping the 
coherence of that plan, as it comes up to be considered by 
multiple different committees who will take a look at the 
different funding streams that are stovepiped by agency.
    So we would appeal to you all to help us as you look at 
that plan to look across agencies, to look at how we maintain 
an integrated, coherent plan to support, really, finishing out 
the job in Iraq and ensuring that we protect our interests 
there.
    Senator Sessions. Okay. I would just say count me as 
someone who's concerned about the viability of the plan if it's 
funded.
    Second, you're exactly right, we do have a problem here--
how we move funds to make sure State Department has the 
sufficient numbers. I'm on the Budget Committee. That's where I 
was earlier this morning. The Education Department in the 
President's budget projects an 11 percent increase in their 
spending, Energy, 9.5 percent increase next year, 
Transportation, 62 percent increase, and State Department, 10.5 
percent, most of which I think is overseas contingency.
    We're not going to have these increases. We don't have the 
money. Congress is not going to give these kind of increases. 
We don't have the money. It presents us all with a real 
challenge, and I'm concerned about it.
    General Petraeus, you spent virtually a year in Iraq 
leading the whole effort to train the Iraqi forces. Now, 
training of forces in Afghanistan is such a critical part of 
it. We're thankful that you're there and you've had the 
experience that you've had. We're thankful that you've written 
the defense manual on how to conduct a counterinsurgency 
operation.
    Tell us, are we obtaining sufficient support from our NATO 
allies? I think the answer is really no. But second, that which 
they have taken over often has not been as effectively managed 
as the U.S. military's training programs. We're moving the 
numbers in Afghanistan up, both military and police.
    Can you summarize it for us, how well that's going? Are we 
going to be in a position to rely on them in the near future to 
provide the security that's necessary for an independent 
Afghanistan?
    General Petraeus. Thanks, Senator. In fact, we often get 
the question, when, General, are the Afghans going to step 
forward and start leading security? I say, well, they're in 
Kabul right now, in the lead, and in Kabul, which is one 
quarter to one fifth the population of the entire country, it 
is ANSF who are very much in the lead. It is the ANP who are 
the face of security on the streets. It is the ANA a bit 
further out that has security responsibilities. Every given 
night in that city there are a couple of operations that are 
conducted by Afghan special operations forces, either from the 
police, their intelligence services, or from the army.
    So, indeed, they are already very much stepping up to the 
plate. They are taking losses at a higher level than our 
losses--a considerably higher level. So they are very much 
fighting and dying for their country.
    Our NATO and non-NATO ISAF contributing nations are very 
much providing superb individuals in the train and equip 
mission. Yes, there is a need for more of them. As I mentioned 
earlier, there's a shortage of some 750 or so--although, again, 
2 nations that have announced an intention are still working 
out what it is that they will provide. But while there is that 
shortage, the troop-contributing nations have very much stepped 
up to the plate and provided substantial numbers of additional 
trainers, and that does continue. There were a few more 
pledges, in fact, in recent months that will be significant as 
well.
    In fact, the challenge now is what we call specialized 
training. We don't have these. We don't have MI-17 pilots, or, 
at least not large numbers in our inventory. We don't have 
pilots of some of the other aircraft, again, that are being 
used for the Afghan air forces. Some of the speciality skills--
again, it's very helpful to have some former Warsaw Pact 
nations that are actually familiar with the artillery, for 
example, that is going to be used, is being used by the Afghan 
forces, and some of the mortars and some of their other weapons 
systems as well.
    So, I think, actually, that they have done a superb job, 
and that the creation of NTM-A from the formerly U.S.-led 
multinational, the Combined Security Transition Command-
Afghanistan (CSTC-A) has been a very important step forward. 
The fact is that during my time in Iraq, where I led, again, 
the U.S.-led Multinational Security Transition Command-Iraq 
(MNSTC-I)--I was also dual-hatted as the NATO Training Mission-
Iraq. But those were not merged. Those were two separate 
organizations, and the NATO one was quite modest in its size, 
certainly in comparison to MNSTC-I.
    In this case, CSTC-A and NTM-A have been merged, and it's 
been done in a very effective way, again, in large measure I 
attribute to Lieutenant General Caldwell's leadership, because 
he's the one who's been in command of both organizations and 
he's the one that actually oversaw the concept for, and then 
the actual establishment, of NTM-A.
    Senator Sessions. Thank you, Mr. Chairman.
    To clarify my concern--the State Department has fabulous 
people. They're willing to take risks and they are taking 
risks. But they're not trained and committed, as military 
people are, to be in dangerous spots. And you've done such a 
good job, I believe, in Iraq and Afghanistan, that, to 
transition so rapidly from the military, who's out there, who's 
now learning to manage money, CERP funds and so forth, to the 
State Department will be a dicey handoff, I think. I wish you 
every success in that.
    General Petraeus. Senator, if I could just a moment, about 
our foreign service officer comrades and the members of USAID?
    Chairman Levin. If you would, make it very brief, General.
    General Petraeus. Okay. They're awesome. They are putting 
it on the line every day, as well. They're going outside the 
wire. I'm not aware of any member of the foreign service who's 
declined one of these assignments. In fact, I think they have 
serviced all of them by volunteers. Again, certainly this 
presents some challenges as we try to transition, but I think 
the challenge is more one of funding than of any other.
    For what it's worth, we also have established, as what 
we'll do in Afghanistan, where we have military-led PRTs, is we 
will not try to transition them wholesale to State Department 
over time. Rather, what we'll do is just reduce the size of 
them as we do the transition.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you. Thank you very much, Senator 
Sessions.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good--I was going to say good morning, but good afternoon.
    I know, General, you're a marathon runner, and we're about 
to break the magic 3-hour mark--although I know you aimed your 
goal at breaking three, reducing the time that you would run 
till under 3 hours. But thank you for your persistence and your 
endurance.
    If I might, I'd like to turn to the COIN doctrine, which 
you authored. It's been successfully implemented in a number of 
places. I think that the core of that set of concepts is 
defeating an insurgency is about 30 percent military and 70 
percent political. Yet it seems that our exit strategy is 
focused primarily on the transition of security 
responsibilities in selected districts from the ISAF to Afghan 
forces. If I could, I'd like to just direct a few questions at 
you and you can pick and choose in your responses.
    Are you concerned about the Taliban's ability to exploit 
this plan by attacking specific targets of choice during the 
transition? In other words, does this handoff strategy 
telegraph our next play and put a bull's-eye on the districts 
while they're in vulnerable transition process?
    Then, more broadly, how closely is this military transition 
strategy being coordinated with the political endgame, in terms 
of ensuring the delivery of the basic government services in 
these districts and then reintegrating Taliban fighters who've 
had enough?
    General Petraeus. First of all, upfront, transition really 
has three big components to it, Senator, and security is just 
one of them. The other two actually are governance and 
development. So there is, I think, an understandable focus on 
security. That's the foundation, if you will, for all progress, 
after all.
    But at the end of the day, security is not enough. Military 
action is necessary but not sufficient. You must build on that 
foundation, again, with the establishment of local governance 
that can earn legitimacy in the eyes of the people. It does 
that by serving the people, by being transparent, representing 
integrity, and, indeed, providing a better future for the 
people than they would have by going with the insurgents.
    Then, of course, the development is obvious as well. This 
also encompasses basic rule of law, basic development. Again, 
there's measured aspirations. There's no objective to try to 
turn Afghanistan into Switzerland in 10 years or less, or 
something like that.
    Now with respect to a concern that transition might put a 
bull's-eye on a province or municipality--absolutely. There is 
concern about that, and indeed, we will try to take mitigating 
measures so that as locations are identified for transition, 
that as they become targeted, that we do all that is humanly 
possible to prevent the enemy from causing major disruption, 
while recognizing that there will be attacks. Again, Kabul has 
enjoyed a period of, touch wood, the best security we think it 
has--I think it's for a 9-month period now--but even during 
that period, there have been periodic sensational attacks. 
Again, it is inevitable that there will be some continuation of 
that. The objective is, needless to say, to ensure that all 
security challenges have been reduced below the threshold that 
is necessary for continued growth, again, in the governance and 
development arenas.
    Because of that recognition that there are three 
components, not just security, there has been very close 
coordination, especially with the JANIB, the Joint Afghan-NATO 
Inteqal, or Transition, Board, which is chaired by Dr. Ashraf 
Ghani, working directly for President Karzai, and co-chaired by 
the NATO senior civilian representative, the ambassador from 
the U.K., and then by myself, with a committee that includes 
heads of the relevant ministries and the major troop-
contributing nation ambassadors as well.
    So there is, again, a keen awareness that transition 
requires much more than just the security foundation, although 
that is, indeed, the most important element without which you 
can't transition. But you cannot succeed with transition if you 
haven't built on that foundation adequately in the governance 
and development arenas.
    Senator Udall. Thank you, General, for that.
    I'd like to turn to Secretary Flournoy. But before I do 
that, I wanted to acknowledge, as you both have, the Task Force 
for Business and Stability Operations. I don't like who crafts 
the acronym, but I know the important work they've done. I 
believe Paul Brinkley has been the leader in that effort, and I 
look forward to working with you all as we do make that 
important transition.
    If I could, I'd like to turn to Pakistan and India. We've 
been hearing for quite a while that the Pakistani leadership is 
unwilling to abandon support for the Taliban because they view 
it as a hedge against possible future Indian influence in 
Kabul. India, of course, denies any such ambitions.
    In the context of our new strategic partnership with India, 
do you think that there are new openings to engage New Delhi in 
a more positive political solution that might reassure 
Pakistan?
    Ms. Flournoy. I think we've actually been very heartened by 
the fact that India and Pakistan are resuming their own 
dialogue on a number of disputed issues, from Kashmir to 
counterterrorism, humanitarian issues, trade, and so forth. So 
we think that dialogue is extremely important. I think Pakistan 
in particular views so much of, so many issues in the region 
through the prism of its relationship with India. So, I think, 
getting at some of those root problems between the two of them 
is one of the most important initiatives that can happen in the 
region. So, we are being as supportive of that as possible.
    But I want to come back to something that was said before, 
and that is, I do think that our success in Afghanistan will be 
a calculus-changing event for many actors in the region who've 
spent many years hedging. The fact of that stability and that 
success will force a recalculation by a whole number of parties 
that will have to reckon with that, and may choose to approach 
that reality differently than what, and change some behavior 
that we've seen in the past.
    Senator Udall. Not to get ahead of ourselves, but that 
sounds like one of the prizes when we are successful in the 
long run.
    I know that I spoke recently to a keen observer of the 
India-Pakistan relationship, and the case that this gentleman 
made to me was if India and Pakistan could liberalize their 
economic relationship, they would result in enormous gains and 
positive developments. General, would you care to comment?
    General Petraeus. This ties in again to what I think is a 
very reasonable ambition of President Karzai, an aspiration, 
and that is the idea, again, of Afghanistan as the Central 
Asian roundabout, again, the transit location for the new Silk 
Road. If you can tie in the extraordinary energy resources of 
the Central Asian states with the very rapidly growing economy 
of the subcontinent, you have to go through Afghanistan to do 
that and then tie into Pakistan and India. That's obviously 
beneficial for all of the countries in the region, but it 
obviously requires a degree of economic cooperation to take 
place between India and Pakistan, in particular, that has been 
elusive so far because of the context in which they have been 
seeking to do this.
    Ms. Flournoy. One step in that direction has been the 
conclusion of the Afghanistan-Pakistan Transit Trade Agreement, 
which we very much helped to encourage. Now we need to actually 
see them implement it as a step in that direction.
    Senator Udall. Thank you for that image of the roundabout. 
I'm going to freely borrow it, having spent time in 
roundabouts, particularly in that part of the world in another 
life. Thank you both for your extraordinary service.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Udall.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Welcome back to both of you.
    General Petraeus, I feel like I've welcomed you back so 
many times that when you finally do retire 15 or 20 years from 
now we're going to have to get you back just to report on 
something. But it's just an indication of the great leadership 
that you've provided, and thanks to you. As you get back, 
express to all the troops serving under you how much we 
appreciate their great service.
    General Petraeus. I'll do it, Senator.
    Senator Chambliss. You've already talked extensively about 
the training situation, and I'm not going to ask you to repeat 
anything there. I heard your comments earlier about the 
progress you're making on the literacy program within those 
training programs, both the police and the military, and that's 
such a great step in the right direction. When we ultimately do 
turn the total security force over to the Afghans to take care 
of themselves, without being somewhat more literate than what 
they are today, we all know that it's simply not going to be 
possible on their end. So, I'm encouraged about what I hear, 
and I'm glad to hear my friend General Caldwell continues to do 
the great job that I know he has been doing under your 
leadership.
    This war is not very popular among the American people. 
It's no different from any other war. No war is popular. But it 
has been absolutely necessary from the standpoint of ridding 
the world of terrorists and bringing Afghanistan to a point to 
where it cannot be used as a safe haven for terrorists. But as 
we look back today, after spending almost a decade in that part 
of the world, we see a government that is rampant with 
corruption. The stability of the leadership is questionable. 
There's arguing back and forth among the parliaments there now, 
and they're not even able to elect a speaker of their 
parliament.
    There, the economy in Afghanistan does not have the luxury 
of the economy in Iraq, because there basically was no economy, 
whereas Iraq did, does have an oil-based system. The education 
system in Iraq, excuse me, in Afghanistan is, continues to be 
very weak, even though we are seeing improvements.
    I say that to ask both of you just to comment on the fact 
that, what kind of shining light or hope can we give the 
American people about the future of Afghanistan, when we are 
gone completely in some period of time, which is likely to be 
not far down the road from a military standpoint?
    Secretary Flournoy, we're particularly going to have a lot 
of civilians, DOD civilians as well as State Department 
civilians, in Afghanistan for a long time to come. The safety 
and security of those individuals is of great concern to us. 
So, having given that glowing outlook on what I see happening 
in Afghanistan right now, I'd ask for both of you to come in as 
to where we go in the future.
    General Petraeus. First of all, Senator, if I could, I'd 
like to go back to September 2005, when I was coming home from 
a second tour in Iraq. It was 15\1/2\ months standing up the 
train and equip program. Secretary Rumsfeld asked me to detour 
and come home through Afghanistan to look at the train and 
equip mission there, and really at the situation more broadly. 
At that time, levels of violence in Afghanistan were very, very 
low. It was described as the, ``war that we were winning'' and 
so forth.
    The truth is that I came back after looking at it, because 
of the various challenges you could just feel how difficult 
various aspects of this were, and you could also sense that the 
Taliban was beginning its comeback. I went back and reported, 
in addition to various observations on the train and equip 
program, that I thought that this would be the longest campaign 
in the long war. Now, that didn't elicit wild applause in the 
third floor of the Pentagon, as you might imagine. It's a 
pretty sobering assessment. But it is something that I stand 
by. The reason is because of these various challenges that 
accrued over 30 years of war in a country that was, when those 
wars began, among the three poorest in the world.
    There's no question about the difficulty of this endeavor. 
I think it is understandable, again, that the American people 
could be frustrated that we've been at this for 10 years and we 
haven't won yet. On the other hand, as both the Under Secretary 
and I mentioned, we hadn't gotten the inputs right until, 
really, just in the last 6 months or so. Last fall is when we 
assessed that we finally had the organizations necessary for 
the conduct of a comprehensive civil-military counterinsurgency 
campaign--all the concepts, plans, directives, ideas, the 
staffing of those organizations, and then, above all, the 
levels of troops, civilians, and funding, together with the 
gradual growth of the ANSF, that turned into much more rapid 
growth.
    There's no question about the challenges, again, whether it 
is in illiteracy, lack of human capital, human capacity, 
governance capacity, and the rest. But I would submit that 
there's no question about the progress in these areas. Let me 
give you just one really important metric. Under the Taliban, 
there were less than 1 million Afghan children in school. This 
coming academic year, the Minister of Education projects that 
there will be 8.2 million in school, and the growth from last 
year to this year will be the largest of any year since 
liberation from Taliban rule in late 2001.
    The fact is that there's been progress in every component 
of the comprehensive campaign. But the fact is also, every 
component has been very, very challenging and very difficult.
    By the way, they have elected a speaker, I'm happy to 
report. They're actually now selecting committee members, and 
they're reasonably along in that process with their parliament. 
Certainly, democracy in Afghanistan at times can be noisy, if 
you will--but I think that's probably true of some other 
countries on occasion as well.
    Ms. Flournoy. I would just add to that that as we start to 
think about the future and how this partnership will go 
forward, I think there's tremendous strength derived from the 
fact that we really do share the same goals fundamentally. The 
core goals are very strongly held by both the United States and 
Afghanistan.
    I take heart from the tremendous resiliency and patriotism 
and dedication of many of our interlocutors, many of the 
ministers, many of their deputies, people who have suffered 30 
years of war and who are just absolutely committed to 
reclaiming their country, to rebuilding capacity and 
reasserting their sovereignty.
    Then, really, if you really want to get a boost, go talk to 
the next generation. Meet with the students who are now back at 
school, coming out of Kabul University, coming out of other 
universities, who are not leaving, even though they could, but 
who want to make a future in Afghanistan and change 
Afghanistan, and create the kind of country that they think is 
possible with our help and the help of the international 
community.
    So, I think we tend to focus on the challenges--and they 
are significant. But the more you get out and talk to the 
people who have chosen to stay, and why they're staying, and 
what they're committed to doing in their country, it gives you 
great hope.
    Senator Chambliss. General, just quickly, those numbers on 
the children in school are pretty impressive. That 1 million 
that were in school under the Taliban rule, how many of those 
were female versus how many were male? What percent are female 
of the 8.2?
    General Petraeus. Thanks for pointing that out. It was a 
very, very small percentage that was female under the Taliban, 
needless to say. Now it is a very considerable number. We'll 
get you the exact number, but I think it's in the neighborhood 
of 30 to 40 percent. So it's that significant. I might add as 
well, by the way, that the percentage of females in the Afghan 
parliament is something like 10 percent higher than the 
percentage of females in the U.S. Congress as well.
    Senator Chambliss. Thanks again for your leadership.
    [The information referred to follows:]

    Since 2001, total primary and secondary education enrollment 
increased from 1.2 million in 2001 (with virtually no females) to 
approximately 8.2 million today (over 37 percent females).

    Chairman Levin. Except for that last note, thank you so 
much. I wish that everybody had heard all of your testimony 
this morning, particularly these last comments in response to 
Senator Chambliss' question. It is really quite uplifting.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here, and for your stamina to 
still be here. I think some of us think that if we could design 
our democracy again, we could probably put in a required 
percentage for women's participation. That would make some of 
us happier.
    General Petraeus. As they did in Afghanistan.
    Senator Shaheen. Yes.
    General Petraeus. Of course, that's one reason that they 
have that percentage but it is an interesting innovation.
    Senator Shaheen. Absolutely. You've both talked about the 
need for a comprehensive approach in Afghanistan, so, both the 
military commitment and the civilian commitment. I applauded 
the creation of the Senior Civilian Representative (SCR) back 
in January 2010. I know NATO has recently appointed a new SCR, 
Ambassador Simon Gass.
    But I'm concerned that that coordinator has the sufficient 
authority to do what the position was envisioned doing on the 
ground in Afghanistan. So I wonder if you could speak to that, 
and to also the coordination that's involved between, General 
Petraeus, your command as the NATO head on the ground there, 
and the coordination with the civilian coordinator.
    General Petraeus. It's a very, very close relationship 
actually. In fact, he and I are located in the same 
headquarters. He starts each morning the same way I do after 
the initial intel updates and so forth. But at our morning, 
what's called stand-up briefing, we sit together during that, 
often as long as an hour or so. Then we meet many times a day 
and periodically, on quite a frequent basis, we'll brief the 
members of the diplomatic community of the NATO-ISAF troop-
contributing nations, meet with the U.N. Assistance Mission-
Afghanistan Special Representative of the Secretary General 
(SRSG) together at least once a week--that also includes the 
U.S. Ambassador--in which together we take actions. But, he 
also has an independent series of actions that he oversees, 
that he pursues through the regional SCRs, the regional command 
SCRs, who are seeking to coordinate the various civilian 
activities that take place within those regional commands.
    This is a different situation than the one in Iraq, as an 
example, where Iraq was a very U.S.-centric, Multi-National 
Force-Iraq, it had a single chain of command. I reported only 
to the CENTCOM commander operationally, as well as chain of 
command. In this case, my operational chain of command runs 
through a NATO chain of command, Joint Forces Command in 
Brunssum to Supreme Allied Commander-Europe to NATO 
Headquarters, with the U.S. chain running through CENTCOM and, 
of course, on to the Pentagon. A very close relationship with 
our U.S. Ambassador, Karl Eikenberry, a friend of over 30 
years. But, a different relationship because of the operational 
command being NATO and the U.S. command being more of an 
administrative, if you will, troop provision and so forth and 
resource provision command.
    It's the NATO SCR, Ambassador Mark Sedwell, soon to be 
Simon Gass, Ambassador Eikenberry, but also very much the 
United Nations Assistance Mission in Afghanistan SRSG, the EU 
special representative, Vygaudas Usackas, and actually a number 
of other senior members of the diplomatic community of the 
major troop-contributing nations--the U.K. Ambassador probably 
foremost among them, with others. So this is a lot more 
complicated, frankly, than it was in Iraq in that particular 
regard.
    Senator Shaheen. Let me, let me try and refine this a 
little bit, and perhaps you could speak to that, Secretary 
Flournoy. My understanding is that one of the roles or 
responsibilities that we hoped for the civilian coordinator was 
that person could help address waste and corruption and abuse 
in civilian assistance. I know several people have raised 
concerns about how the assistance is actually being used on the 
ground in Afghanistan, so perhaps you could speak to that.
    General Petraeus. The truth is that, because funding is 
provided nationally, not through NATO writ large, there is a 
limited ability of the NATO SCR to, in a sense, oversee the 
contracting aspects of this. That's where this all ends up, or, 
procurement aspects.
    On the U.S. side, and of course the United States is far 
and away the largest donor nation, what we have done is that's 
why we've brought in Brigadier General McMaster and a very 
talented civil and military team. He has a Federal Bureau of 
Investigations official as his co-director, so this is a civil-
military element, again, with the U.S. Embassy. There is a 
board of directors that is, again, civil-military, and then 
ultimately Ambassador Eikenberry and I oversee the efforts of 
this new task force.
    But this is what was necessary. This is why, as I mentioned 
earlier, we also want to go to an oversight system of all U.S. 
procurement in coordination of that with this organization, as 
well, as we have now focused increasing intelligence assets on 
determining what is this corporation? Who runs it? Are there 
any silent partners in it? Where is the money, again, ending up 
through subs to subs and that kind of thing, and this is a very 
complex endeavor.
    As I mentioned, it was only with the establishment of this 
task force and then the other subordinate ones that we've been 
able to focus the kind of attention and resources on the 
contracting aspect of this to the point that we have then de-
barred, as I said, I think it's nine total right now. I think 
it's 30 something that are actually suspended and in the 
process of either being debarred or proving that they didn't do 
what we believe they did.
    Senator Shaheen. Thank you.
    Did you want to speak to that also, Secretary Flournoy?
    Ms. Flournoy. It was really to the broader point of the 
importance of properly resourcing and gaining greater coherence 
on the civilian side, not just in general, because that's what 
COIN involves, but at this particular point in the campaign. At 
the point at which you finally gain military traction and 
you're creating momentum on the ground, and you're creating the 
security and the space for other things to happen--that's the 
point at which it becomes that much more important that the 
diplomatic and political and economic development and other 
elements of the civilian elements of the strategy are fully 
resourced and properly led, and in place. I think we're 
struggling to get those resources, and to fully achieve the 
coherence that we think is necessary to consolidate the gains.
    Senator Shaheen. Thank you very much. My time has expired.
    But, General Petraeus, I hope that at some point when you 
do retire, that you will plan to come and spend some of your 
time in New Hampshire, where I have been told you own a home.
    General Petraeus. ``Live free or die.'' [Laughter.]
    Senator Shaheen. Good. Thank you.
    Chairman Levin. We thank you both for your great work for 
this country. Just two comments.
    First, in terms of the size of the military in Afghanistan, 
I would just point out that even if the size of the security 
forces were increased to 378,000, which is what the top limit 
is, I believe, that that would still be about 300,000 fewer 
than are in the Iraqi security forces, even though Afghanistan 
has a larger population than Iraq.
    Second, that the cost of even a 400,000 Afghan security 
force is a tiny, tiny fraction of what the cost is of having 
our forces in Afghanistan. I think the total payroll of a 
400,000 Afghan security force would be about a billion and a 
quarter, something like that. Our expenditures in Afghanistan 
this year, I believe, are something like $80 billion, if I'm 
not mistaken. So, it's a tiny fraction of what our costs are.
    Finally, General, I noticed in your charts--which are 
really very helpful, and I want to thank you for them, you 
didn't make too many references to them, but I hope all of us 
will have a chance to take a look at them because there's a lot 
in here--there's a slight omission on page three when they talk 
about the inputs and the people. Your name is left off. I know 
that's one of two things--either undue modesty on your part, or 
someone's trying to give you a message on your staff. I'm not 
sure what, which it would be. But I do point out that it 
belongs there, right with Ambassador Eikenberry at the top.
    We thank you both. You have great staying power.
    We'll stand adjourned.
    General Petraeus. Thank you, Mr. Chairman.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
              nongovernmental organizations in afghanistan
    1. Senator McCaskill. General Petraeus, as of January 2011 there 
were 1,671 registered Nongovernmental Organizations (NGO), including 
both foreign and domestic, within Afghanistan according to the Ministry 
of Economy. Some of these are large international organizations with a 
long history in Afghanistan while others have only been working in the 
country in the last decade since the fall of the Taliban Government. As 
the conflict there intensified in recent years, it has become more and 
more difficult and dangerous for NGOs to operate in Afghanistan. 
According to some prominent NGOs, the U.S. strategy has not made life 
easier or safer for them or for their Afghan partners. Government and 
military leaders often assert that NGOs in Afghanistan depend on the 
military for protection, but I have been told by at least one very 
prominent and successful NGO that this assertion is ``chiefly false''. 
NGOs cling to their neutrality and autonomy as their best means of 
safety so when U.S. strategy or operational concerns deprive NGOs of 
these they in fact put them at greater risk for violence. While some 
organizations may have questionable motives or suspect finances, a 
majority of them are altruistic and invaluable. How does the 
International Security Assistance Force (ISAF) balance its strategic 
and operational imperatives with those of the NGO community to ensure 
that their concerns are taken into consideration and that coalition 
efforts do not negate years of relationship-building or compromise NGO 
safety? Please cite specific examples.
    General Petraeus. ISAF balances its strategic and operational 
imperatives with those of the NGO community through coordination and 
cooperation to help ensure that we do not unintentionally compromise 
the efforts and safety of our NGO partners. In particular, we are 
increasingly sensitive to NGOs that want to distance themselves from 
ISAF security operations, since their safety is sometimes dependent on 
the population's perception of the neutrality of their activities. 
During pre-deployment training, we now explain this dynamic to our 
troopers through educational programs. Also, the ISAF Deputy Commander 
meets monthly with major international and Afghan NGO country directors 
to share information and to assure NGOs that our policies, plans, and 
programs respect NGO neutrality and autonomy. Even so, the objectives 
of ISAF and NGOs are largely complementary, and we benefit from 
maintaining close working relationships with NGOs at all levels. For 
example, at the strategic level, ISAF and the international community 
sponsor multiple conferences and meetings each year to generate 
discussion and to collaborate on strategies and projects. On the 
operational and tactical level, NGOs have contributed valuable 
experience and insight in discussions with our battlefield commanders.

    2. Senator McCaskill. General Petraeus, I understand that school 
establishment is happening all over the country, through direct 
government action, NGO action, Provincial Reconstruction Team (PRT) 
action, and military action. The NGO perspective is that in volatile 
regions where there exists hostility towards either girls' education or 
state-building, the establishment of community-based schools in pre-
existing mosques, other public buildings, or in people's private homes 
is the preferred method. I have been told that these schools are for 
the most part left alone by insurgent groups. I have also been told 
that the PRT perspective to education is quite different. PRTs often 
use school construction (different from school establishment, which 
requires teachers and curriculum and community support and furniture 
and text-books, et cetera, and may not include any construction at all) 
as a state-building activity, and these schools are often quite 
visible, prominent, and empty. As ISAF continues to work with the 
Government of the Islamic Republic of Afghanistan to expand educational 
opportunities for Afghan children, how do you balance the need to 
incorporate visible good governance programs (i.e. school construction) 
without endangering the very people the state-building initiatives are 
trying to help?
    General Petraeus. Security and good governance are interdependent; 
without security, governance cannot take hold, and without good 
governance, security gains are not enduring. ISAF works to balance its 
governance and security efforts by understanding the specific needs of 
the communities in which it operates and then tailoring resources and 
projects towards those needs. With education, as with all development 
efforts, we do not use a ``one-size-fits-all'' approach. Actively 
involving Afghans and the international community, we work to promote 
acceptance for education and to increase support for girls' education 
in particular.
    As a result of this close coordination, we are seeing progress in 
some of the most challenging areas of Afghanistan. Since 2009, nearly 
50 schools have been reopened in Helmand Province with the support of 
the Helmand Provincial Reconstruction Team and ISAF. In Marjah 
District, Helmand Province, a high school and five other primary 
schools were able to open for the first time in 6 years after ISAF/ANSF 
combined security operations cleared the area. Since security 
operations began in late 2001, total primary and secondary education 
enrollment across the country has increased seven-fold, from 1.2 
million students (virtually none of whom were female) to approximately 
8.2 million students in 2011 (37 percent of whom were female). In 2010 
alone, total nationwide primary and secondary education enrollment 
increased by 14 percent.

    3. Senator McCaskill. General Petraeus, what is the greatest need 
with respect to increasing educational access for Afghans?
    General Petraeus. Our effort to increase Afghan access to education 
should focus on three main areas: enhancing security so that children 
can safely attend school, increasing the Ministry of Education's budget 
execution capacity to improve and expand Afghan-led education programs, 
and continuing to support building and staffing of schools. (On this 
last point, authorization of the additional $150 million in CERP for 
fiscal year 2011 is a critical component of this effort.) Together, 
these efforts address both immediate and long-term educational needs.
    Along with our international development partners, we are 
simultaneously implementing education programs and increasing the 
capacity of the Afghan Government to sustain these programs after 
transition. And, there are now over 70,000 Afghan Security Force 
members in literacy training.

                 lakshar-e-taiba and extremist factions
    4. Senator McCaskill. General Petraeus, I have long felt that 
Lakshar-e-Taiba (LeT) has broader terrorist designs than its 
traditional role as proxy force for the Pakistan Inter-Services 
Intelligence (ISI) to attack targets and enemies in India and in the 
Indian-controlled part of Kashmir. I raised this concern with you about 
a year ago as well. What is LeT's current role in Afghanistan and what 
is your assessment as to whether the organization is potentially 
endangering the lives of our troops there?
    General Petraeus. [Deleted.]

    5. Senator McCaskill. General Petraeus, should we be concerned 
about any extreme factions within the Pakistani military?
    General Petraeus. [Deleted.]
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                   al qaeda in the arabian peninsula
    6. Senator Gillibrand. Secretary Flournoy, Director of the National 
Counterterrorism Center, Michael Leiter, recently said that Yemen's Al 
Qaeda in the Arabian Peninsula (AQAP) has surpassed Osama bin Laden as 
being the most likely to conduct attacks inside the United States. Al 
Qaeda's threat is increasingly one of motivation and influence, not 
direct attack. How does that change America's national security 
strategy from 10 years ago?
    Secretary Flournoy. For the first time since September 11, the 2010 
National Security Strategy (NSS) integrates homeland security and 
national security and seeks to represent and reflect all aspects of 
U.S. power. In a refinement over the previous administration's 
strategies, President Obama has sought to speak with more precision 
about the threats we face.
    Today, our preeminent security threat is from al Qaeda and its 
terrorist adherents--those individuals or groups that have formed 
collaborative relationships inspired to take action in furtherance of 
both al Qaeda's operational and ideological goals. The al Qaeda core, 
primarily based in Pakistan, has been joined by affiliates that retain 
their own distinct organizational structure, including facilitators, 
financiers, and training sites. The al Qaeda core not only provides the 
strategic vision for affiliates such as AQAP, but is also itself 
involved in plotting attacks against the interests of the United States 
and our allies and partners.
    The rise of these affiliate organizations in the Arabian Peninsula 
and elsewhere is of great concern, and highlights the importance of not 
only disrupting al Qaeda's attacks against the United States and our 
allies and partners, but also countering al Qaeda's ideology, 
messaging, and resonance as well. As such, both are administration 
priorities. AQAP is intensely focused on conducting a near-term attack 
against the United States, and poses an immediate terrorist threat to 
U.S. interests and the Homeland.
    The NSS, and the forthcoming derivative National Counterterrorism 
Strategy, will advance U.S. interests in security, prosperity, and 
universal values, and will help shape an international order that can 
meet the tests of the century.

    7. Senator Gillibrand. Secretary Flournoy, how does a large-scale 
ground war, such as the one in Afghanistan, make sense against a 
distributed enemy?
    Secretary Flournoy. To disrupt, dismantle, and defeat al Qaeda and 
its extremist affiliates operating in Afghanistan and Pakistan, and 
prevent their return, the United States and our allies are waging a 
civil-military counterinsurgency campaign. Although large in scale, 
this population-centric counterinsurgency is fundamentally different 
from conventional ground warfare. It is tailored to the actual 
conditions in the operating environment where, in addition to 
protecting the local population against a distributed enemy, our forces 
and civilian officials work closely with Afghan partners to build 
Afghan capacities to secure and govern the country more effectively. A 
major thrust of the overall effort is to build the capacity of Afghan 
National Security Forces (ANSF), who are steadily increasing their 
roles and their capability to take the lead responsibility for security 
throughout Afghanistan by the end of 2014. The development of these 
Afghan capacities is essential to achieving enduring results that will 
prevent Afghanistan from again becoming a safe haven for violent 
extremists.

                      withdrawal from afghanistan
    8. Senator Gillibrand. General Petraeus, I was pleased to hear you 
say that giving Afghan forces the lead by 2014 is achievable. In 2008 
under your command, the United States and Iraq negotiated a Strategic 
Framework Agreement and a Withdrawal of U.S. Forces Agreement, setting 
up the end of 2011 as the withdrawal date for U.S. troops. Is this a 
good model for Afghanistan?
    General Petraeus. Yes, to a degree, but ultimately, this is a 
political decision and I would defer to those negotiating the agreement 
between our two governments. I can tell you that, militarily, there 
will likely still be a need for some assistance, mentorship, and 
support after 2014, when the Afghans are in the lead for security 
across the country. The Iraq Strategic Framework Agreement may contain 
some useful concepts that we can adapt for the Afghanistan agreement, 
but Iraq and Afghanistan are two very different countries. We should be 
wary of trying to cut and paste solutions from one country to the 
other.

                         countering the taliban
    9. Senator Gillibrand. General Petraeus, in last Tuesday's New York 
Times you were quoted as saying: ``The Taliban have never been under 
the pressure that they were put under over the course of the last 8 to 
10 months.'' What contribution is being made by the Afghan security 
forces in bringing this pressure to bear?
    General Petraeus. The ``Afghan surge''--the growth of the National 
Security Forces by more than 85,000 since November 2009--has directly 
contributed to our combined forces' ability to put enormous pressure on 
the Taliban in the last 8 to 10 months. During this time period, the 
Afghan National Army (ANA) has led nearly 25 percent of operations 
nationwide. Of the ANA's approximately 160,000 soldiers, some 100,000 
are deployed (with the remainder in the training pipeline or in 
institutional positions). The ANA has also fielded a formidable Special 
Operations component with 9 Commando kandaks, 14 Special Forces A-
Teams, all of which are increasingly capable of performing independent 
operations. Simultaneously, the Afghan National Police (ANP) has more 
than 90,000 policemen deployed out of 122,000 total. Moreover, various 
other Afghan special operations elements (police provincial response 
companies, counter-terrorist teams, narcotics interdiction units, and 
other units) all contribute significantly to the mission. Although 
Afghan Local Police (ALP) personnel are not part of the ANSF, the 5,200 
members of this force are making important contributions to security, 
especially in rural areas. Afghan security forces are a critical and 
irreplaceable component of our security efforts across the country, 
and, as they continue to increase in size and capability, they will be 
able to make even greater contributions.

    10. Senator Gillibrand. General Petraeus, what are we doing to 
train them to continue to maintain a credible defense against the 
Taliban as the Afghan troops take leadership for the fight?
    General Petraeus. The long-term sustainability and credibility of a 
professional ANSF will provide a credible defense against the Taliban. 
To achieve this goal, NATO Training Mission-Afghanistan (NTM-A) 
currently leads the effort of 33 troop-contributing nations to train, 
develop, and sustain the ANSF with a particular emphasis on the need to 
enable self-reliance. NTM-A is doing this through a variety of means, 
to include leadership development through numerous courses for officers 
and noncommissioned officers; branch schools to build critical skills 
and enabler capabilities (11 of 12 planned branch schools are open); 
and literacy training (with more than 70,000 ANSF currently enrolled). 
Additionally, we are focused on mentoring and partnering the ANSF in 
the field. This helps ANSF troopers learn tactics, techniques, 
procedures, and processes, and it also provides them with the 
opportunity to observe and receive mentoring on professional values and 
military ethics. These efforts are intended to improve the 
professionalization and capabilities of the ANSF, which will, in turn, 
enhance their credibility with the people and increase their ability to 
provide a credible defense against the insurgency.

    11. Senator Gillibrand. General Petraeus, the Taliban reportedly 
use tunnels to store weapons, house sleeping quarters, and hide 
fighting positions. How much of a factor are these underground 
facilities to the Taliban's ability to continue the fight?
    General Petraeus. Insurgents continue to use tunnels, including 
irrigation tunnels, to conceal their movement and to store weapons and 
supplies throughout Afghanistan. Currently, however, these have little 
impact on the insurgency's ability to sustain itself, and we are having 
increasing success in finding and removing insurgent weapons caches. 
(Of note, over the past three months, the number of weapons and supply 
caches found in tunnels and buried underground and seized by coalition 
forces has increased by over 250 percent compared to the same time 
period last year.) Of greater value than the tunnels is the direct and 
indirect help the intimidated and coerced portions of the Afghan 
population provide to the insurgency. As ISAF and Afghan forces 
continue to apply pressure against the insurgency, and as popular 
support wanes, we anticipate an increased use of tunnels, as the 
insurgents will have fewer places in which they can operate in the 
open.

    12. Senator Gillibrand. Secretary Flournoy, I often hear that the 
reason to continue to be in Afghanistan is the threat that al Qaeda and 
the Taliban will exploit the weak state to mount attacks on our 
Homeland. Yet despite our presence, the Pakistani Taliban apparently 
planned and executed an attempted bombing in Times Square last year. 
The year before, al Qaeda-influenced AQAP similarly planned and 
executed an attempted airplane bomb from Yemen. Can you explain how the 
presence of 100,000 troops in Afghanistan is helping to address these 
ongoing threats?
    Secretary Flournoy. The attacks that al Qaeda operatives carried 
out on September 11, 2001 emanated from a safe haven in Taliban-
controlled Afghanistan. These attacks were made possible by the 
virtually complete freedom of action al Qaeda enjoyed in Afghanistan. 
Our strategy is to disrupt, dismantle, and defeat al Qaeda and its 
extremist affiliates in Afghanistan and Pakistan and prevent their 
capacity to reestablish a safe haven in the region that would pose a 
threat to the United States, to our allies and partners, and to our 
interests abroad. Over the past two years, through our civilian and 
military surges and our counterinsurgency strategy, we have made 
important gains, including driving the Taliban out of areas in their 
heartland that they have controlled for years. However, these gains 
remain fragile and reversible, and success requires that we sustain our 
efforts, including the successful development of the ANSFs. We have 
also worked closely with Pakistan in support of their military's 
efforts to combat violent extremists in the border areas near 
Afghanistan. These efforts in Afghanistan and Pakistan have reduced, 
but not eliminated the threat from al Qaeda, and we must sustain them 
to achieve success. At the same time, we must also recognize that the 
problems of violent extremism and safe havens are not limited to just 
this region, and it is likewise necessary to address them, through a 
variety of means, in other areas of the world as well.

    13. Senator Gillibrand. General Petraeus, once we redeploy, will we 
conceivably continue to be able to use counterterrorism methods, 
unmanned aerial vehicles (UAV) and other tactics to address the threat?
    General Petraeus. We are still very much in the fight in 
Afghanistan and we have not yet commenced redeployment. One could 
foresee a situation where ISAF forces would redeploy from Afghanistan 
according to a phased plan, yet would still maintain the ability to 
execute conventional force and counterterrorism operations in support 
of ISAF and Afghan Government objectives. While this would likely 
include UAVs, it would not be limited to them, as UAVs require a wide 
range of networked ISR capabilities and support enablers, including 
some ground forces, to ensure tactical success, limit collateral 
damage, and achieve intended operational effects. Counterterrorist 
force operations would also require special forces units on the ground, 
which require their own enablers and support personnel.

                            role of pakistan
    14. Senator Gillibrand. Secretary Flournoy, you said that Pakistan 
is key to success, but its will and ability to take on insurgency 
remains a challenge. What do you think we are able to do to enhance 
Pakistan's efforts against the insurgency, particularly during this 
very tense time between our Nations?
    Secretary Flournoy. First, it is important to note that Pakistan 
has undertaken impressive and challenging counterinsurgency operations 
to clear the Swat Valley and a number of agencies in the federally 
Administered Tribal Areas. We are seeing an unprecedented level of 
coordination and cooperation along the border between Pakistani, 
Afghan, and ISAF forces, including `hammer and anvil' operations. 
Pakistan continues to make incredible sacrifices-the Pakistan military 
has already taken several thousand casualties, and Pakistan has lost 
tens of thousands of civilians to terrorism. Violent extremism and the 
counterinsurgency campaign have also taken a toll on Pakistan's 
economy. As Secretary Gates has said, Pakistan has its foot on the 
accelerator. We stand by to support.
    We are already working with Pakistan to build counterinsurgency and 
counterterrorism capabilities of its security forces, particularly the 
Frontier Scouts and Special Services Group. The Pakistan 
Counterinsurgency Capabilities Fund is a key part of this effort. Going 
forward, the Multi-Year Security Assistance commitment will enable this 
work to continue and demonstrate our long-term commitment to Pakistan. 
This is truly a whole-of-government effort. The work of the Department 
of State and U.S. Agency for International Development to enhance 
Pakistan's governance and policing capacity will be critical for 
allowing areas cleared by the military to return to civilian control-
and to rendering them resistant to militant return. Full funding for 
the authorized assistance under Kerry-Lugar-Berman will be a key part 
of this effort.
    We continue to have candid discussions with Pakistan even during 
periods of tension. We seek a whole-of-government strategic partnership 
that can weather crises-one that advances the interests of both our 
Nations. This includes the denial of safe haven to all violent 
extremist organizations. Pakistan's sustained counterinsurgency 
operations are an indication of this growing recognition of the threat 
of militancy.
    Ultimately, one the most effective ways to influence Pakistan's 
approach to safe havens will be to continue to demonstrate a long-term 
commitment to Afghanistan and to Pakistan.

    15. Senator Gillibrand. Secretary Flournoy, how is the large ISAF 
presence in Afghanistan impacting our image in Pakistan, and Pakistan's 
internal stability?
    Secretary Flournoy. The source of instability in both Afghanistan 
and Pakistan is violent extremism. Afghanistan and Pakistan are closely 
linked, and extremism-driven instability in Afghanistan, particularly 
that in the border regions, threatens Pakistan--but the converse is 
also true. Our core goal is to disrupt, dismantle, and defeat al Qaeda 
and its extremist affiliates and prevent them from using safe havens in 
the region. Indeed, that is the reason for the ISAF presence in 
Afghanistan.
    The historical relationships among Afghanistan, Pakistan, and the 
United States are complex. Pakistan clearly remembers instances of 
perceived U.S. abandonment in the past. Pakistan seeks a stable, 
friendly Afghanistan, and elements within Pakistan question our staying 
power in Afghanistan, as well as the prospects for success. Pakistan is 
concerned about a U.S. abandonment of Afghanistan, which could result 
in a damaging power vacuum.
    We will continue endeavors to build trust between Afghanistan and 
Pakistan. Increasing operational coordination among Pakistani, Afghan, 
and ISAF forces is a key example of progress in this arena. However, 
the most important task is to continue to demonstrate clearly our long-
term commitment to both Afghanistan and Pakistan.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                    afghan national security forces
    16. Senator McCain. General Petraeus, some have raised the concern 
that the Afghan Government will not be able to sustain the costs of the 
large security force that the North Atlantic Treaty Organization (NATO) 
is helping to build, absent continued large-scale international 
assistance. How do you respond to this concern?
    General Petraeus. There is no doubt that the Afghan state will need 
to rely on international donations to support and sustain their 
security forces in the near term. It is important to remember that 
while costly, sustaining the Afghan security forces over the next few 
years will be substantially less expensive than maintaining a large 
coalition presence in Afghanistan. At some future date, Afghanistan 
should be able to use the profits from its considerable natural 
resources to provide for its own security, but the current security 
situation and the nascent state of the Afghan economy make it difficult 
to predict when that date will be. Despite this uncertainty, the way 
forward is clear: we must help build capable and professional Afghan 
security forces and create the conditions for sustained economic 
growth. Failing to do so risks the return of the Taliban and Al Qaeda 
to safe havens inside the country.

    17. Senator McCain. General Petraeus, could Afghanistan's natural 
resources, together with better governance, help the Afghan Government 
to pay for its own security?
    General Petraeus. Over time, Afghanistan's natural resources, 
together with better government oversight and increased security, could 
allow the Afghan Government to increasingly pay for its own security. 
It will take a minimum of five to ten years to begin exploiting these 
resources in earnest, but Afghanistan's extractive industries are 
estimated to be worth at least $1-3 trillion (with only 30 percent 
surveyed and explored). In the next 5 to 10 years, the Afghan mining 
sector has the potential to produce up to $5-6 billion annually, which 
would increase domestic revenue by around 20 percent and add more than 
1 percent to the annual GDP, if properly managed. The efforts of the 
Task Force for Business Stability Operations (TF-BSO) have been 
critical in leading efforts to catalyze private-sector economic 
development and in generating interest in foreign direct investment, 
particularly in the mining industry. In order to help the Afghan 
Government increase its internally-generated revenue and become more 
self-sufficient over time, we will need to continue to fund TF-BSO, to 
support ongoing security operations, and to encourage anti-corruption 
initiatives. Still, even as Afghanistan develops its natural resources, 
we should expect to support the ANSFs for some time to come.

    18. Senator McCain. General Petraeus, what would be the impact on 
the ANSF if Congress were to reduce or cut funding for our training 
mission, just as Congress reduced our commitment to the Iraqi Security 
Forces last year?
    General Petraeus. Insufficient funding for the ANSF would result in 
a smaller and less capable Afghan force at the exact moment in the 
campaign when we are expecting our Afghan partners to assume more 
responsibilities across the country. We would likely have to cancel the 
fielding of critical units, to include ANA infantry kandaks, ANA Quick 
Response Force kandaks, ANA Engineer kandaks, an Afghan National Civil 
Order Police (ANCOP) brigade (ANCOP forces are some of the most capable 
police forces), an Afghan Border Police kandak, and ANP heavy weapons 
companies. Coalition forces would potentially have to fill some of the 
resulting battlefield and logistical requirement shortfalls. 
Additionally, funding reductions would negatively affect our plans to 
build ANSF infrastructure to enable long-term Afghan self-sufficiency.
    Unlike in Iraq, the Afghan Government does not have an alternative 
source of revenue since its vast mineral resources will take years to 
develop. Further, in the event of funding cuts, it is likely that the 
Afghan Government would question our long-term commitment to the 
mission and to them, which could have serious repercussions on many 
fronts. Overall, fund reductions at this point could undermine the 
hard-earned progress our troopers and our Afghan partners have 
achieved.

    19. Senator McCain. General Petraeus, how are you preventing the 
ALP program from turning into privately armed militias, as some have 
feared they will become?
    General Petraeus. The ALP is subject to extensive oversight by the 
Government of Afghanistan and the Combined Forces Special Operations 
Component Command, Afghanistan (CFSOCC-A). Districts are only nominated 
for an ALP site after extensive vetting by our Special Forces, the 
Afghan Ministry of Interior, and the National Directorate of Security-
Afghanistan's intelligence service. Once nominated, prospective ALP 
members are first vetted and endorsed by local community leaders, who 
vouch for each individual patrolman. The entire site is then vetted and 
validated by the District Chief of Police, Provincial Chief of Police 
and the Afghan Ministry of Interior (MOI). Once validated, the proposed 
force falls under the overall control of the MOI and under the 
operational control of the District Chief of Police. All personnel are 
biometrically enrolled into the MoI personnel and payroll system, which 
encodes their identifying information into a database and prevents 
known insurgents from infiltrating the ALP. Pay controls ensure that 
only the MOI pays the ALP members' salaries. Furthermore, ALP units may 
not be deployed outside their home district, which prevents misuse. 
Finally, at each district where ALP is present, the district police 
chief receives additional supervisory personnel and the National 
Directorate of Security provides additional intelligence assets to 
monitor the site and members.

    20. Senator McCain. General Petraeus, what evidence can you offer 
that the ALP program is contributing to greater security in areas where 
it is active in Afghanistan?
    General Petraeus. There are currently 4,878 ALP patrolmen deployed 
across 34 districts in Afghanistan. While a wealth of reporting 
indicates that they have had some success in repelling attacks, 
discovering weapons caches, and conducting effective security patrols, 
the best evidence of their security contribution comes from the 
residents of the districts in which they operate. Polls taken from 
November 2010 to March 2011 reveal that residents of ALP district are 
growing more confident in the ALP, are feeling safer, and are seeing 
lower levels of violence in their districts compared to those where ALP 
is not operating. Local residents also report being exposed to fewer 
violent acts, (e.g., car bombs, improvised explosive devices, sniper 
attacks, and kidnappings). These improvements in residents' perceptions 
of security are the best evidence that the ALP program is improving the 
lives of everyday Afghans and creating the conditions for long-term 
stability in Afghanistan.

           insurgent capabilities and safe haven in pakistan
    21. Senator McCain. General Petraeus, what is your current 
assessment of the Haqqani Network's capabilities and the extent of its 
sanctuary in Pakistan?
    General Petraeus. [Deleted.]

    22. Senator McCain. General Petraeus, what is the relationship 
between the Haqqani Network and other national and transnational 
terrorists in the Pakistani tribal regions?
    General Petraeus. [Deleted.]

    23. Senator McCain. General Petraeus, recent press reports have 
noted a growing synergy between the various terrorist and insurgent 
networks in South and Central Asia that once seemed to be more separate 
and distinct from one and another. To what extent do you see this 
synergy between groups and how does this affect U.S. strategy in the 
region?
    General Petraeus. [Deleted.]

    24. Senator McCain. General Petraeus, one of the deadliest of these 
groups is LeT. How would you describe the threat posed by LeT against 
our troops and civilians in Afghanistan?
    General Petraeus. [Deleted.]

    25. Senator McCain. General Petraeus, how have our Special Forces 
missions to kill and capture midlevel Taliban leaders affected the 
senior leadership's command and control of the insurgency?
    General Petraeus. [Deleted.]

    26. Senator McCain. General Petraeus, can ISAF be successful in 
Afghanistan without defeating insurgent sanctuary in Pakistan?
    General Petraeus. [Deleted.]

                               transition
    27. Senator McCain. General Petraeus, in your prepared testimony, 
you note that on March 21, 2011, President Karzai will announce the 
areas and districts of Afghanistan where transition can begin. Will 
President Karzai's announcement be consistent with your recommendation 
as ISAF commander?
    General Petraeus. President Karzai's announcement on the 22nd of 
March was consistent with my recommendation as ISAF commander. More 
importantly, this announcement was the result of the Joint Afghan NATO 
Inteqal (Transition) Board, which governs the transition process and 
ensures that ISAF's and the Afghan Government's concerns are heard and 
addressed by all parties involved. I expect the Inteqal process will 
continue to evolve and improve as we advance through the various 
tranches of provinces undergoing transition.

    28. Senator McCain. General Petraeus, how many U.S. forces will be 
affected?
    General Petraeus. President Karzai's announcement of the provinces 
and municipalities to begin the transition process gives us an interim 
goal to move towards, and I am factoring this into my ongoing work to 
provide options and a recommendation to mo my chain of command to 
implement U.S. policy this summer.

    29. Senator McCain. General Petraeus, last week at the NATO 
ministerial meeting in Brussels, Secretary Gates urged our NATO allies 
not to ``rush for the exits'' after July 2011. What kind of withdrawals 
of NATO forces can we expect this year?
    General Petraeus. Secretary Gates' remarks were reaffirming the 
political consensus achieved at the Lisbon Conference for maintaining 
the coalition through 2014 when the Afghans will assume the lead for 
security throughout their country. Engagement and support to the 
Afghans will, in all likelihood, be necessary beyond 2014 in order to 
ensure the durability of our gains.
    We have received indications that several countries plan to begin 
shifting or drawing down their forces in 2011, but most have not 
offered specific numbers or timelines yet. We expect Canada to withdraw 
their combat troops in 2011, but this will be accompanied by a 
substantial increase to their commitment to the training mission. A 
handful of other partners have also indicated that they will make 
modest adjustments to their force contributions this year. All of these 
force adjustments will be coordinated with ISAF and the Afghan 
Government to avoid security setbacks that might endanger our 
achievements. We will know more after the NATO Force Generation 
Conference in early May.

    30. Senator McCain. General Petraeus, how will those withdrawals 
impact our operations?
    General Petraeus. The loss of any team member will affect the team. 
Canada's withdrawal from a combat role will have only a minimal impact, 
however, as they are simultaneously increasing their commitment to the 
training mission, which should free up additional U.S. forces to fight. 
Additionally, during the Lisbon Summit and subsequent international 
conferences, partner nations agreed on key principles as we move 
forward with plans to transition to Afghan security lead by the end of 
2014. These principles included an affirmation that any drawdown would 
be conditions-based and would also entail ``reinvesting'' troops in 
contiguous areas or in the training mission. Therefore, we are hopeful 
that other nations beginning to plan to draw down forces will follow 
Canada's example and increase their training contribution or reinvest 
forces in other ways.

    31. Senator McCain. General Petraeus, how do you expect the 
insurgency to react to President Karzai's decision to transition areas 
of Afghanistan to Afghan-control beginning this summer?
    General Petraeus. We expect the insurgency to test the Afghan 
security forces in the provinces that are transitioning and to 
challenge the Afghan Government's legitimacy around the country. The 
insurgents see the announcement as an opportunity to reaffirm their 
claim that ISAF forces are retreating, and they will seek to increase 
violence around the country in order to provide evidence for this 
narrative. As their ability to confront ISAF forces directly is 
limited, they will most likely rely on IED attacks and spectacular 
attacks against representatives of the Afghan Government. As the Afghan 
security forces become increasingly professional and numerous, they 
will increasingly be able to counter these threats and prevent such 
attacks from occurring. We already see this in Kabul, home to some 20 
percent of the Afghan population, and one of the areas in the first 
tranche of transition.

        operations in helmand, kandahar, and eastern afghanistan
    32. Senator McCain. General Petraeus, if ISAF succeeds in Helmand 
and Kandahar, what effect will that have on the insurgency and the 
broader war effort?
    General Petraeus. Durable gains in the provinces would have several 
effects on the insurgency and the broader war effort, since the 
insurgency has deep roots in the south. Kandahar Province was the 
spiritual and physical center of the Taliban movement, with Mullah Omar 
himself hailing from Kandahar. Additionally, Helmand's fields offer an 
important source of poppy production and revenue generation for the 
insurgents.
    Since early 2010, operations in Helmand and Kandahar Provinces have 
reversed insurgent momentum and greatly reduced the enemy's ability to 
control the population. Meanwhile, a tangible improvement in security 
has enabled increased cooperation among ANSFs, ordinary Afghans, and 
local government officials. Expanding these gains and making them 
durable would deny the enemy freedom of action and logistical support 
in its traditional strongholds. This would undermine the Taliban's 
narrative and further deprive insurgents of popular support, which 
could potentially encourage fighters there and elsewhere to lay down 
their arms. Additionally, lasting gains in the south would allow 
combined forces to reinvest troops in other areas of the country to 
address resilient insurgent pockets there.

    33. Senator McCain. General Petraeus, what is the current status of 
counternarcotics efforts in Helmand?
    General Petraeus. Since the illegal narcotics industry is the 
largest source of Afghanistan-derived income for the Taliban--with 
other revenue streams from outside the country--we are working to 
deprive the enemy of this important source of funding, especially in 
the major poppy-growing areas in the south. As we have made progress on 
the security front in Helmand, we have further pressured illegal 
narcotics networks by significantly increasing the amount of drugs 
interdicted and by reducing enemy freedom of movement. Beyond security-
force efforts, Helmand Province accounts for around 70 percent of 
Afghanistan's eradication efforts. Approximately 1,600 hectares were 
eradicated in Helmand in 2010, and, as of early April, more than 1,200 
hectares had already been eradicated in 2011. Additionally, the 
provincial governor is a strong advocate of crop-replacement programs 
to encourage farmers to switch to licit crops.
    Nationwide drug interdictions have increased significantly from 
last year, with interdictions in the south representing a significant 
portion of the finds. In the first quarter of 2011, we interdicted 
nearly 350 percent more illegal drugs than in the same time period in 
2010 (with a 700 percent increase between March 2010 and March 2011). 
Simultaneously, there was a nearly 50 percent decrease in nationwide 
opium production between 2009 and 2010, although a poppy blight last 
year is surely responsible for much of that.

    34. Senator McCain. General Petraeus, are narcotics still a major 
source of funding for the insurgency?
    General Petraeus. Yes. The insurgents profit from narcotics in a 
number of ways, including taxing the harvests and receiving funding for 
refining and shipping of narcotics outside the country. Local insurgent 
tax collectors tax poppy farmers, who generally provide payment in the 
form of raw opium, not in cash. Raw opium is also often used as a 
commodity for bartering in rural communities throughout the south, 
southwest, and west, and opium is also used for weapons purchases and 
payments for fighters. Criminal networks groups connected to the 
insurgency also continue to profit from the narcotics trade, and some 
of that money makes its way to insurgent groups.

    35. Senator McCain. General Petraeus, are military gains against 
the insurgency across the south capable of forcing them to the 
negotiating table?
    General Petraeus. Military operations are pushing some insurgents 
in the south and other areas to reintegrate. Recently in Uruzgan 
Province, up to forty insurgents decided to enroll in the Afghan 
Government's Peace and Reintegration Program (APRP) and another one 
hundred insurgents in Kandahar are in now negotiations to reintegrate. 
Other southern provinces are also experiencing ``informal 
reintegration''--instances where insurgents lay down arms and cease 
opposing the Afghan Government without entering the APRP--in 
encouraging numbers. Relentless pressure by Afghan and coalition 
troopers is one of the reasons insurgents are choosing to lay down 
their arms and reintegrate into Afghan society, though there are also 
other reasons.

    36. Senator McCain. General Petraeus, how far does ISAF need to go 
in order to get insurgents to the negotiating table?
    General Petraeus. There is no way to know precisely when insurgents 
will give up fighting and reintegrate into Afghan society. ISAF and its 
Afghan partners are pursuing a number of tasks to hasten that process, 
and, together, they are starting to depress insurgent morale and 
fracture their networks and cohesion. First, we are using military 
operations to convince Taliban leaders that they can neither regain the 
territory they used to control nor intimidate the population in the 
ways they previously did. Second, we are using development projects, 
cash-for-work programs, and support for the Afghan Peace and 
Reconciliation Program to convince communities that they are better off 
supporting the Afghan Government instead of passively or actively 
supporting the insurgency. Third, we are improving governance at the 
local level in order to remove some of the basic grievances against the 
Afghan state that drove people towards the insurgency in the first 
place. We are also targeting the insurgency's financing and their 
narcotics trafficking in order to reduce their means to pay their 
fighters and keep them united in opposition to the Afghan Government. 
Finally, ISAF is mentoring Afghan Government ministries to help them 
build basic infrastructure for economic development, so that the Afghan 
State can provide for the basic needs of its people in the long term 
and prevent the insurgency's return.

                          civilian casualties
    37. Senator McCain. General Petraeus, you note that a recent United 
Nations report shows that civilian casualties caused by ISAF have 
fallen by about 20 percent in 2010, even as the force increased in size 
by 100,000. You also note that ISAF's intelligence-directed raids on 
Taliban leadership are highly effective, yet these raids are often what 
President Karzai expresses concern about when they result in unintended 
civilian casualties. How are you reconciling President Karzai's 
concerns about civilian casualties with the need to effectively target 
Taliban leaders?
    General Petraeus. We cannot succeed in a counterinsurgency campaign 
if we harm the people whom we are supposed to protect. For that reason, 
I have issued a tactical directive on the employment of various 
``enabler'' elements, as well as a tactical driving directive, to 
ensure we are doing everything possible to avoid harming civilians 
while conducting military operations in Afghanistan. To address 
President Karzai's concerns, we have established the Palace 
Intelligence Coordination Cell (PICC), which ensures that there is an 
open channel between ISAF and the Afghan Government. When allegations 
of civilian casualties occur, we deploy a Joint Incident Assessment 
Team (JIAT) to investigate, which includes both Afghan and ISAF 
representatives. When allegations prove true, we admit our mistake 
forthrightly. We also have recently created a CIVCAS Mitigation Working 
Group to continually review and improve our tactics and procedures for 
preventing civilian casualties and responding to allegations when they 
arise. Even as we work to reduce civilian casualties, we are mindful of 
the dangers of overly-restrictive rules of engagement and we will do 
nothing that hampers our soldiers' rights to defend themselves in the 
line of duty.

    38. Senator McCain. General Petraeus, your testimony indicates that 
in a typical 90-day period, U.S. special mission units and their Afghan 
partners kill or capture roughly 360 insurgent leaders. Interrogating 
captured insurgents facilitates further raids and additional captures. 
The U.S. detention facility at Parwan (near Bagram Air Base) is 
routinely full. Where are these captured insurgents being detained and 
how are they being prevented from returning to the fight?
    General Petraeus. As a result of recent efforts to increase 
capacity, the Detention Facility at Parwan (DFIP) is now configured to 
hold up to 2,600 detainees. The United States currently holds around 
1,700 detainees there, and our Afghans partners are holding an 
additional 250 at the DFIP (most of those 250 face prosecution under 
Afghan law for terrorism-related crimes). We expect additional 
construction projects to increase U.S. and Afghan holding capacity at 
the DFIP by 320 this summer. Further, if circumstances require, we can 
build modular housing units capable of holding additional detainees. In 
addition to the DFIP, there are 9 Field Detention Sites (FDSs) and 19 
Temporary Holding Facilities (THFs) in Afghanistan. We are currently in 
the process of assessing several of the THFs for upgrade and 
certification to FDS standards. In general, detainees can be held at 
FDSs for up to 14 days before being transferred to the DFIP. Overall, 
we are confident that we have sufficient detention capacity to get us 
through this fighting season.
    Although the DFIP is a maximum security facility designed to hold 
detainees until the end of hostilities, detainees have opportunities to 
challenge their detention and to present evidence in their defense 
through the Detainee Review Board process. When a detainee is found to 
no longer meet detention criteria or is recommended for reintegration, 
we contact the local provincial governor and the National High Peace 
Council and arrange for the release to occur under the auspices of the 
provincial governor at ``release shuras.'' At these ceremonies, a 
village elder or other local official signs a guarantor statement 
certifying that the releasee will not return to the fight. As of early 
April 2011, nearly 400 former DFIP detainees had been released and 
reintegrated into Afghan society through 75 release shuras in 13 
provinces.
    The DFIP, FDSs, and THFs all operate within the standards for 
humane treatment under U.S. law and policy and obey the applicable laws 
of armed conflict. All facilities are routinely visited by the 
International Committee of the Red Cross and various Afghan officials.

                         medical air evacuation
    39. Senator McCain. General Petraeus, in 2009 Secretary Gates 
directed additional medical evacuation helicopters and personnel to 
Afghanistan to ensure that all wounded American troops receive 
definitive medical treatment within the American standard of the golden 
hour. Are you confident that this standard is being met now and will be 
met in the spring and summer as conflict intensifies?
    General Petraeus. We are confident that we are meeting the ``golden 
hour'' standard and that we will be able to do so throughout the 
fighting season. We first achieved the ``golden hour'' standard in June 
2009, and we have continued to improve since then (with the average 
medical evacuation mission time dropping more than 30 percent between 
2009 and 2010). With the additional assets Secretary Gates ordered to 
theater--quadrupling our air medical assets in the last 2 years--98 
percent of Category A urgent evacuees reach a surgical facility within 
60 minutes. (Each mission outside the 60-minute standard is reported 
and evaluated; these delays are usually the result of weather, terrain, 
or hot landing zones.) Beyond the additional deployments of air assets, 
we have also used other resources to shorten and improve medical 
evacuation missions. In 2010, we expanded medical support in theater by 
adding 500 additional medical personnel, another combat hospital, and 
critical-care nurses to accompany medical evacuation patients. 
Additionally, Air Force helicopters previously Reserved for search and 
rescue missions have also been assigned to medical evacuations.
    Care of our wounded is among our highest priorities, and we will 
continue to seek out ways to improve our care for injured troopers.

    40. Senator McCain. General Petraeus, are there sufficient 
aeromedical evacuation helicopters, crews, and long distance evacuation 
in the southern region of Afghanistan where fighting is most intense?
    General Petraeus. There are sufficient air medical assets in the 
south to meet the 60-minute standard for urgent evacuees. We first 
achieved the ``golden hour'' standard for the theater in June 2009, and 
we have continued to reduce the time required since then, with the 
average medical evacuation mission time dropping more than 30 percent 
between 2009 and 2010. The average time for medical evacuations in the 
south has likewise fallen approximately 30 percent in the same time 
period. Beyond the quadrupling of air medical assets in theater over 
the last 2 years--with many of them added in the south--in 2010 we also 
added a combat support hospital in central Helmand Province to augment 
the existing hospital in northern Helmand Province.
    We are currently conducting a theater-wide review of medical 
evacuation utilization rates to assess if we need to shift any further 
assets to serve high-risk areas.

                       corruption in contracting
    41. Senator McCain. General Petraeus, since last fall, you have 
focused on the perception by the Afghan people and the Government of 
Afghanistan that money being spent there by the international community 
on construction, goods, and services is not having the desired, 
positive effect on the Afghan population and is sometimes even 
supporting power brokers or malign actors there. In response, you stood 
up several task forces to help you identify and address--in real time--
those problems. I know a few changes have been made since you first 
stood up those task forces. Can you describe what you are currently 
doing to ensure that your contracting activities actually support, 
rather than undermine (as they have in the past), your 
counterinsurgency strategy in Afghanistan?
    General Petraeus. Contracting and development funds can be a 
powerful weapon in the counterinsurgency fight by helping to build 
capacity, to reinforce good governance, and to promote economic 
opportunity. However, as our Counterinsurgency Contracting Guidance 
says, if we spend large amounts of money quickly with insufficient 
oversight, it is likely that some of those funds will unintentionally 
fuel corruption, finance insurgent organizations, strengthen criminal 
patronage networks, and undermine our efforts in Afghanistan.
    To ensure our contracting dollars are used correctly, we are 
pursuing numerous initiatives. For example, we are quickly moving 
toward our goal of vetting all contracts over $100,000 prior to award 
by using the Central Command (CENTCOM) Vendor Vetting Cell and by 
ensuring effective integration of intelligence and contracting actions. 
Simultaneously, we are working with Afghan partners to improve the 
transparency of the ISAF contracting process while also working to 
improve post-award oversight through a common and easily accessible 
database of projects underway. We are also increasing efforts to create 
smaller contracts, to identify sub-contractors in advance, and to hold 
prime contractors responsible for their sub-contractors. All of this 
has been supported by our deepening understanding of specific networks 
and business relationships as a result of focused investigations by 
Task Force 2010, Task Force Spotlight, and CJIATF-Shafafiyat, as well 
as the Afghan Threat Finance Cell. Additionally, we continue to promote 
the development of sustainable Afghan private sector growth through the 
aggressive implementation of the Afghan First initiative, which helps 
to build indigenous Afghan industries. Finally, and perhaps most 
importantly, our Counterinsurgency Contracting Guidance has made 
procurement and acquisition a command priority. At all levels, our 
commanders understand that their contracting decisions can have 
strategic effects and, as such, these activities require their personal 
attention.

    42. Senator McCain. General Petraeus, what progress, if any, have 
you made since you first started to focus on those problems?
    General Petraeus. We have made significant progress in numerous 
areas related to our contracting practices since we began focusing on 
the problem set. We have substantially increased the pace of contract 
actions when contractors are assessed to potentially be associated with 
the insurgency or with criminal patronage networks. Since last summer, 
we have vetted approximately 450 companies, debarred 44 companies, and 
suspended 42 companies. Almost 60 other companies have been notified of 
pending debarments, and the International Contract Corruption Task 
Force presently has more than 120 open cases of contract fraud. These 
actions not only cut off money from contractors we assess to be high 
risk, they also send a strong signal to all contractors about our 
commitment to improving the effectiveness, transparency, and 
accountability of our contracting process. We have also sought to stem 
other forms of diversion of international funds, such as pilferage of 
goods in transit. In the last 3 months, 90,000 items valued at over 
$100 million have been recovered--items that might otherwise have 
benefited criminal or insurgent networks.
    Additionally, through aggressive implementation of the Afghan First 
initiative, ISAF has provided critical support to the development of a 
sustainable and diverse Afghan private sector. This program has 
facilitated the establishment of joint ventures in, among other 
industries, construction, textiles, and pharmaceuticals manufacturing. 
These efforts have advanced counterinsurgency development goals and 
also resulted in estimated coalition savings of around $320 million.
    Our priorities going forward include increasing vendor vetting, 
expanding the vetting effort to partner nations, integrating law 
enforcement and military efforts, and working together with our Afghan 
partners to make further progress on these critical issues.

    43. Senator McCain. General Petraeus, what additional changes in 
law or regulations, if any, do you need to further address the problem 
of corruption-in-contracting in Afghanistan?
    General Petraeus. We are now working with OSD to implement two key 
reforms to improve U.S. Government contracting in Afghanistan, which 
together should strengthen our anti-corruption controls and prevent 
U.S. taxpayer dollars from flowing to the insurgency. First, we are 
seeking the authority to restrict or void contracts and subcontracts 
with firms that directly or indirectly support the enemy, so that if a 
link to the enemy is discovered, we can quickly and completely stop 
payment. Second, we are seeking authority to have access to contractor 
and subcontractor records in order to trace the flow of U.S. Government 
money after a contract has been awarded. We are receiving strong 
support from the Senate in these endeavors. In February 2011, Senators 
Brown and Ayotte introduced and co-sponsored the ``No Contracting with 
the Enemy Act of 2011,'' which captures the key aspects of these two 
legislative proposals. While the legislation does not address all 
issues related to contracting in a warzone, it is a step forward for 
preventing American taxpayer dollars from flowing to the enemy under 
U.S. Government contracts.

                      private security contractors
    44. Senator McCain. General Petraeus, last year, President Karzai 
issued a decree that, if enforced, would disband most private security 
contractors operating in Afghanistan and transfer some of their 
responsibilities to the Ministry of Interior. That was done in reaction 
to perceived abuses with the Department of Defense's (DOD) use of 
private security contractors in that theater. What progress, if any, 
has DOD had in ensuring that U.S. contract funds are not inadvertently 
flowing to Taliban, anti-coalition, or insurgent groups in Afghanistan, 
and in communicating that progress to President Karzai?
    General Petraeus. We have taken a number of steps to ensure that 
U.S. contract funds are not flowing to the Taliban. On 8 September, 
2010, I issued my COIN contracting guidance, which provides clear 
guidelines for how U.S. forces will contract for services without 
empowering the insurgency. In cooperation with the CENTCOM Contracting 
Command, we are now vetting all non-U.S. contracts valued in excess of 
$100,000, and our ISAF Joint Command has stood up an additional 
contract vetting cell. Together, these 2 offices have vetted over 240 
companies, 17 of which have been rejected as potential contractors. We 
have also begun debarring companies and cancelling contracts when we 
find that our contractors are defrauding the U.S. Government or 
supporting the insurgency. Finally, U.S. Forces-Afghanistan's Task 
Force 2010, which is specifically charged with overseeing contracting, 
continues to use intelligence and forensic accounting techniques to 
determine if criminal networks or insurgents are profiting from U.S. 
contracts in Afghanistan.

    45. Senator McCain. General Petraeus, to what extent is DOD working 
with the Government of Afghanistan to develop a realistic plan to 
replace private security contractors with the ANSF?
    General Petraeus. We have been working closely with the Afghan 
Government to develop a realistic plan to replace private security 
contractors. The primary means of doing so will be through the Afghan 
Public Protection Force (APPF), whose growth and development we are 
supporting through several initiatives. NATO Training Mission-
Afghanistan is increasing the number of trainers devoted to this force, 
and we have secured funding and other resources through the 
international Law and Order Trust Fund-Afghanistan. Additionally, we 
are committed to helping build the infrastructure to support this 
force, and are working to open an APPF Training Center this summer with 
the capacity to train 1,000 guards per month.
    The exact timeframe of the transition from Private Security 
Companies (PSCs) to the APPF has, obviously, been a source of friction 
between ISAF and the Afghan Government over the past 6 months. However, 
we have worked closely with our Afghan partners and agreed to a joint 
bridging strategy that will transition security responsibilities to the 
APPF over the course of two years, which should be sufficient time for 
the growth and development of the APPF. Of note, the bridging strategy 
will leverage PSCs to assist in increasing the size and capabilities of 
the APPF more rapidly by employing former PSC personnel.

           facilities for the afghan national security forces
    46. Senator McCain. General Petraeus, the Office of the Special 
Inspector General for Afghanistan Reconstruction (SIGAR) recently 
published a report questioning the U.S. plan to invest $11.4 billion 
through 2012 to construct at least 900 facilities for over 300,000 
ANSF. Specifically, SIGAR has very serious concerns about both contract 
delays and the sustainability of many of the construction projects. 
What is your opinion of the report's findings?
    General Petraeus. The report's findings were largely based on the 
incorrect assumption that we were planning to construct all $11.4 
billion of facilities by 2012. In reality, we are planning to complete 
construction of these facilities by 2014, with our timelines tied to 
the generation of ANSF. Moreover, we are constantly re-assessing and 
adjusting our plans based on developments in Afghanistan, and we are 
also examining a variety of options for the future that include the 
possible phased consolidation or even transfer of coalition facilities 
to Afghans in some places.
    Sustainability is obviously a crucial element of infrastructure 
development. This past year, we created the Infrastructure Training and 
Advisory Group under the NATO Training Mission-Afghanistan to further 
develop the capacity of the ANSF to maintain facilities over the longer 
term. Currently, members of this group are located at six locations, 
with plans to add personnel over the next year in order to expand its 
reach and to strengthen long-term ANSF self-sustainability.

    47. Senator McCain. General Petraeus, can you provide this 
committee with a long-range construction plan to meet the facility 
requirements for Afghan forces with the funds that Congress has 
provided?
    General Petraeus. Our construction program for the ANA, the ANP, 
and the Afghan Air Force (AAF) is expected to address infrastructure 
requirements by 2014. And, if requested funds are received by this 
fall, we anticipate that almost all the planned facilities would be 
completed in accordance with our 2014 timeline.
    For the ANA, we are building garrisons to house a force of 25 
brigades--consisting of more than 250 battalion-sized units--as well as 
25 schools. The plan calls for about 150 separate locations dispersed 
across the country. We have completed approximately 30 percent of these 
facilities, about 15 percent are in progress, and an additional 55 
percent remain to be built between now and 2014.
    Our ANP infrastructure requirements include headquarters for the 
district police, border police, and civil order police. Together, our 
plan is for more than 800 facilities, with most of these being small 
and dispersed. We have completed around 20 percent, 40 percent are in 
progress, and approximately 40 percent remain to be built between now 
and 2014.
    We are currently building facilities for two of the three planned 
wings of the AAF. Two of the remaining twelve AAF detachments/units are 
funded and pending award. The other ten units/detachments are planned 
but not yet funded.

    48. Senator McCain. General Petraeus, can the plan accommodate up 
to 365,000 ANSF?
    General Petraeus. Yes, the President's budget request for 2012 
includes adequate funding to meet facility requirements for up to 
365,000 ANSF.

    49. Senator McCain. General Petraeus, what impact will the timely 
completion of the facilities and transfer to Afghan control have on our 
projected withdrawal dates?
    General Petraeus. In order to assume the lead for security across 
the country by the end of 2014, the Afghans must have the necessary 
infrastructure to field and sustain an appropriately-sized military. 
Although completing and transferring facilities to the ANSF is a 
necessary component of our transition planning, it is by no means 
sufficient. The ANSF will have to continue to increase in size and 
capability in the years to come, with the completion of necessary 
facilities being an important element of this ongoing development. We 
will continue to work with our Afghan partners to determine their long-
term infrastructure requirements and also to determine areas where we 
can further facilitate the growth and professionalization of the ANSF.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                civilian police assistance training team
    50. Senator Wicker. General Petraeus, I am familiar with the 
Nationwide police candidate screening program that the Civilian Police 
Assistance Training Team (CPATT) implemented in Iraq during the period 
of your command in Iraq. General Joseph Fil, who headed CPATT, has 
stated that the screening program prevented substantial waste in the 
training program and helped ensure that only the candidates showing the 
best potential to serve were selected for the training academies. 
Similar to our efforts in Iraq, we must ensure that valuable training 
dollars are spent effectively in Afghanistan and not wasted on futile 
attempts to train unsuitable candidates. What are your thoughts on a 
similar screening program in Afghanistan now that we have committed to 
a multi-billion dollar training contract with DynCorp International?
    General Petraeus. Candidates for the ANSF undergo a rigorous 
vetting process to ensure that soldiers and policemen meet minimum 
acceptable standards. Applicants must have a valid Afghan identity 
card, and they also must obtain two letters of endorsement from village 
guarantors, who are generally elders or mullahs. Recruits are then 
further screened with criminal background checks, identity 
verifications, medical exams, drug tests, and interviews with the 
recruiting commander. Recruits who pass these tests are then 
biometrically enrolled and checked against a biometric watch list prior 
to the start of training.
    Although not identical to the CPATT program, this process was 
developed based on lessons learned in Iraq as well as factors unique to 
Afghanistan. As the ANSF approaches steady state, the candidate pool 
may be larger than the positions that need to be filled, in which case 
recruiters will be able to increase their selectivity. Similarly, the 
ANSF may further refine their minimum standards over time, resulting in 
recruits who are screened by even more factors.

             possibility of extended troop presence in iraq
    51. Senator Wicker. Secretary Flournoy, it seems to me that the 
Iraqi Government is extremely fragile. Iraqi leaders privately concede 
the need for an extended U.S. troop presence in Iraq but we all know 
this may be a politically difficult--if not impossible--request for the 
Iraqis to make. What is your assessment of the security situation on 
the ground in Iraq?
    Secretary Flournoy. The underlying security situation in Iraq 
remains strong. Although insurgent and extremist groups remain capable 
of conducting attacks, overall levels of attacks and Iraqi civilian 
casualties have remained relatively constant for more than two years at 
the lowest levels of the post-2003 period. This consistently low level 
is even more remarkable in that it has been maintained as the Iraqi 
Security Forces (ISF) have assumed primary responsibility for security, 
and the number of U.S. forces has declined from approximately 144,000 
in January 2009 to approximately 47,000 today.
    Although the ISF are currently functioning well as a counter-
insurgency force and demonstrating the capability to maintain internal 
security, U.S. Forces-Iraq (USF-I) assesses that gaps, particularly in 
the capability to defend against external threats, will exist in 
December 2011. USF-I assesses that the broad categories of projected 
gaps are cross-ministerial intelligence sharing; combined arms 
capability; integrated air defense and air sovereignty enforcement; and 
sustainment and logistics. USF-I will focus its efforts on these areas 
between now and the end of the mission.

    52. Senator Wicker. Secretary Flournoy, I believe Iraq 2011 is 
definitely a test-case for Afghanistan 2014. What do you think will 
happen at the end of 2011?
    Secretary Flournoy. By the end of 2011, we will transition to a 
civilian-led mission in Iraq, having completed the responsible drawdown 
of U.S. forces in accordance with the U.S.-Iraq Security Agreement. We 
will also have established an Office of Security Cooperation-Iraq to 
conduct security assistance and security cooperation activities, and to 
serve as the cornerstone of the U.S.-Iraq military-to-military 
relationship.

    53. Senator Wicker. Secretary Flournoy, it appears on a practical 
level to me that the Iraqis would prefer the presence of U.S. combat 
troops to the presence of poorly-regulated contractors roaming the 
country. At the end of 2011 will the Iraqis ask us to stay?
    Secretary Flournoy. It is unclear whether the Government of Iraq 
will request a U.S. military presence post-2011. Secretary Gates has 
indicated that the United States would be willing to consider a 
continued military presence should the Iraqis request one. However, to 
date no request has been made. We are committed and confident about 
completing the drawdown in accordance with the U.S.-Iraq Security 
Agreement and transitioning to a civilian-led mission in Iraq.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                  drawdown of forces from afghanistan
    54. Senator Cornyn. General Petraeus, Secretary Gates recently gave 
a speech to NATO defense ministers where he warned them against 
threatening progress in Afghanistan through ``ill-timed, precipitous, 
or uncoordinated'' drawdowns of their troops from Afghanistan. Reports 
indicate Germany plans to begin withdrawing its 4,900 soldiers by the 
end of this year, Great Britain is also considering a possible 
withdrawal of its 9,000 troops, and Poland and Canada have also 
announced plans to withdraw. In your opinion, what impact would the 
withdrawal of these NATO forces have on the security situation in 
Afghanistan?
    General Petraeus. During the Lisbon Summit and subsequent 
international conferences, partner nations agreed on key principles as 
we move forward with plans to transition to Afghan security lead by the 
end of 2014. These principles included affirmation that any drawdowns 
would be conditions-based and would also entail ``reinvesting'' troops 
elsewhere in the country or in the training mission, as Canada is in 
the process of doing. Further, members of the Alliance have reaffirmed 
their commitment to Afghanistan through the end of 2014 and even 
beyond. Given all this, I believe that the actions of partner nations 
will be coordinated and based on conditions. We will continue to work 
closely with our partners to ensure that decisions on troop drawdowns 
do not adversely affect the hard-fought gains that we have made.

    55. Senator Cornyn. General Petraeus, what impact would such a 
withdrawal have on the administration's plans to begin a drawdown of 
U.S. forces in July 2011?
    General Petraeus. As Secretary Gates said during the March Defense 
Ministerial in Brussels, our goal is for members of the Alliance to 
abide by the principle of ``in together, out together.'' In the coming 
months, I will provide options and a recommendation to my chain of 
command for implementing the U.S. policy that includes initiation of 
the responsible drawdown of U.S. surge forces at a pace determined by 
conditions on the ground. In the meantime, we will continue to 
coordinate closely with all the troop-contributing nations to ensure 
that drawdown plans by any nation, including our own, support our 
campaign plan and our goal of achieving conditions that enable 
transitioning security lead to the Afghans by the end of 2014.

            shortage of trainers for afghan security forces
    56. Senator Cornyn. Secretary Flournoy, India has welcomed the 
international community's commitment to remain in Afghanistan and has 
made it clear that a stable, friendly Afghanistan is crucial to its own 
security. Although India has no fighting forces in Afghanistan, on the 
civilian side, it has committed some $1.3 billion and 3,500 Indian 
personnel to relief and reconstruction efforts in Afghanistan to date. 
Reports indicate that NATO still faces a shortage of 750 trainers 
needed by this summer in order for the ANSF to be ready to take the 
lead by 2014. Secretary Gates has called trainers the ``ticket to 
transition'' in Afghanistan. Given the clear and immediate demand for 
more trainers and training options in Afghanistan, as well as India's 
willingness to provide substantial support to stability and security 
efforts in the region, should we encourage and invite India to expand 
its role and help train the Afghan security forces, perhaps at its own 
installations in India?
    Secretary Flournoy. India provides scholarships for ANSF personnel 
to study in India, and the Indian Government is currently exploring 
options to train Afghan women police in India. We welcome these efforts 
and have encouraged India to coordinate its efforts with the NATO 
Training Mission in Afghanistan (NTM-A). The shortfall of 740 trainers 
identified by NTM-A for filling NATO's Combined Joint Statement of 
Requirements includes a number of specific capabilities. We are working 
to identify these specific capabilities and match them with NTM-A 
requirements.
    We also encourage India to consider further assistance in 
Afghanistan through priority infrastructure projects and additional 
training and education assistance and technical assistance to the 
agriculture sector. As Prime Minister Singh's recent visit to 
Afghanistan illustrated, India continues to work bilaterally with the 
Afghan Government to identify additional areas of cooperation.
    During President Obama's visit to India in November 2010, he and 
Prime Minister Singh committed to intensify consultation, cooperation, 
and coordination to promote a stable, prosperous, and independent 
Afghanistan. They agreed to collaborate closely to assist the people of 
Afghanistan by identifying opportunities to leverage our relative 
strengths, experience, and resources, including joint projects on 
agriculture and women's economic development. Eighty-five percent of 
Afghans derive their income from agriculture, and Afghan women continue 
to lack economic, social, and political opportunities.

             role of u.s. ground forces in future conflicts
    57. Senator Cornyn. General Petraeus, on February 25, 2011, 
Secretary Gates made the following comment regarding the force 
structure that will be needed in the years ahead: ``The Army also must 
confront the reality that the most plausible, high-end scenarios for 
the U.S. military are primarily naval and air engagements--whether in 
Asia, the Persian Gulf, or elsewhere . . . but in my opinion, any 
future defense secretary who advises the president to again send a big 
American land army into Asia or into the Middle East or Africa should 
`have his head examined.' '' You have played lead roles in both 
Operation Iraqi Freedom and now Operation Enduring Freedom, both of 
which have been large ground campaigns. In your opinion, is this type 
of military operation truly a thing of the past?
    General Petraeus. Based on subsequent comments by Secretary Gates 
and his spokesman, it appears that his comments have been 
misinterpreted, as the Secretary has clarified that he was not 
suggesting that the days of ground campaigns are over. While the United 
States may well face maritime and air threats in the future, no one can 
say for sure where those conflicts will take place or if they will not 
require ground campaigns. It is my opinion that ground forces will 
always remain an essential element of national power, no matter how 
advanced our technology becomes. And, since it is the Armed Forces' job 
to plan for the worst, even while hoping for the best, I don't think it 
is wise to rule out any type of future conflict. Secretary Gates' 
clarifications suggest the same.

    58. Senator Cornyn. General Petraeus, would it be possible to make 
the gains that we have in Iraq and Afghanistan through primarily naval 
and air engagements?
    General Petraeus. No. We are conducting a comprehensive civil-
military counterinsurgency campaign in Afghanistan and that type of 
military operation requires much more than just air or naval power. 
While the separate armed services have all done extraordinary work here 
over the last 10 years, and have done the same in Iraq as well, none of 
the services could have made the gains we've seen by operating 
independently, and ground forces have been absolutely critical. 
Moreover, our efforts in Iraq and Afghanistan have required a fully 
joint, interagency effort that not only combines our many tools of 
military power, but also leverages the expertise and experience of our 
partners from the Departments of State, Treasury, Homeland Security, 
Justice, Federal Bureau of Investigations, the Intelligence Community, 
Agriculture, Commerce, and the many coalition partners from our friends 
and allies around the world.

                              b-1 bombers
    59. Senator Cornyn. General Petraeus, the B-1 bombers, many of 
which are based in Texas at Dyess Air Force Base, have been operating 
over Afghanistan in support of our troops on the ground and have proven 
themselves a critical component of our long-range strike operations 
overseas. Senior U.S. military leaders have consistently acknowledged 
that the B-1 fleet is doing an outstanding job. As I understand it, the 
B-1 has been called upon to maintain a constant presence in the skies 
over Afghanistan. In your most recent Senate confirmation hearing, you 
stated that the B-1 is a ``great platform'' and a ``very capable 
bomber.'' In your view, what are the most critical roles that the B-1 
fleet has played in Afghanistan, and what unique capabilities has it 
brought to the table, as compared to other platforms, especially other 
bombers?
    General Petraeus. The B-1 has been an enduring presence in the 
skies over Afghanistan since the first night of combat operations in 
October 2001. Versatility and flexibility are the key qualities that 
distinguish the B-1 from other platforms. Indeed, the B-1 has the speed 
to quickly respond to troops-in-contact (TIC) situations anywhere in 
Afghanistan, the persistence to remain overhead in support of the TIC 
for hours at a time, and the precision to deliver weapons exactly where 
they are needed, while minimizing collateral damage and the risk to 
civilians. Additionally, the B-1 has the flexibility to deliver 
different weapons as required by the tactical situation and weather 
conditions, as well as the sensors to provide nontraditional ISR and 
armed overwatch day or night.

    [Whereupon, at 1:28 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
